<html>
<title> - AN ENLARGED NATO: MENDING FENCES AND MOVING FORWARD ON IRAQ</title>
<body><pre>[Senate Hearing 108-186]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-186

       AN ENLARGED NATO: MENDING FENCES AND MOVING FORWARD ON IRAQ

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 29, 2003

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



90-096              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman
CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., T1Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................     8
Corzine, Hon. Jon S., U.S. Senator from New Jersey, prepared 
  statement......................................................    57
Feingold, Hon. Russell D., U.S. Senator from Wisconsin, prepared 
  statement......................................................    37
    Contributions of NATO Members Toward Iraq Reconstruction.....    35
Hagel, Hon. Chuck, U.S. Senator from Nebraska, prepared statement    27
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     3
Powell, Hon. Colin L., Secretary of State, Department of State, 
  Washington, DC.................................................     9
    Prepared statement...........................................    18
    Responses to additional questions for the record from Senator 
      Biden......................................................    67
Voinovich, Hon. George V., U.S. Senator from Ohio, prepared 
  statement......................................................    45

             Additional Statements Submitted for the Record

American Hungarian Federation of Metropolitan Washington DC, 
  Frank Koszorus, Jr., president.................................    58
American Jewish Committee, Jason F. Isaacson, director...........    60
    Statement of David A. Harris, executive director.............    61
Hungarian Human Rights Foundation, Laszlo Hamos..................    63
    Transatlantic Security and NATO Enhancement Resolution of 
      2003.......................................................    64
Slovak League of America, John Karch, Ph.D., executive director..    64

                                 (iii)

  

 
      AN ENLARGED NATO: MENDING FENCES AND MOVING FORWARD ON IRAQ

                              ----------                              


                        TUESDAY, APRIL 29, 2003

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:34 a.m. in room 
SH-216, Hart Senate Office Building, Hon. Richard G. Lugar 
(chairman of the committee), presiding.
    Present: Senators Lugar, Hagel, Chafee, Allen, Voinovich, 
Coleman, Biden, Dodd, Feingold, Boxer, Bill Nelson, and 
Corzine.
    The Chairman. This hearing of the Senate Foreign Relations 
Committee is called to order. Today the committee is very 
pleased to welcome Secretary of State Colin Powell. Members are 
anxious to hear the Secretary's views on the status of our 
alliances, the Bush administration's plans for Iraq, the 
developing situations in the Middle East region and the Korean 
Peninsula, and estimates of the State Department's role in 
these critical endeavors.
    The hearing begins an extraordinary month of activity for 
the Foreign Relations Committee. Tomorrow we will meet to 
consider a Resolution of Ratification to expand the NATO 
alliance to include Bulgaria, Estonia, Latvia, Lithuania, 
Romania, Slovakia, and Slovenia. I am confident the Senate will 
choose to pass the Protocols of Accession for all seven 
candidates prior to President Bush's scheduled trip to Europe 
later this spring.
    On Thursday we will hold a hearing on the President's 
nominee for Assistant Secretary of State for Western Hemisphere 
Affairs and we will hold a coffee for President Uribe of 
Colombia. As early as this week, we may begin floor 
consideration of the State Department authorization bill. Next 
week we plan to take NATO expansion to the floor and the 
following week to mark up a Foreign Assistance Authorization 
bill. Depending on the floor schedule, we also hope to complete 
action on legislation to fight the global HIV-AIDS pandemic.
    All this must be done while the committee evaluates and 
responds to the evolving situations in Iraq, North Korea, 
Afghanistan, and other regional hot spots.
    Secretary Powell, when you were last before our committee 
in early February our Nation stood at the brink of war with 
Iraq. Since that time, the intransigence and depravity of the 
regime of Saddam Hussein has led to its destruction. Our 
military forces, led by President Bush and joined by many 
coalition partners, executed a swift and decisive battle plan 
that ejected the Iraqi Government from power. All of us commend 
the skill, the bravery, the humanity of our Armed Forces in 
executing this plan.
    Despite our satisfaction with the outcome of the combat 
phase of the war, we must recognize that we are probably closer 
to the beginning than to the end of our endeavors in Iraq. I 
have stated that it may take up to 5 years of effort by 
coalition countries in Iraq to fully achieve our goals of 
stability, reconstruction, disarmament, and democracy.
    This committee has been particularly interested in hearing 
from the administration about its long-term strategy toward 
Iraq, commencing with hearings held by Chairman Biden last year 
and continuing with our hearings this year. Given substantial 
funding requirements, the need to inform the American people of 
the magnitude of the burdens to come, Congress and the 
administration must work closely together if we are to succeed 
in Iraq.
    I think many Foreign Relations Committee members would 
share my opinion that the inter-branch partnership has yet to 
materialize, as it should. This committee has many questions, 
for which we have received few answers. Congress provided 
emergency supplemental funding for relief and reconstruction 
efforts in Iraq and we have not yet been consulted or informed, 
however, about the administration's plans for use of those 
funds. We continue to strive to determine the distribution of 
duties between various departments and agencies within the U.S. 
Government for reconstruction activities, to identify the 
strategy of coordinating our efforts with those of foreign 
governments and international organizations.
    Our military forces and reconstruction teams are facing 
numerous hurdles in Iraq. The challenges include the rise of 
the Shiite majority, the infiltration of Iranian agents, 
unilateral statements of authority by various Iraqi nationals, 
the omnipresent threat of terrorist acts, reestablishing 
electricity, water service, securing Iraqi antiquities, 
creating a police force to keep the peace, fairly and 
effectively distributing food and medicine and securing Iraq's 
weapons of mass destruction and those with knowledge of them.
    Over the long term, the challenges of developing a 
constitution and establishing an Iraqi Government that is 
independent, stable, and self-sufficient are truly enormous, 
and we understand that. Our policies must be clear, 
transparent, and discussed in terms of long-term security of 
the people of Iraq, the Middle East, and for ourselves.
    Even as we focus on Iraq, we realize the events of the last 
several months have sharply altered our relationship with 
allies and the entire international community. The application 
of overwhelming U.S. military power in Iraq has changed the 
calculations of some of our opponents. Meanwhile, differences 
over the U.S. approach to Iraq and revelations that some of our 
allies may have assisted Saddam Hussein's government have 
chilled relations with long-time friends.
    It is in this context the committee will vote tomorrow on 
the expansion of NATO. In doing so, we will reaffirm the 
utility and the necessity of our alliance relationships. But we 
are cognizant that some of those relationships have suffered 
deep wounds.
    Mr. Secretary, as the principal United States negotiator 
with foreign governments, we are anxious to hear from you on 
the status of our alliances. How can these relationships be 
repaired and strengthened? How can we ensure that military and 
economic burdens related to Iraq, Afghanistan, and the global 
war on terrorism do not fall overwhelmingly on the United 
States?
    As we expand NATO, we must also retool it so it can be a 
mechanism of burden-sharing and mutual security in the war on 
terrorism. NATO should not be circumscribed by geographic 
boundaries when the principal threat against all alliance 
members is global in nature.
    Last week NATO announced its intention to take over the 
leadership of ISAF in Afghanistan. I applaud this move and 
congratulate the administration on a crucial step toward peace 
and stability in Afghanistan. Although NATO is not in a 
position at this time to perform the same role in Iraq, a 
strong commitment by individual NATO nations to contribute to 
long-term peacekeeping and humanitarian duties in Iraq would 
help heal alliance divisions and reaffirm its relevance.
    As always, Mr. Secretary, it is an honor and a pleasure to 
have you with us today. We look forward to your insights on 
these matters and others of your choosing and ask for a chance 
to engage you in the dialog that we have called for.
    [The opening statement of Senator Lugar follows:]

             Opening Statement of Senator Richard G. Lugar

    Today the Foreign Relations Committee is very pleased to welcome 
Secretary of State Powell. Members are anxious to hear your views on 
the status of our alliances, the Bush administration's plans for Iraq, 
the developing situations in the Middle East region and on the Korean 
Peninsula, and your estimates of the State Department's role in these 
critical endeavors.
    This hearing begins an extraordinary month of activity for the 
Foreign Relations Committee. Tomorrow we will meet to consider a 
resolution of ratification to expand the NATO alliance to include 
Bulgaria, Estonia, Latvia, Lithuania, Romania, Slovakia, and Slovenia. 
I am confident that the Senate will pass the Protocols of Accession for 
all seven candidates prior to President Bush's scheduled trip to Europe 
later this Spring. On Thursday we will hold a hearing on the 
President's nominee for Assistant Secretary of State for Western 
Hemisphere Affairs and we will hold a coffee for President Uribe of 
Colombia. As early as this week, we may begin floor consideration of 
the State Department Authorization bill. Next week we plan to take NATO 
expansion to the floor, and the following week we intend to mark up a 
Foreign Assistance Authorization bill. Depending on the floor schedule, 
we also hope to complete action on legislation to fight the global HIV/
AIDS pandemic. All this must be done while the Committee evaluates and 
responds to the evolving situations in Iraq, North Korea, Afghanistan, 
and other regional hot spots.
    Secretary Powell, when you were last before our committee in early 
February, our Nation stood at the brink of war with Iraq. Since that 
time, the intransigence and depravity of the regime of Saddam Hussein 
has led to its own destruction. Our military forces, led by President 
Bush and joined by many coalition partners, executed a swift and 
decisive battle plan that ejected the Iraqi Government from power. All 
of us commend the skill, bravery, and humanity of our Armed Forces in 
executing this plan.
    Despite our satisfaction over the outcome of the combat phase of 
the war, we must recognize that we are probably closer to the beginning 
than to the end of our endeavors in Iraq. I have stated that it may 
take up to five years of effort by coalition countries in Iraq to fully 
achieve our goals of stability, reconstruction, disarmament, and 
democratization. This committee has been particularly interested in 
hearing from the administration about its long-term strategy towards 
Iraq.
    Given substantial funding requirements and the need to inform the 
American people of the magnitude of the burdens to come, Congress and 
the administration must work closely together if we are to succeed in 
Iraq. I think many Foreign Relations Committee members would share my 
opinion that this inter-branch partnership has yet to materialize. This 
committee has many questions for which we have received few answers. 
Congress provided emergency supplemental funding for relief and 
reconstruction efforts in Iraq. We have not yet been consulted or 
informed, however, about the administration's plans for use of these 
funds. We continue to strive to determine the distribution of duties 
between various departments and agencies within the U.S. Government for 
reconstruction activities and to identified the strategy for 
coordinating U.S. efforts with those of foreign governments and 
international organizations.
    Our military forces and reconstruction teams are facing numerous 
hurdles in Iraq. Challenges include the rise of the Shiite majority, 
the infiltration of Iranian agents, unilateral statements of authority 
by various Iraqi nationals, the omnipresent threat of terrorist acts, 
re-establishing electricity and water service, securing Iraqi 
antiquities, creating a police force to keep the peace, fairly and 
effectively distributing food and medicine, and securing Iraq's weapons 
of mass destruction and those with knowledge of them. Over the long 
term, the challenges of developing a constitution and establishing an 
Iraqi Government that is independent, stable, and self-sufficient are 
enormous. Our policies must be clear, transparent, and discussed in 
terms of long-term security for the people of Iraq and the Middle East.
    Even as we focus on Iraq, we realize that the events of the last 
several months have sharply altered our relationships with allies and 
the entire international community. The application of overwhelming 
U.S. military power in Iraq has changed the calculations of some of our 
opponents. Meanwhile differences over the U.S. approach to Iraq and 
revelations that some of our allies may have assisted Saddam Hussein's 
government have chilled rFlations with long-time friends.
    It is in this context that the committee will vote tomorrow on the 
expansion of NATO. In doing so, we will re-affirm the utility and 
necessity of our alliance relationships. But we are cognizant that some 
of these relationships have suffered very deep wounds. Secretary 
Powell, as the principal U.S. negotiator with foreign governments, we 
are anxious to hear from you on the status of our alliances. How can 
these relationships be repaired and how can we ensure that military and 
economic burdens related to Iraq, Afghanistan, and the global war on 
terrorism do not fall overwhelmingly on the United States?
    As we expand NATO, we also must retool it, so that it can be a 
mechanism of burden sharing and mutual security in the war on 
terrorism. NATO should not be circumscribed by geographic boundaries 
when the principal threat against all alliance members is global in 
nature. Last week NATO announced its intention to take over leadership 
of the ISAF in Afghanistan. I applaud this move and congratulate the 
administration on a crucial step toward peace and stability in 
Afghanistan. Although NATO is not in a position at this time to perform 
the same role in Iraq, a strong commitment by individual NATO nations 
to contribute to long-term peacekeeping and humanitarian duties in Iraq 
would help heal Alliance divisions and reaffirm its relevance.
    Mr. Secretary, it is a pleasure to have you with us today. We look 
forward to your insights on these matters and to the chance to engage 
you in a dialog on the administration's global strategic vision.

    The Chairman. I call now upon the distinguished ranking 
member, Senator Biden, for his opening comments.
    Senator Biden. Thank you, Mr. Chairman.
    Mr. Secretary, welcome. It always is a pleasure, and I mean 
that literally, to have you before us. The only problem is 
there is so much on our plate and so much on your plate. We 
could take any one of these subjects and I think fruitfully 
spend the entire day on it and longer. We understand that you 
are being pulled in 75 different directions. And I mean it 
sincerely, we appreciate that. We understand that and we 
appreciate your being here.
    I know we will only be able to touch the surface on a 
number of the issues that the chairman raised. But before I 
turn to the business at hand this morning, NATO and our 
transatlantic alliance and Iraq, not to mention North Korea and 
a few others, I want to take this opportunity to state--my mom 
has an expression. She says: If there is something good about 
someone, tell them, because it is not told often enough. I want 
you to know how much I personally and I know the chairman and 
everyone here admires your performance over the last several 
months.
    You have epitomized professionalism. You have brought not 
only your military bearing, but your deep understanding of 
international relations, and your contacts and respect that you 
have throughout the world has served us very, very well. You 
are the very best spokesman in my view this country has or 
could have at this time, and I just want you to know I 
personally appreciate it.
    Secretary Powell. Thank you, sir.
    Senator Biden. And I greatly welcomed your decision to go 
to Brussels earlier this month, and I expect you will tell me 
everyone thought that was a good idea, but I would not believe 
you. I thought it was a hell of a good idea, you going, and you 
did it and you did it well, at a very important moment with 
members of the North Atlantic Council and representatives of 
the EU. The coalition plans for the postwar Iraq and the 
possible roles for NATO and the EU; you laid the groundwork for 
some discussion for that.
    Your presence in Brussels and your personal credibility, 
which I referenced earlier, with the European leaders in 
particular in my view, most effectively underscored the 
administration's stated commitment to involving the alliance 
and our partners in the reconstruction effort.
    I suspect that this reassurance contributed to NATO's 
consensus decision to assume command of ISAF in Afghanistan, 
probably beginning as early as August. I hope it will also lead 
to an appropriate and effective role for NATO in Iraq. I also 
very much hope that we will involve as many of our allies in 
key international organizations as possible, including the 
dreaded United Nations, the way some people talk about it in 
securing and rebuilding Iraq in more than a perfunctory way.
    Bringing these players into the game offers two things that 
I think we badly need in Iraq, legitimacy and a way to share 
the burden. I know the members of this committee are not and I 
doubt whether you or any other key people are surprised by what 
is transpiring now in Iraq. The public at large, not having 
been acquainted with what is likely to happen, seem very 
surprised, including by the incident that occurred in a town 
just outside of Baghdad last night by our time today actually.
    I do not think any of this, any of this, is surprising. I 
think there is a whole lot more to come, and I know we have 
anticipated some of this. But there are two understandable and 
competing pressures in Iraq, to state the obvious, and I know 
you know this better than any of us. The first is to withdraw 
quickly. It is the instinct. I became a broken record along 
with the chairman on this committee talking about Johnny and 
Jane ain't going to come marching home right away like after 
the last war.
    We all talked about, I think the public initially thought 
that would be the case, but, on the one hand, there is this 
instinct, desire, and some rationale to bring our troops home 
as soon as we can so we are not seen as occupiers. The second 
competing pressure is to stay for the duration, to build a 
secure, stable, pluralistic Iraq that is on the path to 
democracy. This is going to require significant time and 
significant resources.
    I agree with the chairman. We have both been talking about 
this notion that this could happen in months as being 
preposterous and it is going to be somewhere in the range of 
five or maybe more years. There was a very disturbing, but 
interesting, cartoon in today's paper where the statue of 
Saddam was going down and a statue of an Ayatollah was being 
raised in its place, and the caption said, ``You wanted regime 
change.''
    I know that is not what we want, what the administration 
wants, but to prevent that kind of thing from happening we are 
in for the long haul. There is only one way to square this 
circle, it seems to me, these competing instincts of avoiding 
leaving too early or, alternatively, bearing alone the massive 
burden of a prolonged U.S. occupation or U.S. responsibility, 
and that is to internationalize the problem.
    The best way in my view to open the door to maximum 
participation by other countries and organizations is to get 
the United Nations to endorse, not run, not run, endorse, the 
security, humanitarian, rebuilding, and administrative missions 
in Iraq. Without that endorsement, in my view--and I would be 
obviously very interested in your view--I think it will be very 
hard for leaders whose people opposed the war in the first 
place to convince them to pay for and run the risks of peace.
    Iraq is not a prize, Mr. Secretary, as you well know, that 
we should be fighting over. It is a complex society in a very 
tough neighborhood, with incredibly, incredibly difficult 
problems to undertake being solved now. If we do not get help 
from other countries in a significant way, then we will soon 
find ourselves making decisions in the most minute detail about 
the governance of Iraq. If we are the only ones in charge, then 
we are the only ones going to be there for the blame when 
anything goes wrong, and there will be a lot to go wrong.
    If we are the ones picking the new Iraqi Government, it 
will be seen as a puppet regime by the Iraqi people and by the 
Iraqi neighbors. And if we are the only ones running this show, 
it will be our sons and daughters patrolling the streets in 
Kirkuk and Tikrit, running the risk of suicide bombers and 
snipers. It will be our taxpayers footing the entire bill in an 
overstretched budget, and we will be the ones not only to pay 
totally for the war, but for the peace.
    So I hope that we have the wisdom to seek help and share 
responsibility for Iraq's transition, and I would respectfully 
suggest that retaliating against longstanding allies who were 
not with us in the war, no matter how right we were and how 
wrong they were, is beneath a great nation. It is beneath a 
great nation such as ours and profoundly against our own 
interests.
    I would also like to take this opportunity to commend your 
personnel, the State Department personnel responsible for NATO 
affairs. Under Secretary Grossman, Deputy Assistant Secretaries 
Bradtke, Conley, and Bogue, and our Permanent Representative, 
Nick Burns, our Ambassadors to the seven invited countries and 
their staffs, they have all done an outstanding job in advising 
those countries on their candidacy for membership and in 
preparing the Members of the Senate to consider them.
    Tomorrow this committee will mark up an amendment of the 
North Atlantic Treaty on April 4, that was signed on April 4, 
1949, and we are going to enlarge that membership. I agree with 
the chairman; I would be surprised if it is not unanimous and I 
think we will move very quickly.
    Five years ago, I had the privilege of being the floor 
manager for the ratification for the admission of Poland, 
Hungary, and the Czech Republic. In the spirited Senate debate 
on NATO enlargement in 1998, there was already a larger agenda 
emerging, and that was the entire future of the alliance. In 
the last months, Mr. Secretary, that issue has taken center 
stage, so to speak. In fact, the enlargement of NATO has become 
critical to the integrity of our entire transatlantic 
relationship.
    If we go about it the right way, it can also be helpful to 
our success in postwar Iraq. Moreover, the alliance as a whole 
will be strengthened by the extension of Europe's zone of 
stability eastward. It will be enhanced by the specialized 
capabilities of those countries and their development of those 
capabilities in the current combat and peacekeeping operations.
    There is no doubt in my mind, the alliance will be 
fortified by the admission of members whose passionate 
commitment to democracy and to the transatlantic relationship 
stems from the recent raw and painful memory of having suffered 
under totalitarian rule.
    As you know, national leaders at the Prague summit 
intricately tied enlargement to the transformation of NATO's 
mission and capabilities and responsibilities to the modern 
threats. Yet today, only 5 months later, the leaders of France, 
Germany, Luxembourg and Belgium met in Brussels to discuss the 
EU-based security arrangement as an alternative to NATO.
    Now, I am not particularly concerned about the strategic 
implications of this meeting, but I am, however, concerned by 
the extent to which it reflects dissension, maybe even some 
disarray, in the alliance.
    So I would welcome your views, Mr. Secretary, on the state 
of our relationship with our current NATO allies and whether or 
not the meeting in Brussels merely represents a lingering 
resentment stemming from the raucous disputes in the run-up to 
this war with Iraq, or does it indicate a parting of the ways 
with some of our allies regarding how to respond to fundamental 
security threats, and if so, will that hinder a successful 
transformation of the alliance mapped out in Prague earlier?
    Without any further comment--and I would ask the remainder 
of my statement be placed in the record, Mr. Chairman----
    The Chairman. It will be placed in in full.
    Senator Biden [continuing]. I want to welcome you again. I 
look forward to your testimony and want to state for the 
record--and I know it holds for the chairman--that I 
appreciate--for those who wonder whether we are kept informed, 
we are kept informed. You never hesitate to call me. I 
appreciate your calls. I appreciate your updates, and I just 
want to state that publicly so that people know it is not just 
merely when we have you before the hearing. There are constant 
contacts with you on the telephone and I want you to know it is 
much appreciated.
    Thank you.
    [The opening statement of Senator Biden follows:]

           Opening Statement of Senator Joseph R. Biden, Jr.

    Mr. Secretary, welcome. It's always a pleasure to have you speak 
with the Foreign Relations Committee, and we particularly appreciate 
your coming up here at this especially busy moment in our diplomacy.
    Before I turn to the business at hand--NATO, the transatlantic 
relationship, and Iraq--I would like to take this opportunity to say 
how much I admire your performance over the last several months.
    You have epitomized professionalism and have been the very best 
spokesman for and practitioner of U.S. foreign policy.
    I greatly welcomed your decision to go to Brussels earlier this 
month and discuss with members of the North Atlantic Council and 
representatives of the European Union the Coalition's plans for post-
war Iraq and possible roles there for NATO and the EU.
    Your presence in Brussels, and your personal credibility with 
European leaders, in my view, most effectively underscored the 
administration's stated commitment to involving the alliance and our 
European partners in reconstruction efforts.
    I suspect that this reassurance contributed to the NATO's consensus 
decision to assume command of ISAF in Afghanistan, probably beginning 
in August. I hope that it will also lead to an appropriate and 
effective role for NATO in Iraq.
    I also very much hope that we will involve as many allies and key 
international organizations as possible--including the United Nations--
in securing and rebuilding Iraq in more than a perfunctory way. 
Bringing these players into the game offers two things that we need in 
Iraq--legitimacy and a way to share the burden.
    The first is to withdraw quickly--to bring our troops home as soon 
as we can and to not be seen as occupiers.
    The second is to stay for the duration and build a secure, stable, 
and pluralistic Iraq that is on the path to democracy. This will 
require significant time and resources.
    There's only one way to square this circle . . . to avoid leaving 
too early or, alternatively, bearing alone the massive burden of a 
prolonged U.S. occupation. And that is to internationalize the problem.
    The best way to open the door to maximum participation by other 
countries and organizations is to get the United Nations to endorse--
not run--the security, humanitarian, rebuilding and administrative 
missions in Iraq. Without that endorsement, it will be hard for leaders 
whose people opposed the war to convince them to pay for and run the 
risks of the peace.
    Iraq is not a prize that we should be fighting over. It is a 
complex society in a tough neighborhood.
    If we do not get the help of other countries in a significant way, 
then we will soon find ourselves making decisions in the most minute 
details of Iraqi governance.
    If we are the only ones in charge, then we will also get the blame 
for everything that goes wrong.
    If we're the ones picking the new Iraqi government, it will be seen 
as a puppet regime by the Iraqi people and by Iraq's neighbors.
    And if we're the only ones running the show, it will be our sons 
and daughters patrolling the streets of Kirkuk and Tikrit, running the 
risk of suicide bombers and snipers. It will be our taxpayers footing 
the entire bill on an overstretched budget--and after we've had to pay 
for the war.
    So, I hope that we have the wisdom to seek help and share 
responsibility for Iraq's transition. And I would respectfully suggest 
that retaliating against long standing allies who were not with us in 
the war--no matter how right we are and how wrong they were--is beneath 
a great nation such as ours and profoundly against our own interests.
    I would also like to take this opportunity to commend your 
personnel responsible for NATO affairs.
    Under Secretary Grossman; Deputy Assistant Secretaries Bradtke, 
Conley, and Bogue; our Permanent Representative to NATO Ambassador 
Burns; our Ambassadors to the seven invited countries, and their staffs 
have all done an outstanding job in advising those countries on their 
candidacies for membership and in preparing the Members of the Senate 
to consider them.
    Mr. Secretary, tomorrow this committee will mark up an amendment to 
the North Atlantic Treaty of April 4, 1949 to enlarge the membership of 
NATO.
    Five years ago, I had the privilege of being the floor manager for 
the ratification of the admission to NATO of Poland, Hungary, and the 
Czech Republic.
    In the spirited Senate debate on NATO enlargement in 1998 there was 
already a larger agenda emerging--the entire future of the alliance.
    In the last few months, Mr. Secretary, that issue has taken center-
stage, so to speak. In fact, the enlargement of NATO has become 
critical to the integrity of our entire transatlantic relationship. If 
we go about it the right way, it can also be helpful to our success in 
post-war Iraq.
    Moreover, the alliance as a whole will be strengthened by the 
extension of Europe's zone of stability eastward.
    It will be enhanced by the specialized capabilities that these 
countries are developing and deploying in current combat and 
peacekeeping operations.
    And there is no doubt in my mind that the alliance will be 
fortified by the admission of members whose passionate commitment to 
democracy--and to the transatlantic relationship--stems from the recent 
raw and painful memory of having suffered under totalitarian rule.
    As you know, national leaders at the Prague Summit intricately tied 
enlargement to the transformation of NATO's missions and capabilities 
in response to modern threats.
    Yet today--only five months later--the leaders of France, Germany, 
Luxembourg and Belgium met in Brussels to discuss an EU-based security 
arrangement as an alternative to NATO.
    Now I am not particularly concerned by the strategic implications 
of this confabulation. I am, however, concerned by the extent to which 
it reflects dissension--maybe even disarray--in the alliance.
    Mr. Secretary, I would welcome your views on the state of our 
relationship with our current NATO allies.
    Does today's meeting in Brussels merely represent a lingering 
resentment, stemming from the rancorous disputes in the run-up to the 
war in Iraq?
    Or does it indicate a parting of the ways with some of our allies 
regarding how to respond to fundamental security threats?
    If so, will that hinder the successful transformation of the 
alliance mapped out last fall in Prague?
    With respect to specific operational issues, can we ``agree to 
disagree'' in the future without calling into question the 
underpinnings of our alliance relationship?
    I believe we have made headway in just the last few weeks in 
healing some of the bruises from our heated disagreements over the use 
of force in Iraq.
    Again, I would cite NATO's decision on ISAF as a positive 
development and an indication of the commitment of our allies to 
maintaining the relevance of NATO.
    Coming to terms on a NATO role in Iraq is the next step. While I 
know there is ongoing discussion among allies and with the coalition 
leaders on what a NATO role might look, I would welcome your thoughts 
on what we might expect.
    Once again, Mr. Secretary, let me say how delighted I am to welcome 
you to the Foreign Relations Committee.

    The Chairman. Thank you very much, Senator Biden.
    Mr. Secretary, let me just say for the benefit of members 
of the committee that there will be a rollcall vote at noon and 
we know that you must leave to go to your duties at noon. So 
that will effectively be the end of the hearing. With that in 
mind, with the members' permission, we will adopt a 5-minute 
question period at this time. We have good attendance. That 
probably will mean that all of us will have an opportunity to 
ask questions, and the Chair will be somewhat more rigorous 
this morning in trying to keep things within the confines of 
that, in fairness to all members.
    We so much appreciate your coming and will you please 
proceed with your testimony.

    STATEMENT OF HON. COLIN L. POWELL, SECRETARY OF STATE, 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Secretary Powell. Well, thank you very much, Mr. Chairman. 
It is a great pleasure to be here again and thank you for your 
opening statement. Senator Biden, I thank you for your 
statement. Mr. Chairman and members of the committee, I will 
try to be as rigorous in my answers within the 5-minute rule as 
you are with respect to your questions.
    Let me thank you, Mr. Chairman and Senator Biden, for your 
favorable comments directed toward the Department and the work 
we have been doing. Senator Biden, your comments directed 
toward me really go right through me to the wonderful men and 
women of the State Department who work so hard every day to 
serve their Nation.
    There has been a lot of discussion about this in recent 
days, some of you may have noticed. Let me just take the 
privilege of being here to put some of the criticism directed 
toward the Department and our transforming efforts into a 
little bit of perspective. I take the liberty of doing it now, 
here, because every time I have appeared before this committee 
over the last 3 years I have talked about my role as foreign 
policy adviser to the President, but also my role as the leader 
and manager of the Department of State.
    When I became Secretary of State, the President announced 
my nomination, I immediately assembled all of the reports that 
have been written about the Department of State in recent 
years. There were five or six such reports describing changes 
that the authors believed were needed, and I even found one 
report that represents the work of a panel that I was on. So in 
effect I was now being given the opportunity to act on 
recommendations that I myself had made as part of a panel.
    I am very pleased that over the last 2-plus years we have 
worked hard to fix some of the problems that were real within 
the State Department or imagined about the State Department. We 
have presented our case to this committee and other committees 
of the Congress. You have supported us in a way that the 
Department has not been supported in recent years. We went for 
years with our budget being cut, with our personnel being cut. 
We went for years in the nineties with the Congress not 
allowing us to hire any new people in the State Department. We 
went for years with a broken overseas building operation. We 
went for years without getting into some of the personnel 
policies that we needed to take a look at.
    We have not just been talking about transformation for the 
last couple of years or studying it any longer. We have been 
working out all of these issues. The instructions I gave to my 
staff when I took over Department of State is we are not doing 
any more transformation studies; we are going to start working 
from the studies that are before us.
    I am pleased that, as the chief steward of the Department, 
that I have reported what we have done to the Members of 
Congress as well as to those organizations that were critical 
of us. Recently we have been given a report card by these 
organizations and it has been written up rather widely about 
how the State Department is transforming in a positive way.
    If I may, Mr. Chairman, I would like to make this report 
available to the members of the committee at an appropriate 
moment.\1\
---------------------------------------------------------------------------
    \1\ The report referred to can be accessed on the Department of 
State's Website at: http://www.state.gov/m/rm/c6113.htm
---------------------------------------------------------------------------
    To show the kinds of things that are happening in the 
Department, we have instituted leadership training at every 
single level from junior officer all the way up to career 
officials going out to be ambassadors. We have got tens of 
thousands of young Americans wanting to become part of the 
Department. We gave the Foreign Service exam three Saturdays 
ago and 20,000 young Americans took the test that day because 
they want to be a part of the work that we are doing.
    We have fixed our information technology system so that we 
are now working at the speed of light and we are making sure 
that every member of the Department has access to information 
technology. We have a Diplomatic Readiness Initiative, so we 
are dealing with all of the structural issues that have been 
problematic within our personnel system.
    We have lost lives along with our colleagues in uniform. 
Since I have been Secretary of State, three members of our 
family have lost their lives to terrorist incidents, two in 
Pakistan and one in Jordan. So we are out there on the front 
lines of offense. We are out there carrying the Nation's 
message. We are out there taking the values of this Nation to 
the people of the world, and we are dedicated people, committed 
to the values, committed to the values of this President.
    One can disagree about a particular policy. One can 
criticize about a particular policy and take issue with a 
particular policy, and that is all fine and good. But one has 
to do it in a manner that does not undercut the people who are 
carrying out those policies. There is no more loyal, faithful, 
group of employees in this Federal Government than the 
employees who are in the Department of State working for me, 
but more importantly working for the policies of the President 
of the United States and, above all, working for the values of 
the American people.
    We will continue to transform the Department, not talk 
about it, not have panel meetings on it, but get on with the 
work of transformation. I can assure you, Mr. Chairman, that 
remains my goal, and at least some people who have more than 
passing knowledge of the situation have given us a pretty good 
grade as to what we have done. I also take as a statement of 
endorsement the increased funding that this Congress has 
provided, the increased hiring authority that you have given to 
the Department so that we can make the Foreign Service vibrant 
and more relevant, and I give you my commitment to continue to 
move in that regard.
    Mr. Chairman, I do have a prepared statement with respect 
to the issue at hand, the expansion of NATO, which I would like 
to submit for the record and then present a shorter statement.
    The Chairman. It will be included in full.
    Secretary Powell. My statement is a little bit shorter, but 
I think it is important that I go through it in some detail 
because of the significance of the step that the Congress, the 
Senate, will be taking tomorrow. But I am very pleased to 
testify that the enlargement of NATO agreed to in Prague last 
November is a positive step forward and it is a significant 
achievement in the future of the alliance.
    I have to kind of go back to January 1989, when I had just 
left my position as National Security Adviser to President 
Reagan, and I had been through a number of summit meetings with 
then-President Gorbachev and President Reagan, and I returned 
to the Army, and the Army, in either a moment of weakness or a 
moment of wisdom, made me a four-star general and gave me 
responsibility over all of the deployable forces in the United 
States, most of them designed to reinforce our forces in Europe 
in time of war against the Soviet Union.
    Because I had seen so much in the 2 years that I worked 
with President Reagan about the way in which the Soviet Union 
and Europe and the world was changing, I said to my Army 
colleagues in one of our early commanders conferences: ``Guys, 
a day is coming soon when the Warsaw Pact is going to go away 
and all of those countries are going to be asking for 
membership applications in NATO.''
    They all looked at me somewhat askance because it meant 
that the world that we had known for all those years since the 
late forties was now about to be fundamentally changed. We have 
seen that change. We have seen the change to the point where, 
Mr. Chairman, members of the committee, I stand before you to 
ask that you give your advice and consent to the ratification 
of the Accession Protocols that will welcome into NATO seven 
former members of the Warsaw Pact and now new members-to-be of 
the North Atlantic Treaty Organization, the most powerful 
alliance in the world of its nature, an alliance that has as 
its unique character the connection between Europe and the 
North American continent. No other alliance does it. That is 
why these nations want to be a part of NATO.
    It not only integrates them more fully into Europe; more 
importantly, it integrates them into this great transatlantic 
alliance. It gives them a security relationship with Canada and 
the United States of America.
    This enlargement is part of an ambitious agenda whose goal 
is to transform the alliance. Mr. Chairman, before I continue 
let me acknowledge your leadership and the leadership of other 
members of the committee in this process of enlargement. I know 
that you and your staff have provided an invaluable guidance to 
the entire executive branch team. We could not have asked for 
better cooperation and support from you, Mr. Chairman, or from 
the committee and other committees of the Congress.
    My friends, the West's victory in the cold war and the 
defeat of Soviet communism signaled a decisive turning point in 
modern history, a victory for freedom and democracy. But the 
troubles and tragedies of the past decade have made clear that 
new threats are rising. We have seen these threats take many 
shapes, from ethnic cleansing in the Balkans to the terrorist 
attacks of September 11.
    To deal with these new threats, the United States has 
continued to rely on NATO and will do so in the future. This 
great alliance, which has kept the peace for more than 50 
years, is more than a treaty for collective defense. It is the 
central organizing force in a great web of relationships that 
holds North America and Europe together. It represents a 
community of common values and shared commitment to democracy, 
free enterprise, and the rule of law.
    This was never more evident than on September 12, 2001. On 
that day the alliance invoked Article V of the Washington 
Treaty, the basic NATO treaty, and told the world that it 
regarded the attacks on the World Trade Center and the Pentagon 
as attacks on all of its members. From this historic decision, 
we know that NATO has the will to combat terrorism and to 
address the new threats that face us.
    But the alliance must also have the means, so it must 
transform militarily and politically to secure our collective 
defense on into the 21st century and to sustain the 
transatlantic link.
    At the historic Prague summit last November, NATO heads of 
state made decisions that have put us solidly on the path to 
transformation. Their strong and unanimous endorsement of the 
U.S.-crafted transformation agenda of new capabilities, new 
members, and new relationships will help ensure that NATO 
remains relevant in the days and years ahead.
    President Bush and I were particularly pleased that Senator 
Voinovich of this committee, and Senator Frist, along with 
other Members of Congress, were able to join us in Prague. 
There in Prague, our leaders agreed to expand the NATO 
membership to include all of the new democracies in Europe who 
are prepared to undertake the responsibilities of leadership 
and of membership.
    Such an enlargement will help to strengthen NATO's 
partnerships to promote democracy, the rule of law, and promote 
free markets and peace throughout Eurasia. Moreover, it will 
better equip the alliance to respond collectively to the new 
challenges we face. This enlargement will revitalize NATO by 
expanding its geographic reach, enhancing its military 
capabilities, and inducting seven countries committed to a 
strong transatlantic link. It will serve U.S. interests by 
strengthening both NATO and our bilateral ties with these new 
allies, who have already done a great deal to support our 
vision for NATO and for collective security. All seven of the 
invitees have demonstrated that they are in a position to 
further the principles of the Washington Treaty and to 
contribute to the security of the North Atlantic area.
    The countries invited at Prague have been working 
intensively in NATO's membership action plan since 1999. In 
this process they have focused not only on security and defense 
issues, but also on democratic and market reforms. During these 
intensive preparations, each invitee has received both support 
and feedback from NATO.
    The United States has also had its own dialog with the 
seven countries about their reforms. In addition to the day-to-
day work of our embassies, we sent an inter-agency team headed 
by Ambassador Nick Burns, our very able representative in 
Brussels, in February and October of last year to visit each of 
the countries to make specific reform recommendations and to 
evaluate progress.
    The prospect of NATO membership helped to create in each 
country a political atmosphere that encouraged governments to 
adopt needed reforms. These reforms are in each country's own 
best interest. In many cases they would have been difficult to 
bring about without the demands of NATO candidacy.
    The record of each invitee government demonstrates 
powerfully its commitment to NATO. Reform areas included 
treatment of minorities, creation of a viable political 
opposition, restoration of private property, willingness to 
confront the past, combating corruption, and support within 
that population for NATO membership.
    For example, Estonia and Latvia have taken important steps 
to protect the rights of their Russian-speaking minorities. 
Their governments have eased requirements for citizenship and 
adopted other measures which provide assurances that all of the 
people of those countries will be treated with dignity and with 
respect.
    The Baltic States have acknowledged the dark times in their 
history. When Estonian Prime Minister Siim Kallas visited 
Washington last September, he publicly recognized Estonians' 
collaboration with the Nazis and the participation of Estonians 
in the murder of Jews during the Holocaust. He did not hide 
from their history.
    All seven invitees have also adopted sweeping measures to 
combat corruption. Parliaments in Bulgaria, Romania, and 
Slovakia have adopted, or are in the process of adopting, tough 
anti-corruption legislation. These three states have also 
established special prosecutors to root out public corruption. 
The new Latvian Government under Prime Minister Repse has 
instituted a major anti-corruption program. Slovenia has taken 
important strides in reducing the State's involvement in 
private enterprise and Slovenia already has one of the highest 
Transparency International ratings for clean government among 
NATO members.
    The public support for NATO membership at each of these new 
member States is very high. In Romania it is above 80 percent. 
In Slovenia's referendum last month, 66 percent voted for NATO 
membership. A clear majority in Estonia, Latvia, and Lithuania 
supports membership.
    Mr. Chairman, of course there are disappointments. For 
example, we remain troubled by reports of continuing grey arms 
sales. Bulgaria and Romania have extensive arms industries with 
longstanding ties to the Middle East. We have had considerable 
success in stopping transfers of arms to countries of concern 
from these countries.
    More important for the long term, we are working with these 
countries to help them improve their system of export controls 
and to tighten oversight of defense industries. We must not 
forget as well that the seven invitees also bring tangible 
security assets to the alliance. Enlargement will bring more 
than 200,000 additional troops into the alliance, as many as in 
1999. It will extend NATO's reach from the Baltic to the Black 
Sea both politically and geographically. And the new members 
will make the alliance stronger and they will bring fresh ideas 
and energy to the alliance.
    I am pleased to report that all seven invitees are already 
de facto allies in the war on terror. All of them have 
contributed to stabilization efforts in Afghanistan through 
Operation Enduring Freedom and the International Security 
Assistance Force. Romania sent its Carpathian Hawks Battalion 
to Afghanistan and did so using its own airlift rather than 
asking the U.S. for lift, a feat that several current allies 
could not have accomplished. That Romanian battalion is now 
patrolling and fighting beside U.S. soldiers in the most 
dangerous regions of Afghanistan.
    All of the new members have expressed support for the 
United States' position on Iraq. In February 2003, immediately 
following my presentation to the United Nations Security 
Council on the threat posed by Saddam's regime, they jointly 
called for the international community to take decisive action 
against Iraq's continued violation of international law in 
defiance of the Council. They also issued a joint statement at 
the Prague summit in November 2002 supporting the United 
States' position on Iraq.
    Moreover, Mr. Chairman, all of the new invitees sent 
military liaison officers to CENTCOM, to CENTCOM headquarters 
in Tampa, ahead of possible operations in Iraq. Several of the 
invitees have provided military support to the international 
coalition. A Slovak CBRN--chemical, biological, radiological, 
and nuclear--unit is stationed in Kuwait, incorporated into a 
Czech unit. The Romanians are providing a similar unit. The 
Bulgarians provide us with the use of their air base at Burgas.
    It is clear that the seven invitees are already 
demonstrating their military value to the alliance. This value 
has been particularly noticeable given current circumstances 
wherein some on both sides of the Atlantic are questioning the 
health of the alliance and the solidity of the transatlantic 
relationship.
    Mr. Chairman, I do not want to minimize the challenges that 
the relationship faces today as we attempt to shape both it and 
the alliance for a world no longer fenced off by the cold war. 
In February we had a bruising debate in NATO over providing 
assistance to Turkey. In the end, we achieved our goal by 
providing support for Turkey's defense. We would have preferred 
to make that decision at 19 nations instead of at 18, but 
France would not permit it. The United States and many of its 
NATO partners found it regrettable that some members so readily 
discarded their obligations to support an ally with purely 
defensive assistance. That is all we were asking for. But they 
did not follow through on their obligation, in order to press 
their own agendas on Iraq.
    Make no mistake, and I make no mistake about it, the 
disagreement was serious and our delay in responding to 
Turkey's request damaged the credibility of our alliance. 
Nevertheless, outside of the alliance we have been able to come 
through this one side of a bruising battle and this is the one 
at the U.N. Security Council with respect to Iraq.
    The war is now all but over, although there are still 
dangers, and the defensive measures that were taken to help 
Turkey are ended. We can look back at these disagreements and 
debates with dispassion and against the backdrop of almost a 
half century of solid cooperation. Such cooperation is not a 
thing of the past. It is a thing of the future as well.
    On April 16, for example, the alliance agreed to assume the 
lead of ISAF IV in August. This is the International Security 
Assistance Force in Afghanistan. So notwithstanding all of the 
fights that we had in NATO, the disagreement over providing 
support to Turkey, once that issue was behind us, we were able 
to come together again. And as note was taken during my meeting 
in Brussels a few weeks ago with all of the alliance members 
present and in another setting with all of the EU members 
present as well, we were able to agree in principle and then 
follow through with action to send the NATO alliance out of 
area to Afghanistan. Something that would have been unthinkable 
just 10 years ago is now being done. And we also got an 
agreement in principle that perhaps something similar might be 
done with respect to Iraq, although we are nowhere near as 
close to making a decision on that.
    This action with respect to ISAF will bring added 
continuity to the vital mission of helping to stabilize 
Afghanistan and take NATO beyond its traditional areas of 
responsibility. It was a unanimous decision taken by the NAC at 
19 without the kind of rancor that characterized the debates 
over Article IV obligations to Turkey.
    One of the challenges we face is understanding the threat. 
September 11 burned itself irrevocably into the mind of every 
American. To say international terrorism is just another threat 
is to defy the instinctual reality that all Americans feel in 
their heart of hearts. Every American who watched the World 
Trade Center Towers burn, crumble, disintegrate, with thousands 
of people inside and who watched the Pentagon in flames knows 
what terrorism can bring to our homeland.
    That reality leads Americans to conclude that terrorism 
must be eradicated, especially the terrorism that seeks nuclear 
weapons and other means of mass destruction. Some in Europe see 
it differently. Some see terrorism as a regrettable but 
inevitable part of society and they want to keep it at arm's 
length and as low-key as possible. It is our job to convince 
them otherwise. This is a threat we share and must combat 
together, indeed can only combat together.
    The United States must continue to lead NATO, as we have 
for more than 50 years, to deal with this new threat, just as 
we dealt with old threats. Of course there will be 
disagreements. We are democracies. None of us follows blindly. 
We debate, we disagree. On those occasions when we disagree, we 
roll up our sleeves, put our heads together, and find a way to 
work things out. At the end of the day, that is our great 
strength and that is why the transatlantic link will not break. 
The glue of NATO is too strong and it holds too fast to let it 
break.
    When I was in Europe at the beginning of this month, I also 
stopped in Belgrade to deliver personally my condolences over 
the death of Serbia's Prime Minister Djindjic, brutally 
assassinated earlier this year. I was struck by the speed with 
which the government of President Marovic and the new Serbian 
Prime Minister Zoran Zivkovic is leading a renewed and vigorous 
political effort to rid that nation of its dangerous criminal 
elements, to hand over those wanted by the International 
Criminal Tribunal at The Hague, and to strengthen democracy in 
Serbia and Montenegro. I was impressed.
    Later that day and the next in Brussels, I was heartened, 
as you heard earlier, by the discussions I had with 21 European 
ministers as well as European Union High Representative Solana 
and NATO Secretary General Lord Robertson. A majority of these 
allies had joined the coalition to disarm Iraq. Those allies 
who did not have welcomed our success even though they were 
against the effort of going in. They have now welcomed our 
success and we are all together as an alliance again exploring 
ways to support stabilization and reconstruction.
    Those who write about the demise of NATO are going to be 
wrong, just like they have been wrong many times in the past. 
We heard this story after the collapse of the Soviet Union, the 
end of the cold war. We heard it during the troubled times in 
the Balkans. I give naysayers of NATO credit for their 
persistence, but they are persistently wrong. Any alliance that 
countries are knocking on the door to get into is anything but 
dead.
    After the heated debate over Turkey, Secretary General 
Robertson said that the damage to NATO was ``a hit above the 
waterline, not below.'' The same can be said about the fallout 
in NATO from the debate in the U.N. Security Council over Iraq. 
Nevertheless, NATO must continue to adapt to changing 
circumstances. It must address the central challenges of this 
era: rogue States, terror, and weapons of mass destruction.
    Increasingly, NATO members will have to be prepared to 
focus their energies beyond Europe, a reality that will require 
that member nations possess military forces with the capability 
to go and fight beyond Europe. The alliance will recover. We 
will persevere and we must. It is essential that we recover and 
endure because there is much work which needs to be done and 
many allies who want to do it.
    In Afghanistan we need to ensure the changeover in August 
goes as smoothly as possible. This operation will constitute 
NATO's largest step to date beyond its traditionally Europe-
focused role.
    In Southern Europe, Bosnia, Kosovo, and Macedonia will 
still demand our attention and our presence. In Macedonia, 
right now, the European Union has made its first deployment of 
forces with over 300 troops. These troops and this deployment 
in no way contradict NATO. In fact, they reinforce the 
importance of the alliance and complement its work, as the 
commander of the EU force reports to NATO's Deputy Supreme 
Allied Commander through NATO's Regional Command South, a 
blending of NATO and the European Union as anticipated in the 
ESDP.
    As I have referred to, in Iraq we are exploring what NATO 
collectively can do to secure the peace. All members have said 
they are prepared to discuss a role in NATO. We have noted 
possible alliance roles in stabilization, humanitarian 
assistance operations, and NATO assistance to coalition 
partners. These preliminary discussions, if they lead to 
concrete results, could be the next big step in NATO's 
transformation.
    In line with this new orientation, Supreme Allied Commander 
General Jim Jones pointed out at the beginning of this month 
that NATO will undergo another sea change when it stands up a 
highly ready Allied Response Force with global reach, as agreed 
to in Prague last November.
    So I believe very, very much that there will be more than 
enough work to go around, and if NATO can play a role it 
should. We should not ask ourselves what can NATO do to prove 
its relevance. We should ask what can NATO do to advance the 
peace.
    The essential elements of the alliance remain firm. NATO's 
integrated military structure creates a reservoir of working, 
planning, and training together that is irreplaceable. The 
alliance itself can call upon this rich reservoir or, as seems 
increasingly likely, coalitions of the willing can be drawn 
from it.
    For example, the EU-led operation in Macedonia that I 
referred to a moment ago is drawing on NATO assets and 
capabilities to do the job under an EU mandate. Moreover, 
NATO's Council provides a valuable forum for discussing matters 
of war and peace. Fundamentally, NATO binds together nations 
that share the same beliefs and values, nations who accept that 
vigorous debate is the hallmark of an alliance of democratic 
nations.
    NATO is an alliance within which the seven future members 
invited at Prague, with the advice and consent of the Senate, 
will be able to join their colleagues and be welcome to stand 
and be heard and not be told to sit and be silent.
    Mr. Chairman, I cannot outline specific roles for NATO in 
the future. In some instances we will operate as an alliance, 
in some as members of a coalition of the willing. We may wage 
war and we will maintain the peace. For over half a century, 
NATO was indispensable to security on both sides of the 
Atlantic. That has not changed. Today the alliance remains 
indispensable to our security and to meeting the security 
challenges in a world of diverse threats, multiple challenges, 
and unprecedented opportunities. The alliance remains crucial 
to the links that bind North America to Europe and Europe to 
North America.
    Let me also stress, Mr. Chairman, as I come to my 
conclusion that the door to NATO will remain open. Prague was 
not the end of the enlargement process, just one step on the 
way. We welcome the applications of Albania, Croatia, 
Macedonia, and other future applicants as well. We will 
continue to enlarge the alliance as emerging new democracies 
and perhaps some established ones as well pursue membership and 
as they demonstrate their ability to contribute to the security 
of the Euro-Atlantic community as required under Article X of 
the NATO Treaty.
    Today, Mr. Chairman, I ask the Senate to make its vital 
contribution by performing its constitutional duty in helping 
us transform the alliance. I again urge the committee to act 
swiftly to recommend that the Senate provide its advice and 
consent on the NATO Accession Protocols that will welcome our 
new allies into our alliance: Bulgaria, Estonia, Latvia, 
Lithuania, Romania, Slovakia, and Slovenia.
    Mr. Chairman, I know this committee plans to mark up 
tomorrow and that you plan to take the protocols to the floor 
for a vote on May 7. If that occurs, and I have every 
confidence that it will, President Bush and I will be very 
grateful, but even more grateful will be these nations and the 
people that they represent.
    Mr. Chairman, thank you for your indulgence. I will stop 
here and respond to questions and I am sure that all of the 
other issues that have been raised in opening statements will 
be dealt with in the course of the questions and answers.
    Thank you, Mr. Chairman.
    [The prepared statement of Secretary of State Powell 
follows:]

     Prepared Statement of Hon. Colin L. Powell, Secretary of State

    Mr. Chairman, I am pleased to testify on the enlargement of NATO 
agreed in Prague last November, and on the future of the alliance.
    With respect to enlargement, Mr. Chairman, I strongly encourage the 
Senate to provide its advice and consent to the ratification of the 
Accession Protocols that will welcome into NATO seven new members--
Bulgaria, Estonia, Latvia, Lithuania, Romania, Slovakia, and Slovenia.
    This enlargement is part of an ambitious agenda whose goal is to 
transform the Alliance.
    And Mr. Chairman, before I continue, let me acknowledge your 
leadership and vision in this process of enlargement. I know that you 
and your staff have provided invaluable guidance to the entire 
executive branch team. We could not have asked for better cooperation 
and support.
                             the background
    The West's victory in the Cold War and the defeat of Soviet 
communism signaled a decisive turning point in modem history--a victory 
for freedom and democracy. But the troubles and tragedies of the past 
decade have made clear that new threats are rising. We have seen these 
threats take many shapes, from ethnic cleansing in the Balkans to the 
terrorist attacks of September 11. To deal with these new threats, the 
United States has continued to rely on NATO and will do so in the 
future.
    This great Alliance, which has kept the peace for more than fifty 
years, is more than a treaty for collective defense. It is the central 
organizing force in a great web of relationships that holds North 
America and Europe together. It represents a community of common values 
and shared commitment to democracy, free markets and the rule of law. 
This was never more evident than on September 12, 2001.
    On that day the Alliance invoked Article V of the Washington Treaty 
and told the world that it regarded the attacks on the World Trade 
Center and the Pentagon as attacks on all of its members. From this 
historic decision we know that NATO has the will to combat terrorism 
and to address the new threats that face us. But the Alliance must also 
have the means. So it must transform, militarily and politically, to 
secure our collective defense on into the twenty-first century and to 
sustain the transatlantic link. At the historic Prague Summit last 
November, NATO heads of state and government made decisions that have 
put us solidly on the path to transformation.
    Their strong and unanimous endorsement of the U.S.-crafted 
transformation agenda of New Capabilities, New Members and New 
Relationships will help ensure that NATO remains relevant in the days 
and years ahead.
    President Bush and I were particularly pleased that Senator 
Voinovich, of this committee, and Senator Frist, along with other 
Members of Congress, were able to join us in Prague. There, our leaders 
agreed to expand NATO membership to include all of the new democracies 
in Europe who are prepared to undertake the responsibilities of 
leadership. Such an enlargement will help to strengthen NATO's 
partnerships to promote democracy, the rule of law, free markets and 
peace throughout Eurasia. Moreover, it will better equip the Alliance 
to respond collectively to the new dangers we face.

                        THE CURRENT ENLARGEMENT

    The United States and other NATO Allies signed the Enlargement 
Protocols last month in Brussels. President Bush has transmitted them 
to the Senate. Your swift action on these Protocols will bring us a 
major step closer to realizing President Bush's vision for a ``Europe 
free, whole and at peace.''
    This enlargement will revitalize NATO by expanding its geographic 
reach, enhancing its military capabilities and inducting seven 
countries committed to a strong transatlantic link. It will serve U.S. 
interests by strengthening both NATO and our bilateral ties with these 
new Allies, who have already done a great deal to support our vision 
for NATO and collective security.
    All seven of the invitees have demonstrated that they are in a 
position to further the principles of the Washington Treaty and to 
contribute to the security of the North Atlantic area.
    The countries invited at Prague have been working intensively in 
NATO's Membership Action Plan since 1999. In this process, they have 
focused not only on security and defense issues, but also on democratic 
and market reforms. During these intensive preparations, each invitee 
has received both support and feedback from NATO.
    The United States has also had its own dialogue with the seven 
countries about their reforms. In addition to the day-to-day work of 
our Embassies, we sent an inter-agency team headed by Ambassador Nick 
Burns in February and October of last year to visit each of the 
countries to make specific reform recommendations and to evaluate 
progress.
    The prospect of NATO membership helped to create in each country a 
political atmosphere that encouraged governments to adopt needed 
reforms. These reforms are in each country's own best interest. In many 
cases, they would have been difficult to bring about without the 
demands of NATO candidacy.
    The record of each invitee government demonstrates powerfully its 
commitment to NATO. Reform areas included treatment of minorities, 
creation of a viable political opposition, restoration of private 
property, willingness to confront the past, combating corruption, and 
support for NATO membership.
    For example, Estonia and Latvia have taken important steps to 
protect the rights of their Russian-speaking minorities. Their 
governments have eased requirements for citizenship and adopted other 
measures which provide assurances that all of the people of those 
countries will be treated with dignity and respect.
    All three of the Baltic States have acknowledged dark times in 
their histories. When Estonian Prime Minister Siim Kallas visited 
Washington last September, he publicly recognized Estonians' 
collaboration with the Nazis and participation in the murder of Jews 
during the Holocaust.
    All seven invitees have also adopted sweeping measures to combat 
corruption. Parliaments in Bulgaria, Romania, and Slovakia have 
adopted, or are in the process of adopting, tough anti-corruption 
legislation. These three states have also established special 
prosecutors to root out public corruption. The new Latvia government 
under Prime Minister Repse has instituted a major anti-corruption 
program.
    Slovenia has taken important strides in reducing the state's 
involvement in private enterprise. And Slovenia already has one of the 
highest Transparency International ratings for clean government among 
NATO members.
    The public support for NATO membership in each of the new member 
states is high. In Romania, it is above 80%. In Slovenia's referendum 
last month, 66% voted for NATO membership. A clear majority in Estonia, 
Latvia, and Lithuania supports membership.
    Among the positive developments, there are disappointments. We 
remain troubled by reports of continuing gray arms sales. Bulgaria and 
Romania have extensive arms industries with longstanding ties to the 
Middle East. We have had considerable success in stopping transfers of 
arms to countries of concern. More important for the long term, we are 
working with these countries to help them improve their systems of 
export control and to tighten oversight of defense industries.
    We must not forget as well that the seven invitees also bring 
tangible security assets to the Alliance. Enlargement will bring more 
than 200,000 additional troops into the Alliance--as many as in 1999. 
It will extend NATO's reach from the Baltic to the Black Sea, both 
politically and geographically.
    And the new members will make the Alliance stronger and they will 
bring fresh ideas and energy to it. I am pleased to report that all 
seven invitees are already de facto Allies in the war on terror. All of 
them have contributed to stabilization efforts in Afghanistan through 
Operation Enduring Freedom and the International Security Assistance 
Force.
    Romania has sent its ``Carpathian Hawks'' battalion to Afghanistan 
and did so using its own airlift rather than asking the U.S. for a 
lift--a feat that several current Allies could not have accomplished. 
That Romanian battalion is now patrolling and fighting beside U.S. 
soldiers in the most dangerous regions of Afghanistan.
    All of the new members have expressed support for the United 
States' position on Iraq. In February 2003, immediately following my 
presentation to the U.N. Security Council on the threat posed by 
Saddam's regime, they jointly called for the international community to 
take decisive action against Iraq's continued violation of 
international law and defiance of the Security Council. They also 
issued a joint statement at the Prague Summit in November 2002, 
supporting the United States' position on Iraq.
    Moreover, Mr. Chairman, all of the new invitees sent military 
liaison officers to CENTCOM headquarters in Tampa, ahead of possible 
operations in Iraq. Several of the invitees are providing military 
support to the international coalition.
    A Slovak CBRN unit is now stationed in Kuwait, incorporated into a 
Czech unit. The Romanians are providing a similar unit. The Bulgarians 
provided us with the use of their airbase at Burgas. It is clear that 
the seven invitees are already demonstrating their military value to 
the Alliance.

                         THE SHIFTING LANDSCAPE

    This value has been particularly noticeable given current 
circumstances wherein some on both sides of the Atlantic are 
questioning the health of the Alliance and the solidity of the 
transatlantic relationship.
    Mr. Chairman, I do not want to minimize the challenges that the 
relationship faces today as we attempt to shape both it and the 
Alliance for a world no longer fenced off by the Cold War.
    In February we had a bruising debate in NATO over providing 
assistance to Turkey. In the end we achieved our goal of providing 
support for Turkey's defense. We would have preferred to make that 
decision at 19, instead of at 18, but France would not permit it. The 
United States and many of its NATO partners found it regrettable that 
some members so readily discarded their obligations under Article IV to 
provide purely defensive assistance to Turkey in order to press their 
own agendas on Iraq.
    Make no mistake. The disagreement was serious, and our delay to 
Turkey's request damaged the credibility of our Alliance. Likewise, 
outside of the Alliance we have come through another bruising battle, 
this one at the UN Security Council over Iraq. This battle included 
five current and one future member of NATO. This too has raised 
troubling voices about the long-term health of the Alliance.
    But now that the war in Iraq is over and the defensive measures 
taken in Turkey are ended, we can look back at these disagreements and 
debates with dispassion and against the backdrop of almost half a 
century of solid cooperation.
    Such cooperation is anything but a thing of the past. On April 16, 
for example, the Alliance agreed to assume the lead of ISAF IV in 
August. This action will bring added continuity to the vital mission of 
helping to stabilize Afghanistan, and take NATO beyond its traditional 
area of responsibility to address today's threats at one of their 
sources. This decision was taken unanimoulsy by the NAC without the 
rancor that characterized debates over Artcile IV obligations to 
Turkey.
    Lets be clear. One of the challenges we face is understanding the 
threat.
    September 11 burned itself irrevocably into the mind of every 
American. To say international terrorism is just another threat is to 
defy the instinctual reality that every American knows in his or her 
heart and soul. Every American who watched the World Trade Towers burn, 
crumble and disintegrate, with thousands of people inside, and who 
watched the Pentagon in flames, knows what terrorism can bring to our 
homeland. That reality leads Americans to conclude that terrorism must 
be eradicated--especially the terrorism that seeks nuclear weapons, and 
other means of mass destruction.
    Some in Europe see it differently. Some see terrorism as a 
regrettable but inevitable part of society and want to keep it at arms 
length and as low key as possible. It is our job to convince them 
otherwise. This is a threat we share and must combat together--indeed, 
can only combat together.
    Of course there will be disagreements. But the United States must 
continue to lead NATO to ensure our collective security, as we have for 
more than 50 years.
    But we must not forget also that we are democracies in NATO. None 
of us follows blindly. We debate. We disagree. On those occasions when 
we disagree, we roll up our sleeves, put our heads together, and find a 
way to work things out. At the end of the day, that is our great 
strength. And that is why the transatlantic link will not break. The 
glue of NATO is too strong and holds us too fast to let it break.
    When I was in Europe at the beginning of this month, I stopped in 
Belgrade to deliver personally my condolences over the death of 
Serbia's Prime Minister Djindjic, brutally assassinated earlier this 
year. I was struck by the speed with which the government of President 
Marovic and the new Serbian Prime Minister Zoran Zivkovic is leading a 
renewed and vigorous political effort to rid the nation of its 
dangerous criminal elements, to hand over those wanted by the 
International Criminal Tribunal at the Hague, and to strengthen 
democracy in Serbia and Montenegro. I was impressed.
    Later that day and the next, in Brussels, I was heartened by the 
discussions I had with 21 European ministers, as well as EU High 
Representative Javier Solana and NATO Secretary General Lord Robertson. 
A majority of these Allies had joined the coalition to disarm Iraq. 
Those Allies who did not have welcomed our success and are now 
exploring ways to support stabilization and reconstruction.
    So I caution those who, yet again, will write about the demise of 
NATO. We heard this story after the collapse of the Soviet Union and 
the end of the Cold War. We heard it during the troubled times in the 
Balkans. I give naysayers of NATO credit for their persistence--but 
they are persistently wrong. Any alliance that countries are knocking 
on the door to get into, is anything but dead.
    After the heated debate over Turkey, Secretary General Robertson 
said the damage done to NATO was a hit above the waterline, not below. 
The same can be said about the fallout on NATO from the debate in the 
UN Security Council over Iraq. Nevertheless, NATO must continue to 
adapt to changing circumstances. It must address the challenges central 
to this era: rogue states, terror, weapons of mass destruction.
    Increasingly NATO members will have to be prepared to focus their 
energies beyond Europe--a reality that will require that member nations 
possess military forces with the capability to go and fight beyond 
Europe. The Alliance will recover. We will persevere. We must.

                               THE FUTURE

    It is essential that we recover and endure because there is much 
work which needs to be done and many allies who want to do it.
    In Afghanistan we need to ensure the changeover in August goes as 
smoothly as possible. NATO will take over and run ISAF headquarters in 
Kabul, coordinate operational planning, appoint the ISAF commander and 
supervise the troop contribution process. This operation will 
constitute NATO's largest step to date beyond its traditionally Europe-
focused role.
    In southern Europe Bosnia, Kosovo, and Macedonia will still demand 
our attention and our presence.
    In Macedonia right now, the EU has made its first deployment of 
forces with over 300 troops. These troops and this deployment in no way 
contradict NATO; in fact, they reinforce the importance of the alliance 
and complement its work, as the commander of the EU force reports to 
NATO's Deputy SACEUR through NATO's Regional Command South.
    And, as I have referred to, in Iraq we are exploring what NATO 
collectively can do to secure the peace. All members have said they are 
prepared to discuss a NATO role in Iraq. We have noted possible 
Alliance roles in stabilization, humanitarian assistance operations, 
and NATO assistance to coalition partners. These preliminary 
discussions, if they lead to concrete results, could be the next big 
step in NATO's transformation to an alliance willing and able to take 
on any role in any region where it feels it can make a contribution to 
the peace or meet a common threat.
    In line with this new orientation, as SACEUR General Jones pointed 
out at the beginning of this month, NATO will undergo another sea-
change when it stands up a highly ready Allied Response Force with 
global reach, as agreed last November.
    So I believe there will be more than enough work to go around, and 
if NATO can play a role, it should.
    We should not ask, what can NATO do to prove its relevance? We 
should ask, what can NATO do to advance the peace?
    The essential elements of the Alliance remain firm:

  <bullet> NATO's integrated military structure creates a reservoir of 
        working, planning, and training together that is irreplaceable;

  <bullet> The Alliance itself can call upon this rich reservoir or, as 
        seems increasingly likely, coalitions of the willing can be 
        drawn from it. For example, the EU-led operation in Macedonia I 
        referred to earlier draws on NATO assets and capabilities.

  <bullet> Moreover, NATO's Council provides a valuable forum for 
        discussing matters of war and peace;

  <bullet> And fundamentally, NATO binds together nations who share the 
        same beliefs and values. Nations who accept that vigorous 
        debate is the hallmark of an alliance of democratic nations.

    NATO is an alliance within which the seven future members invited 
at Prague, with the advice and consent of the Senate, will be able to 
join their colleagues and be welcomed to stand and be heard and not be 
told to sit and be silent.
    Mr. Chairman, I cannot outline specific roles for NATO in the 
future. In some instances we will operate as an Alliance. In some as 
members of a coalition of the willing. We may wage war and we will 
maintain the peace.
    For over half a century NATO was indispensable to security on both 
sides of the Atlantic. That has not changed. Today the Alliance remains 
indispensable to our security, and to meeting the security challenges 
in a world of diverse threats, multiple challenges, and unprecedented 
opportunities. The Alliance remains crucial to the link that binds 
North America to Europe and Europe to North America.
    Let me stress also, Mr. Chairman, that the door to NATO will remain 
open. Prague was not the end of the enlargement process, just one step 
on the way. We welcome the applications of Albania, Croatia and 
Macedonia and other future applicants as well.
    We will continue to enlarge the Alliance as emerging new 
democracies--and perhaps some established ones as well--pursue 
membership, and as they demonstrate their ability to contribute to the 
security of the Euro-Atlantic community as required under Article 10 of 
the NATO Treaty.
    Today, Mr. Chairman, I ask the Senate to make its vital 
contribution by performing its own Constitutional duty in helping us 
transform the Alliance. I again urge this Committee to act swiftly to 
recommend that the Senate provide its advice and consent on the NATO 
accession protocols that will welcome our new allies into our Alliance.
    I understand that the committee will mark up tomorrow and that a 
floor vote will likely occur on May 7th. If I am correct in that 
understanding, I am grateful for such speed, Mr. Chairman.
    Thank you, and I will be pleased to take your questions.

    The Chairman. Thank you very much, Mr. Secretary.
    We will have a round of questions with a 5-minute limit. I 
will begin my questioning first of all just by saying what a 
remarkable celebration your testimony was of the hearings that 
we have had on the issue of the enlargement. We have been 
joined once again by the Ambassadors of the seven countries 
that are invitees, who have been faithful in all of these 
hearings.
    We very much wanted you--and the ranking member and I have 
looked forward to this moment--to outline once again the 
importance of NATO for the world, for our country, for the 
relationships we have, and for these seven great nations that 
will be coming together. We look forward to tomorrow and to May 
7 and we are hopeful we will be able to fulfill our objective.
    I want to also mention that I just applaud very much your 
opening comments about reform in the State Department. For 28 
months this committee has witnessed and celebrated that, too. 
What a remarkable phenomenon, 20,000 young Americans taking the 
Foreign Service exam just 3 weeks ago as a testimony of their 
own patriotism, their interest in this country, their interest 
in statecraft and in what you do.
    As you know, our request often has been a difficult one for 
you because we have said, ask us for what you want. You have to 
work within the confines of an administration and have to work 
with others, starting with the President, and other people, OMB 
and so forth. Nevertheless we have asked you to be ambitious. 
You have been.
    When for some reason the Budget Committee before our floor 
debate cut back that request by $1.050 billion, you called the 
chairman of the Budget Committee, you called us, and we 
responded. An amendment that we offered in fact was adopted 
unanimously, which I think is testimony to something different 
occurring. As you pointed out, that had not occurred for 
several years as the budget of the Department was truncated and 
moved downward, not upward.
    So we ask you again: Be bold, be ambitious; call upon us. 
We would like to help that reform because we have seen it 
occur.
    Let me ask as my question: General Jones, as you have 
mentioned, has talked about the potential bases and training 
areas in Eastern Europe. He has mentioned specifically Bulgaria 
and Romania that have been very helpful recently. Do you have 
any comment today about those base situations, about 
repositioning of troops in NATO, or for that matter about what 
NATO may do in Iraq in the future months, given the desire of 
many members to be very, very helpful to the coalition?
    Secretary Powell. Thank you, Mr. Chairman, and thank you 
for your opening comments about the Foreign Service. By the 
way, when you said 28 months that struck a bell. It used to 
take us 28 months to access somebody into the Foreign Service.
    The Chairman. Yes.
    Secretary Powell. We have now gotten that down to 12 months 
and we are going to drive it further down.
    The Chairman. Great.
    Secretary Powell. Also--and I cannot resist this--as you 
know, we have opened one office up on Capitol Hill to serve 
Members of Congress. It happens to be on the House side--I 
know, Chris, I am being as shameless as I can be. Just give me 
some slack.
    Senator Dodd. Call Trent Lott.
    Secretary Powell. And I am dying to get an office opened on 
the Senate side.
    Senator Dodd. If we get one more member over here and we 
are in the majority, I will get you an office.
    Secretary Powell. With respect to what General Jones said, 
it is very sensible, as the alliance has enlarged itself, 
moving to the East to take a look at a base structure that 
essentially was created back in the fifties. During my term as 
Chairman of the Joint Chiefs of Staff, we reduced the size of 
our forces in Europe from something like 310,000 down to 
roughly 100,000 to 150,000. A lot of bases went away, but the 
base structure was not fully rationalized at that time. It was 
still Armed Forces of the United States along the Iron Curtain, 
ready to fight the Soviet Union.
    Well, most of those nations we were ready to fight are now 
a part of this transatlantic alliance. So it is very sensible 
to take a look at the base structure, and not to take a look at 
it with this intent of how do we get closer to the Russian 
Federation. That is not the point at all. Anybody who thinks we 
are somehow creeping back up to a new cold war line, that is 
not it at all.
    It is just sensible to see whether there are other places 
where we should have facilities, which I think is a better term 
even than ``bases,'' facilities that will allow us to move more 
quickly to other parts of the world as we do out-of-area 
missions. As General Jones said in the article that I read this 
morning along with you, Mr. Chairman, we are looking not for a 
recreation of Fort Hood, Texas, in Bulgaria or Romania, but 
perhaps barebones facilities where you can go and use it when 
you need it for exercise purposes or for transit purposes.
    So I think if we look at it in that spirit, it is a very 
sensible idea. We also have obligations with respect to the 
Russian Federation, previous commitments we made to them to 
make sure that they do not view this in any way as threatening 
to them, and I do not think they will see it that way when it 
has been fully explained.
    I am sure that in due course my colleagues at the Defense 
Department, Secretary Rumsfeld, General Myers, and General 
Jones will come forward with fuller explanations for the 
committee as to what their needs are and what their plans are.
    The Chairman. Thank you, Mr. Chairman.
    Senator Biden.
    Senator Biden. Thank you.
    Time is short. I have one question, Mr. Secretary, and I 
realize you may not have an answer and you may not wish to 
opine the answer, but I hope you will consider talking about 
it. You indicated in your statement that NATO has to focus its 
attention beyond Europe, in addition to Europe. It seems to me 
that we are at a moment right now where we have an opportunity 
to begin to implement the objective we set out in Prague about 
an out of area concept, which my chairman has been talking 
about since the early eighties, the late eighties, or in the 
eighties, and at the same time have a win-win situation where 
we are able to get some significant assistance as it relates to 
Iraq, which is obviously out of area, as well as continue the 
process of repairing some frayed nerves, if nothing else, if 
not fundamental relationships, repairing some of the discord 
that occurred as a consequence of whether to go to Iraq.
    I had the opportunity, at the request of the French 
Ambassador, to spend some considerable time with him. You know 
him well, a very impressive fellow, and he is very, very well 
connected to the administration in Paris, beyond being the 
Ambassador here. There was, in Newsweek, a little blurb in 
``Periscope.'' I am not suggesting it is correct or incorrect. 
I am not asking you to verify this, but it indicated that, what 
we all know, Chirac did call President Bush, and indicated, 
according to Newsweek, indicated that France and Chirac leading 
France would not object to NATO peacekeeping presence in Iraq 
and suggested that France implied, according to the article, 
that it would be willing to contribute a brigade and put NATO 
presence under overall American control.
    Now, without necessarily commenting on that, although I 
welcome a comment on that if you think it is appropriate, can 
you give us some sense of whether or not it is necessary, even 
if the decision was made by the President, that this would be a 
useful outcome? That is, a formal role for NATO in Iraq under 
U.S. command. Whether or not you have been told by your NATO 
counterparts that they would need an overall U.N. resolution, 
not authorizing but sanctioning that approach?
    So it is a two-part question: A, as a predicate to the 
possibility of a formal U.N. and/or NATO role in Iraq--and I 
know we have the coalition of the willing, including some NATO 
members. I am talking about a formal NATO decision out of the 
NAC to in fact deploy troops for peacekeeping under U.S. 
command in Iraq. Is there an antecedent requirement of the U.N. 
to sanction that, A?
    B, can you give us any insight as to how far this has 
percolated up within the administration as to whether or not 
such a policy would be a wise one, that is to seek a formal 
NATO role in Iraq?
    Secretary Powell. First with respect to NATO, as I think I 
said earlier, at the NAC meeting a couple of weeks ago, they 
certainly reinforced what President Chirac and our President 
spoke about, the possibility of NATO playing a role. We have 
suggested to NATO some of the roles they might play and I 
touched on it in my presentation. Deputy Secretary Wolfowitz 
first broached this with NATO last December when he visited and 
I reinforced it during my trip to Brussels a few weeks ago.
    Some planning is going on and some ideas are being pursued 
within the Military Committee of NATO. The specific question 
about whether there is an antecedent requirement of some kind 
for a U.N. endorsement in some fashion, I think that is an open 
question, because there are some members of NATO who will say 
we do not need anything. They are there now and they do not 
need anything.
    Senator Biden. Right, I understand.
    Secretary Powell. But there are others who might say, 
before we can go off to that kind of peacekeeping operation, we 
need chapter VII action or some kind of action on the part of 
the United Nations.
    We are studying all of this, which allows me then to talk 
about the United Nations role if I may, Senator Biden. The 
President said, along with Prime Minister Blair and other 
members of the willing coalition, that the United Nations has a 
vital role to play. We believe that strongly. We are hard at 
work now trying to structure what that role should be and how 
best to get U.N. endorsement of the role that we think is 
appropriate.
    We are in serious conversation with our allies on the 
Security Council. We have some ideas as to what we think the 
U.N. should do with respect to the lifting of sanctions, with 
respect to the endorsement of an interim authority, with 
respect to an endorsement of our presence. We do not need any 
U.N. action with respect to legitimizing the act. The actual 
war in our judgment was completely legitimate----
    Senator Biden. I am not suggesting you do.
    Secretary Powell [continuing]. Under 1441. So there is a 
major role for the U.N. to play. They are playing a role 
already on the humanitarian grounds. The UNWFP and other U.N. 
agencies are working with the coalition now.
    To go beyond the humanitarian role and get into more of an 
endorsement role and get the U.N. to have a representative of 
the Secretary General actually participate in the political 
work that is now going on it seems to me is important. So in 
the days ahead we will be moving forward with an appropriate 
resolution, one resolution, perhaps more than one resolution, 
to seek U.N. involvement and endorsement of the plan to move 
forward both for the purpose of getting rid of the sanctions, 
lifting the sanctions, which are no longer relevant, and 
determining what is the appropriate role to play on the part of 
the U.N. as a coalition and the Iraqi leaders themselves who 
are now emerging out of the process we started as they start to 
put in place a government of Iraqis, by Iraqis, for Iraqis, to 
paraphrase a great American, and how the U.N. should play a 
role in endorsing that emergence of Iraqi embryonic leadership.
    Senator Biden. Mr. Secretary, you made a very profound 
statement in my view when you said that the role of NATO far 
exceeds its military role. I would respectfully suggest that a 
formal NATO vote and presence in Iraq would have a consequence 
that far exceeds the military role they would play, and I could 
not urge it strongly enough. I know it is difficult, but I 
would strongly urge that take place.
    Secretary Powell. There is support within the 
administration for such a role, as long as it is consistent 
with what the coalition has to do to achieve its objectives.
    Senator Biden. Thank you.
    The Chairman. Thank you, Senator Biden. Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you. Welcome, Mr. 
Secretary. Mr. Chairman, I have a statement for the record.
    The Chairman. It will be placed in the record in full.
    [The prepared statement of Senator Hagel follows:]

               Prepared Statement of Senator Chuck Hagel

    Thank you, Chairman Lugar, for calling this hearing. Let me begin 
by expressing my appreciation and admiration for our witness, Secretary 
of State Colin Powell. Secretary Powell has led the State Department 
during a time of historic change and challenge. His diplomatic 
achievements include an unprecedented international coalition against 
al-Qaeda and international terrorists and simultaneous management of 
crises in Iraq, Korea, South and Central Asia and the Middle East, as 
well as confronting disease and poverty in Africa and Asia. Secretary 
Powell has brought a unique confidence and prestige to American 
diplomacy. His remarkable popularity is testimony to the confidence the 
American people place in his leadership.
    The North Atlantic Treaty Organization (NATO) has been the bedrock 
of international security since its establishment 54 years ago this 
month, in April 1949. Although the military dimension of the alliance 
was instrumental in containing the Soviet Union, NATO was always about 
more than military security. America's relationship with our NATO 
allies has symbolized the common values, as well as the common 
interests, of democracies united against those international actors who 
represent tyranny and aggression.
    We live at a time of danger, unpredictability, and potential global 
instability. But we also live in a time of historic opportunity. 
Alliances are not absolved from the forces of change in world affairs. 
The ability to adapt to the challenges of this new era in world 
affairs--challenges from terrorism and weapons of mass destruction--
speak to the importance of NATO and other international institutions, 
including the United Nations, that have played such key roles in 
promoting and protecting our common interests since World War II.
    NATO's decision in November 2002 to expand its current membership 
of 19 by inviting Estonia, Latvia, Lithuania, Slovenia, Slovakia, 
Romania, and Bulgaria to begin accession negotiations acknowledges the 
imperatives of change. I strongly endorse this action and will vote for 
it. Today, member and candidate countries are expected to do what they 
can to modernize their forces, including development of niche 
capabilities and the establishment of a NATO Response Force. But we 
know that the contributions of an enlarged NATO will not be defined 
solely by military capabilities. Expanding NATO also encourages a 
process of political and economic reform in candidate states.
    There is a deep security dimension to an expanded NATO. The threats 
from terrorism and weapons of mass destruction cannot be handled by the 
United States or any country alone. Defeating terrorism requires 
unprecedented international cooperation in the diplomatic, military, 
law enforcement, intelligence and economic areas. If our purpose in an 
expanded NATO is about defeating these threats to our common security, 
than bringing these seven new members into NATO is critical to our 
national security.
    Although America's military power may be unprecedented in world 
history, NATO will continue to play a vital role in American and global 
security. In Afghanistan, the German proposal for NATO to take charge 
of the International Security Assistance Force (ISAF) represents a new 
and significant turn in NATO's mission. At some point, when there is an 
Israeli-Palestinian peace agreement, NATO troops may be called upon to 
help guarantee that peace. NATO might well also play a role in 
maintaining security in post-war Iraq.
    I believe NATO's next fifty years will be just as important for 
world peace as its first fifty years.
    Thank you, Mr. Chairman, for calling this hearing, and for placing 
the issue of NATO enlargement in the larger context of re-building 
relationships in the aftermath of Iraq. I look forward to Secretary 
Powell's testimony.

    Senator Hagel. Thank you.
    At the risk of embarrassing you, Mr. Secretary, and heaping 
more unending adulation upon your broad shoulders, I would like 
to associate myself with Chairman Lugar and Senator Biden's 
comments about the job that you and your colleagues have done 
at the State Department. I do not always agree with polls, 
especially if my poll numbers are not good, but you 
consistently arrive at 85, 90 percent job approval in this 
country. Being the most trusted----
    Senator Biden. Ninety-two percent in Delaware. Why do you 
think I am so nice to him?
    Senator Hagel [continuing]. The most trusted leader in this 
country is a pretty remarkable thing and I think it points to 
what you have heard thus far this morning about your leadership 
and what you pointed out, the people that you lead, the 
remarkable people that serve in the State Department, which we 
owe great thanks to, the professionals there.
    I would just make one comment on that. About 2 years ago, a 
young woman who worked for me came in and said: ``Senator, my 
husband and I want to do something for our country and the 
world.'' I said, ``well, Erin, I thought you were, working for 
a distinguished Senator from Nebraska.'' She did not dismiss 
that astute observation that I had made, but she wanted to 
reach beyond, beyond where she was, and informed me that she 
and her husband--and they had just had their first baby--were 
going to take the Foreign Service exam.
    Moving forward now to April 29, 2003, she and her husband 
are both in Nepal with a baby and a 3-year-old, junior Foreign 
Service career officers, and very, very proud of the work that 
they are doing for this country and for the world. I think that 
says as much about the kind of work that you are doing, you are 
all doing over there in your Department, than any one example, 
to have people like that quality of people want to be part of 
that and part of doing something more important than just 
serving their own self-interest.
    Secretary Powell. Thank you, Senator.
    Senator Hagel. Mr. Secretary, the questions that rotated 
around Iraq, Afghanistan, the role of NATO, have been obviously 
key to what you have been talking about this morning, the 
future of NATO. I would be interested in getting your thoughts 
on some of the great challenges within NATO that you foresee, 
one being something that we have been dealing with, I suspect 
will continue to deal with, and that is somewhat of a 
technology gap between some of our NATO partners.
    We recall in Afghanistan that there was some question about 
whether NATO could participate, should participate, because 
they were not up to the task in the sense that it would just 
complicate U.S. efforts there. That was I think the position of 
some in the Pentagon.
    How do you see all of that developing? First, is there a 
technology gap? Second, what role can these nations coming into 
NATO play, niche capabilities? Are there such? Is that part of 
what we will see evolve over the next 10, 15, 20 years? 
Everybody can play a role, but obviously not the same role.
    Secretary Powell. There is a huge technology gap. There is 
a serious capability shortfall. Ten years ago at the time of 
the gulf war, everybody saw what modern warfare was going to be 
like. Ten years later, it has gone up several more notches with 
respect to what modern warfare is all about, what the use of 
military force is all about--digitization, information 
technology, intelligence system, knowledge of the battlefield.
    These young soldiers of ours are wearing things, Senator 
Hagel, that you and I do not even recognize from our days in 
the Army as infantrymen. State of the art equipment. It is 
expensive, but if you want to be serious, if you want to have 
top forces and if you want to send your people into battle or 
into other kinds of operations and to give them every advantage 
to come out alive as well as successful, then you have got to 
be prepared to invest in the technology. You have got to be 
able to rationalize your defense industries. You have got to be 
able to go to your people and say, this costs money and we have 
got to make the investment in this if we would be relevant.
    The Secretary General of NATO, Lord Robertson, speaks about 
this all the time. Every time we have a NATO meeting we talk 
about capabilities. But the individual members of NATO have not 
met the task of increasing their defense expenditures in order 
to achieve that capability. It does not come cheaply.
    Reference was made to the meeting today in Belgium where 
four of the nations of the union have come together and created 
some sort of a plan to develop some sort of a headquarters. I 
will let my European colleagues discuss that one in the course 
of the next 2 days. It is only four of the many nations that 
could have attended, only four did attend. But what we need is 
not more headquarters; what we need is more capability and 
fleshing out the structure and the forces that are there with 
the equipment that they need.
    So there is a technology gap and there is a capability gap, 
and we should not expect countries such as Slovakia to show up 
as a first world force. They do not have that capability and we 
should not expect it and they could not afford it and we do not 
need it. But they can perform niche responsibilities of the 
kind we have discussed, whether it is with CBRN kind of 
equipment or a civil affairs kind of function to be performed 
or a logistics function to be performed or a commando or 
special forces kind of capability to build into their capacity.
    You do not want to ask them to do something that they 
really cannot do and they will fail at it and they will be 
disappointed and you do not get what you need. You examine each 
one of these countries. What are they able to do? What 
experience do they have? What resources can they put into it? 
And what can we do to enhance their capability? And that is 
what they contribute to the alliance, and it becomes part of 
the reservoir of capabilities that the alliance has available 
to it.
    Senator Hagel. Mr. Chairman, thank you.
    The Chairman.
    The Chairman. Thank you very much, Senator Hagel.
    Senator Dodd.
    Senator Dodd. Thank you very much, Mr. Chairman, and thank 
you again for this hearing this morning.
    Mr. Secretary, welcome, and I will just add my voice as 
well. I think you have done a great job and the country is 
lucky to have you. And to be the subject of some criticism by 
the former Speaker puts you on my all star list, so I will 
leave it at that. But I think the State Department under your 
leadership has done a remarkable job.
    Secretary Powell. Thank you, Senator.
    Senator Dodd. I appreciate your comments about them as 
well. They work very hard all the time and make a significant 
difference.
    In the limited amount of time, Mr. Secretary, just two 
quick questions if I can. One is in the structure with NATO 
itself. We are going from 16 countries obviously back in the 
period of the cold war now to 26, and I guess it is going to be 
29 with Macedonia, Croatia, and Albania possibly coming on 
board. My concern, and I will not take a lot of time in posing 
the question, is the obvious one I suppose one would think 
about here. That is, in the past this has been a basis of 
consensus. NATO made decisions based on consensus. Obviously we 
have played a very important role in developing that consensus. 
Certainly today, as nations seek to become members there is a 
certain willingness to probably be a bit more supportive on 
certain matters they might otherwise be a little more hesitant 
about.
    My concern is not today, but looking down the road as we 
try to develop NATO decisionmaking with 29 nations involved in 
the process, what can we expect from all of this? If we have an 
organization and obviously it can play a critical role both 
militarily and politically, and yet trying to get consensus out 
of 29 nations with very different political, domestic kinds of 
problems and situations, it seems to me it is going to get 
harder and harder maybe for NATO to respond as quickly and as 
rapidly as we like.
    I read with some note these reports done by Secretary 
Grossman, which seem to me more pointed to the NATO Response 
Force militarily, as well as one other one that had been done 
that seems as well to address the question. The President's 
comments in fact seem to deal more with the military aspect of 
this.
    Back in November, I submitted a piece for the Washington 
Post in which I suggested something along the lines of possibly 
sort of a Security Council apparatus here, where you would have 
those nations, obviously our own, that played a major role here 
both financially and militarily in some sort of a 
decisionmaking process, so that as we need to have a rapid 
response and quick decisions down the road the ability to get 
that from 29 nations may be extremely difficult.
    I wonder if you might comment on the general concept or 
idea, what sort of your reaction might be to something like a 
Security Council operation here, No. 1.
    No. 2, I saw this report, and it is quickly turning to 
Iraq, but the Office of Reconstruction and Humanitarian 
Assistance, and it is a flow chart here that sort of lays out 
the various offices and so forth that will flow here. I am just 
concerned, I do not see much of a role here for the State 
Department in any of this, particularly in this line over here 
that deals with the national governance issue that goes 
directly back up through General Garner, up to the Secretary of 
Defense.
    Again, just it seems to me lacking in having a heavier role 
for the political-diplomatic function of State. I do not know 
if you have had a chance to look at this flow chart, but I 
wonder if you might comment on that.
    Secretary Powell. On the first question of consensus, 
clearly when you go from 16 to 19 to 26 to 29, decisionmaking 
becomes more difficult. When you have that many sovereign 
nations, each one represented at the Council table and all the 
baggage that comes with them in terms of public opinion and the 
political dynamic within their Parliament or legislature, it 
makes it much more difficult.
    But I do not think it makes it impossible to act at 29 or 
even that much more difficult, that much more unwieldy. I think 
long before you get into the Council chamber, discussions take 
place, negotiations take place, and you essentially come in 
with a pretty good lineup. We have been quite effective in 
bringing people around to our line of thinking within 19. When 
I look at the next seven coming in and I see how they helped us 
and how they stood by us in this recent debate over Iraq, I 
have some confidence that they also would be inclined toward 
our point of view. But they are sovereign nations to make their 
own decisions.
    So I think that we have been effective in playing a 
leadership role in the alliance which will help the alliance 
get through to a consensus decision quickly, and that 
leadership role will not be diminished as we move forward to 
either 26 or 29.
    I do not see a real solution to the challenge. It will be a 
challenge, Senator, but I do not see a quick solution in the 
form of some sort of voting procedure or in the creation of a 
group of elders or those who are richer. That seems to me to 
change the fundamental nature of an alliance of free nations 
coming together, each one as important as any other. It kind of 
reminds me of the Senate, that same kind of approach.
    Senator Biden. All the kinetics and compromise.
    Senator Dodd. Do not use that as an example of efficiency 
and speed. You are making my point with that analogy.
    Secretary Powell. No, but I am making the original point 
that the founding fathers made back some time ago. I think all 
NATO members have to be represented and they all have to be 
seen as equals in that representation. Does it make things 
harder? Yes. But does it make things impossible? No. Does it 
make it a little more unwieldy? Perhaps. But I think it just 
means we will have to work harder at gaining consensus.
    The point was made earlier, and this gives me a chance to 
respond to it, that we had this disarray within NATO and we 
have frayed relations, but with how many? Most of them were for 
us. I mean, most of the nations of NATO were supportive of our 
position, even in the face of overwhelming resistance from 
within their domestic constituencies. Italy, Spain, the United 
Kingdom, a lot of the smaller countries as well as some of the 
countries up north.
    We had major disagreements with France and major 
disagreements with Germany and major disagreements with Belgium 
and a couple of the others, but most of them were for us. So we 
will work our way through this, and I just think this is one of 
the costs of doing business when you have an alliance of 
democratic sovereign nations. So I do not see an immediate 
solution to the problem. We are looking at it, as we were asked 
to do. Mr. Grossman has been in touch with our authorities in 
Brussels to at least examine this as food for thought. Let us 
take a look at this, see if there is another way, a better way, 
to do business.
    An even greater challenge will exist for the European Union 
as it expands. So it is worth looking at, but at the moment I 
do not see an alternative that, to me anyway, would be 
superior.
    With respect to ORHA, the Office of Reconstruction and 
Humanitarian Assistance, at the moment I have dozens and dozens 
of State employees who are working with General Garner. I think 
at the last count I have five ambassadors who are over there. 
Ambassador Bodine is in charge of the central part of the 
country, to include Baghdad. Other ambassadors are going over.
    It was really quite a logical progression as to how we 
thought this would evolve. In the first instance, when you are 
essentially going into a country with a military force to take 
down an entire regime and take out the entire ruling 
infrastructure, there was no question that this is a military 
mission, has to be under a military commander, and the military 
commander has to be the governing authority for some period of 
time until stability is established and until you are prepared 
to start handing off to civilian authorities.
    As Secretary Rumsfeld, Dr. Rice, and I, as well as the 
other members of the administration worked on ORHA and what it 
should look like, it clearly should have a very, very, heavy 
military, DOD, Pentagon tint to it, and it is well known that 
we had some discussions as to how strong a tint that should be. 
But we worked that all out, and so now I have solid 
representation within ORHA.
    I think as time goes on, as General Garner, who is doing a 
tremendous job, by the way, but as he and the military 
authorities establish security and stability in the country, as 
the humanitarian part gets taken care of--nobody is starving. 
There turned out not to be a starvation problem and food is now 
flowing into the country. Fix the water system, fix the 
hospitals, things of that nature; slowly but surely, we will 
get into institution-building and slowly but surely the 
political process will rise up out of the Interim Authority and 
the State Department will begin to play a more significant 
role, as will other civilian agencies of government.
    I have already started to put in place the early 
infrastructure of a diplomatic presence in Iraq. We have got 
some fly away kits that will be going in as soon as the 
security situation allows them to go in, and I have got many 
more members of the Department ready to go in. We are working 
very closely with General Garner and with General Franks and 
his people.
    Sure, the gears always tend to grind a little bit when you 
start down on one of these things, but those gears are now 
being well-lubricated and I do not anticipate a major problem.
    Senator Dodd. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. I would like to recognize Senator Biden for a 
moment.
    Senator Biden. Mr. Chairman, I just want to explain the 
absence of Senator Sarbanes. His failure to be here is only 
because he is at Johns Hopkins. He underwent successfully 
surgery this morning to remove a benign tumor and we expect him 
to be back home in a few days and back here shortly after that. 
But I just wanted to explain why he was not here.
    Secretary Powell. Thank you.
    The Chairman. Thank you, Senator Biden. I would say that 
Senator Sarbanes, always very conscientious, was together with 
the committee telling us of his regret he could not hear you 
today. But our thoughts are with him for his recovery.
    Secretary Powell. Indeed.
    The Chairman. Senator Chafee.
    Senator Chafee. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for all you are doing for the 
country. Senator Biden was asking about the relationship with 
NATO and the United Nations, particularly in out-of-area 
missions. I do not know; can you testify as to the candidate 
States' position on whether we need to go to the U.N. on out-
of-area missions?
    Secretary Powell. Let me provide an answer for the record 
because I do not want to speak for each one of them 
individually, and I am not sure that we have asked them that 
specifically. But I really do not think it will be a problem 
for most of the candidate states because some of them are 
already out of the area with us in what we are doing. They have 
units in the area even without the U.N. resolution that 
specifically talks to this follow-on mission for NATO.
    But I do not want to speak for each one of them 
individually without at least checking with my staff and 
checking with those countries before I speak for them, sir. But 
I am not expecting a problem with the candidate States on this 
issue. There may be a problem in their legislature I am NATO 
familiar with yet.
    [The following information was subsequently supplied:]

                                  U.S. Department of State,
                                       Washington, DC, May 7, 2003.

The Honorable Lincoln Chafee,
United States Senate

    Dear Senator Chafee:

    The Secretary has asked that I follow up on his behalf with regard 
to the views of the seven NATO invitees on whether UN Security Council 
endorsement is required for NATO out-of-area operations.
    In their support for coalition operations in Iraq, six of the seven 
NATO invitees--all but Slovenia--have shown by their actions that they 
do not believe all operations require UN approval, including NATO out-
of-area operations. For its part, Slovenia supported NATO military 
action in Kosovo in 1999 without UN endorsement. Slovene domestic law 
allows Slovene participation in military actions approved by NATO.
    All seven invitees also joined the ``Vilnius Group'' statements of 
November 21, 2002, and February 5, 2003: ``In the event of non-
compliance with the terms of [UNSC 1441] we are prepared to contribute 
to an international coalition to enforce its provisions and the 
disarmament of Irag.''
    This statement demonstrates the invitees' support for U.S. action 
in Iraq as well as for NATO's agreement at the Prague summit to 
undertake out-of-area operations.
    We hope this information is helpful to you and appreciate your 
interest in the subject of NATO Enlargement. Please do not hesitate to 
contact us if you have further questions on this or any other matter.
            Sincerely,
                                   Michael C. Polt,
                                Acting Assistant Secretary,
                                               Legislative Affairs.

    Senator Chafee. I just would comment that as we see the 
growth of the U.N. and this particular initiative of these 
member States, these candidates probably being agreed to, and 
the relationship with the United Nations, particularly at 
Reykjavik and endorsing more out-of-area missions, just the 
relationship of the United Nations--I think Senator Biden was 
asking, do we need to have Security Council or United Nations 
action as we go to out-of-area missions.
    Secretary Powell. Not for every mission, and I would submit 
that NATO is not subordinate to the United Nations. I think 
missions will come along that will have nothing to do with NATO 
with respect to out of area. The out-of-area mission that NATO 
performed, which we sometimes forget, was right after 9/11. 
NATO AWACS planes came to the United States of America and for 
months guarded our air space, an example of the kind of out-of-
area mission that nobody had ever thought of when we put that 
capability in NATO.
    Some of the things that are going on in Bosnia, Kosovo, and 
Macedonia, as well as in Afghanistan, there are nations that 
were signing up immediately, with or without U.N. endorsement. 
So I think each one will be reviewed individually in terms of 
what we are trying to do and whether or not the individual 
countries, as they consult with their legislatures, believe 
that there is a requirement for a U.N. resolution, as opposed 
to NATO as a body in Brussels asking for U.N. permission to do 
something.
    Senator Chafee. Thank you very much.
    The Chairman. Thank you, Senator Chafee.
    Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary. Would you just say a little bit, 
Mr. Secretary, about what kind of capacities do NATO member 
States and the proposed members have to bring to the table in 
terms of post-conflict reconstruction? What can they really do?
    Secretary Powell. A number of them, interestingly, have a 
great deal of experience in reconstruction activity that will 
be relevant to Iraq because a lot of them were involved in 
construction activity. There is knowledge of what has been done 
in Iraq previously. We are drawing on that knowledge, and even 
some of those nations that are hoping to get in there in the 
future, have done work in Iraq and that knowledge of what has 
been done previously has been helpful.
    I would not expect that these nations are going to be able 
to make significant financial contributions. They are small and 
their budgets are modest, but I think we can still expect them 
to make a contribution that is appropriate to their financial 
means. Some have offered up small units, some have offered up 
medical assistance, and each one is trying to respond within 
their capabilities.
    I would be more than pleased to give a complete answer for 
the record. We are still putting out our net call, so to speak. 
What is it you can do and what are you willing to do, and 
between my Department and the Defense Department we are in 
touch with all these nations to see what contribution they are 
able to make. We can give you a current status of that for the 
record, sir.
    [The following information was subsequently supplied:]

                                  U.S. Department of State,
                                       Washington, DC, May 7, 2003.

The Honorable Russell D. Feingold,
United States Senate

    Dear Senator Feingold:

    The Secretary has asked that I follow up on his behalf in regard to 
your inquiry at his April 29 Senate Foreign Relations Committee hearing 
on NATO members' capabilities for the reconstruction of Iraq.
    As the attached paper of our most current estimates demonstrates, 
the 19 current NATO members and the seven invitees have contributed or 
pledged a great deal toward the reconstruction of Iraq in financial, 
material and other assistance.
    We hope this information is helpful to you and appreciate your 
interest in the subject of NATO Enlargement. Please do not hesitate to 
contact us if you have further questions on this or any other matter.
            Sincerely,
                                   Michael C. Polt,
                                Acting Assistant Secretary,
                                               Legislative Affairs.

Enclosure: as stated.


        Contributions of NATO Members Toward Iraq Reconstruction
------------------------------------------------------------------------

------------------------------------------------------------------------
Belgium:          Pledged:         $4,400,000
                  Delivered:       $4,305,705

Canada:           Pledged:         $72,000,000
                  Delivered:       $41,088,422
                  Also pledged:    Disaster Assistance Teams; 3 C-130
                                    aircraft

Czech Republic:   Pledged:         $400,000
                  Also pledged:    30 water treatment stations, 5
                                    generator stations, staff for ORHA
                  Delivered:       Convoy of medicines, tents, blankets,
                                    field kitchens

Denmark:          Pledged:         $50,000,000
                  Delivered:       $1,156,069
                  Also pledged:    Staff for ORHA

France:           Pledged:         $10,752,688
                  Delivered:       $10,764,264

Germany:          Pledged:         $86,561,497
                  Delivered:       $10,936,638

Greece:           Pledged:         $4,627,000
                  Also pledged:    Treatment of wounded children
                  Delivered:       80 tons of relief supplies

Hungary:          Pledged:         $190,000
                  Delivered:       $52,000
                  Also pledged:    Medical and non-lethal defense items

Iceland:          Pledged:         $3,750,000
                  Also pledged:    Medical teams and equipment

Italy:            Pledged:         $18,000,000
                  Delivered:       $16,236,396
                  Also pledged:    Staff for ORHA

Luxembourg:       Pledged:         $3,743,316

Netherlands:      Pledged:         $20,534,759
                  Delivered:       $20,291,846
                  Also pledged:    Participation in stabilization force
                                    with UN cover

Norway:           Pledged:         $60,271,089
                  Delivered:       $4,992,015

Poland:           Pledged:         Field hospital

Portugal:         Pledged:         $1,069,519

Spain:            Pledged:         $56,000,000
                  Delivered:       $32,303,818
                  Also pledged:    12,000 blankets
                  Also delivered:  Humanitarian supplies & 150 military
                                    medical personnel

Turkey:           Pledged:         $5,000,000
                  Also pledged:    Food for contingency of 276,000
                                    Turkomen refugees

United Kingdom:   Pledged:         $329,000,000
                  Delivered:       $178,547,935
                  Also pledged:    Staff for ORHA

                 Contributions of Proposed NATO Members:

Bulgaria:         Pledged:         Staff for ORHA

Estonia:          Pledged:         $64,000

Latvia:           Pledged:         n/a
                  Delivered:       n/a

Lithuania:        Pledged:         $30,000, plus, willing to provide
                                    Turkey assistance with refugees
                  Delivered:       Military medical team to Kuwait

Romania:          Pledged:         278 non-combat troops
                  Delivered:       Humanitarian assistance staff for
                                    ORHA

Slovakia:         Pledged:         n/a
                  Delivered:       n/a

Slovenia:         Pledged:         $200,000, pediatric care

------------------------------------------------------------------------
Note: Deliveries, especially of smaller contributions, may not yet have
  been noted due to time-lags in calculating receipts.


    Senator Feingold. I would appreciate that. In light of that 
answer, if NATO does play a role in peacekeeping in Iraq, will 
the organization be stretched thin by also working in 
Afghanistan, given what you said about their limited capacities 
and resources?
    Secretary Powell. I do not know until I have a better 
understanding of what role they might play. Right now the 
peacekeeping forces that we are looking at for Iraq to come in 
behind the coalition forces are being structured and 
headquarters are being identified. We are not yet looking for a 
NATO headquarters per se.
    Whether NATO's involvement in Iraq might actually involve 
the deployment of one of the NATO headquarters to Iraq or 
whether it can be done from a present location and sending 
units under NATO flag to Iraq as opposed to a full headquarters 
coming in I think is a judgment for the Military Committee to 
make. But at the moment I do not think it would overstress the 
capability of NATO, as long as we do not start creating more 
headquarters that draw resources away from existing 
headquarters, one of my concerns about the action that was 
taken in Belgium today.
    Senator Feingold. To what degree does public opinion 
regarding Iraq and potential NATO member States affect the 
domestic political consequences of joining the alliance for 
these governments? Have our posts reported on any public 
manifestations of opposition to membership recently? In 
general, how stable can NATO be if new members are attempting 
to withdraw regularly to respond to domestic political 
pressures?
    Secretary Powell. I think every nation has domestic 
political pressures it has to deal with, depending on the 
situation or the crisis before them. In a number of the new 
candidates, there were concerns about our going into Iraq, just 
as there were among current member nations. But all of them 
dealt with that challenge and every one of them got a 
successful vote when they needed it from their populace.
    The one I was most concerned about was Slovenia when they 
took it to their Parliament at the height of the tension over 
Iraq. To be very frank, Senator Feingold, I was biting my 
fingernails figuratively over the weekend the vote was taken, 
because it looked like it was going to be very close. If they 
had not gotten the successful vote, then they would not have 
been able to sign the accession document and we would have had 
a major problem.
    But they got the vote at 66 percent, which was handy, 
handily over the amount needed, of course. It also means that 
there are questions among the remaining 34 percent as to 
whether or not it is the right thing for them or not. So yes, 
there are public opinions in these nations that sometimes 
question whether the nation should be part of this alliance, 
just like you would find public opinion differences in any one 
of the existing member nations.
    Senator Feingold. Thank you, Mr. Chairman.
    [The prepared statement of Senator Feingold follows:]

           Prepared Statement of Senator Russell D. Feingold

    I thank the Chairman and Senator Biden for calling this important 
hearing, and thank Secretary Powell for being here today.
    In the wake of the horror of September 11, 2001, NATO decided that 
those attacks on the United States could be considered an attack on the 
whole alliance, and by the beginning of October, NATO had formally 
invoked Article V for the first time. I can remember quite clearly how 
meaningful that news was for Americans, how important that sense of 
resolve and solidarity with our allies was in strengthening our own 
morale and determination.
    There were important questions to be asked then about how NATO can 
contribute to the fight against terrorism, and many of those questions 
remain. At the time, it seemed that we would answer this question in 
close collaboration with our allies, rolling up our sleeves together to 
re-examine NATO's role in post-September 11 context. But today, we are 
coping with a serious diplomatic rift between NATO member States, with 
the echoing ramifications of rhetoric about new verus old Europe, and 
with press reports speculating on how the U.S. will punish those who 
did not support our policy in Iraq. It is in this context that we are 
considering questions of enlargement and of NATO's future. I fear that 
the earlier question--the question that deals with our most important 
policy priority, the question that asks what role NATO should play in 
helping to combat global terrorism--may be lost in the shuffle.
    In the midst of this murky situation, a few points are quite clear. 
NATO has a role to play in maintaining European stability and in 
maintaining transatlantic cooperation. It should have a role to play in 
combating global terrorism, which threatens the security of all. It 
follows that new member States should have something to offer relative 
to all of these objectives.
    It is also clear that the United States military and British forces 
have done an admirable job of defeating the forces of Saddam Hussein in 
Iraq, but are now confronted by the awesome and costly task of 
restoring order. We should welcome burden-sharing in various forms to 
help us manage this task. And we should welcome burden-sharing in part 
to reassure the rest of the world that ours is not a policy of 
unilaterally imposing our will by force without consultation or 
cooperation. This is not about wanting to be liked, or about being 
popular in the halls of the U.N. or European capitals. It is about 
wanting to be secure and to maintain cooperation in the fight against 
terrorism.
    I look forward to the testimony today.

    The Chairman. Thank you very much, Senator Feingold.
    Senator Allen.
    Senator Allen. Thank you, Mr. Chairman.
    Mr. Secretary, thank you again for your magnificent job and 
that of your whole staff. Senator Lugar allowed me to have the 
gavel for various hearings on these aspirant countries. I have 
been a long-time advocate for those who meet the criteria to 
join with us since the days I was Governor working in those 
days for Poland, Hungary, and the Czech Republic.
    Some of these ambassadors that you are putting forward and 
their willingness to serve, you saw those families that are 
going to be separated as their duty stations are in Kyrgyzstan, 
Moldova, and a variety of countries. They are good patriots and 
we commend them.
    I also want to say I am glad to hear your positive comments 
in response to Chairman Lugar's comments insofar as the basing 
in other countries than Germany, where we have 80,000 troops 
stationed. In this most recent military action in Iraq, clearly 
other facilities, including Costanza in Romania and also 
facilities in Bulgaria, were helpful. These countries have been 
helpful to us in the Balkans, in Afghanistan, in Iraq as well, 
and will be of continuing importance in the war on terrorism.
    So I am one who is a strong advocate for at least 
reevaluating our options, and I think that having some of our 
forces, our capabilities, whether for staging or for various 
facilities, closer to the current threats makes sense. I think 
it is also important to recognize that those countries, 
Bulgaria and Romania in particular, want us there, and I think 
they will be cost-effective. So I look forward to working with 
you and others in that regard.
    Now, insofar as Iraq is concerned, the President on many 
occasions has said Iraqi oil, is to go to the people of Iraq. I 
have been interested in a concept which has been adopted here 
in the United States, in the State of Alaska, where a portion 
of the oil revenues goes to the citizens of Alaska. I think 
that helps individual rights.
    So I think one of the keys, actually the foundational key 
to the success of Iraq's Government, is a recognition of 
individual rights, not rights derived by religious groups, or 
ethnicity. So a country and their government, their 
constitution and their laws, need to recognize those individual 
rights.
    On the economic aspect, as far as oil is concerned, if a 
small dividend can actually go to the people as individuals as 
opposed to whomever is in control, I think that helps 
economically. It provides a sense of property rights, which are 
a important individual right. I would like to hear any comments 
or thoughts you may have on the constitution in Iraq of 
creating something like the Alaska Permanent Fund so that the 
people of Iraq indeed are the owners, not only of their 
government, but of that key resource of oil.
    Secretary Powell. There is an economic theory that we have 
been examining that is very much related to that. It 
essentially says if you want to get the most use out of the 
revenues that come from oil, rather than give it to the 
government for the government to decide what to do with it, 
just give it to the people and let them decide what to do with 
it. It sounds like very familiar economic policy. I will stop 
there.
    Senator Allen. I do not know. There are some people who 
could use some convincing on this point.
    Secretary Powell. The clear point is that the people, if 
they had access to that money directly, as is the case in 
Alaska to some of the money that is generated by Alaskan oil, 
then they can make choices in their own lives with respect to 
how they will use that money. The money will not go off to 
bureaucracies and the money will not go to Swiss bank accounts, 
although we hope we are correcting that once and for all so 
that is not a risk. But decisions will be made about investing 
that money in a business or educating a child or building a 
house or buying clothing, but it will circulate in the economy 
and it will contribute to the economy.
    So yes, Senator Allen, we are looking at this as an 
alternative. But I have to come back to the first point. It is 
up to the Iraqi people to decide how they will use the wealth 
that they have in oil.
    Senator Allen. I would suspect if they had some sort of a 
plebiscite or referendum on it, I think that they would all 
like to get a little dividend on those revenues.
    Secretary Powell. I think I would bet on that.
    Senator Allen. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Allen.
    Senator Boxer.
    Senator Boxer. Thank you so much, Mr. Secretary, for all 
you do. I have a couple of comments and a couple of questions.
    Let me just say, the idea of a dividend to the folks is 
good. We have to see what their needs are as a society. If you 
decided to disband your Department tomorrow, all that money 
could go back to the taxpayers. Now, they may like that in the 
short run, but if we did not have you and the good people you 
talk about that would be a real problem for us. So I think it 
is all a question of balancing the needs of the people, which 
is the debate that we are in constantly, obviously, here.
    I am a very strong supporter of NATO expansion. I think 
back to the days of the cold war when all those folks had no 
freedom, no countries really. As far as I am concerned, the 
larger it gets the better if the nations meet the 
qualifications.
    I want to actually mention something. You started off in a 
way defending your Department, which I understand why you did 
it, and praising the people in your Department, and I 
understand why you did it. I think it is a chance for me to 
just make a statement, not so much to you but perhaps to the 
broader audience of our country, which is I think there is an 
attempt in this country by certain leaders to really launch 
personal attacks against leaders and it is very discouraging to 
me.
    I have seen it with you. I have seen it on the moderate 
Republicans that I enjoy working with. I have seen it on my own 
leader, Tom Daschle, about as good a human being you could get. 
And I am not talking about political attacks. Those are fine. 
We are grownups, we know that. But it is more a personal type 
of attack.
    So I think whenever we have a chance as colleagues, whether 
Republican or Democratic, to say that we do not appreciate 
that--you know, I do not agree with you, Mr. Secretary, in a 
lot of issues; you do not agree with me. We have never had an 
ill word between us, and when we can work together we do; and 
when we cannot, we cannot.
    I held up a picture and a book showing the Arctic Wildlife 
Refuge, beautiful photographs by this photographer, and the 
Smithsonian now degraded that exhibit to the downstairs level 
because it was used politically--to hold up a picture of a 
polar bear and say, look at this, let us consider this. This is 
not the America I know and love. It is not the kind of Iraq 
anyone wants to see.
    So I just mention it because you spent about 5 minutes 
defending your Department. There is not one person on this 
committee, at least I do not know of any, that does not fully 
respect the work you do and the work that they do.
    Now, I have two hard questions. One has to do with the 
search for weapons of mass destruction in Iraq, and I wanted to 
know your opinion on how it is proceeding. I am one who 
believed that they were there. That is why I supported more and 
more intrusive inspections and I supported the Levin amendment 
that said we have got to get in there, we have got to find 
them.
    You absolutely put the credibility of the United States on 
the line in front of the United Nations when you said that you 
believed that they may have 400 bombs filled with chemical 
agents and 7 mobile biological agent factories and 4 spray 
tanks from planes, 550 shells with mustard gas, 30,000 empty 
munitions, enough precursors to stockpile 500 tons of chemical 
agents, 6,500 bombs from the Iran-Iraq war, 1,000 tons of 
chemical agents.
    So you laid it out very specifically. My question is, do 
you feel that our people who are searching for these weapons 
are the very best qualified in the world to do this, and do you 
think we will get more results when some of these Iraqis that 
we are capturing now on the list, the card deck--by the way, I 
am making a card deck of all the people who stole our energy, 
you know, the Enron people and all that. I have a card deck of 
those. I love it. I think it is a great idea. Do you think that 
when we have these people speaking that we will be led to these 
weapons?
    The second question has to do with my Syria Accountability 
Act that I introduced on a bipartisan basis last year and am 
about to introduce again. It would increase economic and 
political sanctions against Syria unless the President 
certifies that the Syrian Government has ended its support of 
terrorism, it has withdrawn from Lebanon, it has ceased the 
development and production of biological and chemical weapons.
    This legislation does not in any way condone, urge, or 
authorize the use of force against Syria. But it does indicate 
a real concern about their policies. Now, last year the White 
House stated, ``it was not the right time,'' to pursue the 
Syria Accountability Act. But I think now maybe is a chance 
that we can work together and get it done, because my own view 
is, rather than the sabre-rattling or the threats of war, I 
think we should just go ahead and start these sanctions if they 
do not cooperate.
    Thank you.
    Secretary Powell. Thank you. Thank you very much, Senator, 
and thank you for your support.
    On the first question of weapons of mass destruction, they 
will be found. The presentation I made before the United 
Nations on the 5th of February was at the end of 4 straight 
days of living with the entire intelligence community and going 
over every single thing we knew. Every day and every night 
leading up to the 5th of February, I was closeted with our very 
best experts.
    What I presented on that day was information that was all-
source and that had other backup to it and not just what they 
saw in the presentation. Everything we had there had backup and 
double sourcing and triple sourcing. A lot of the things that 
were talked about at my presentation and have been talked about 
in other presentations and Director Tenet has presented to the 
Congress on a number of occasions had to do with gaps in 
knowledge, gaps that the Iraqis could have filled if they had 
intended to fill them. So whether something is there or not 
with respect to a certain number of liters of one kind of agent 
or another could have been reconciled if they had chose to 
reconcile it, and they did not. So we will try to reconcile it, 
see whether it is there or not.
    It is also important to remember that when Resolution 1441 
was passed it began with a clear statement of Iraq guilt. All 
15 members of the Security Council who approved and voted for 
1441 were saying in the beginning that they believed that Iraq 
had weapons of mass destruction and had not properly accounted 
for them. So the question of what we find and I am confident 
that we will find was really resolved when 1441 was passed. 
Resolution 1441 really was the key element in this conflict in 
the sense that it not only gave legitimacy to what we did, but 
it brought the Council together 15 to 0 to say that Iraq is 
guilty and it is condemnable, and if they do not fix themselves 
they are subject to serious consequences.
    I agree with you--or let me pick up what you said about 
interviews. We will learn more and we are learning more right 
now. I am getting almost daily reports of little nuggets that 
are coming out with respect to what was done, what might have 
been destroyed in recent days, where certain records are. So I 
am confident that we will be able to deal with that.
    With respect to Syria, I will be traveling to Syria in the 
very, very near future and all of the issues that are of 
concern to us, whether it has to do with support of terrorism 
or weapons of mass destruction or some of the activity that was 
taking place across the Syria-Iraq border that caused us 
concern or the fact that Syria is still present in Lebanon, it 
is still under a state of martial law, all of these issues I 
expect to have full and very direct conversations with the 
Syrian leadership about.
    My hope is that President Bashar Assad and his colleagues 
are looking at what is happening in the region and factoring 
that into their policymaking apparatus--the complete change in 
circumstances as a result of the end of the Saddam Hussein 
regime, so they have a different neighbor on their doorstep 
now, a neighbor that is going to be moving in a democratic way, 
and hopefully they have factored that in.
    The other element that I hope they are factoring in is that 
some time in the next 24 to 72 hours, I hope, the PLC will 
confirm Mr. Abu Mazen as the Prime Minister of the Palestinian 
Authority, and when that happens a road map will be delivered 
by members of the quartet--the United States, Russian 
Federation, the United Nations, and the European Union--which 
will lay out obligations and commitments and responsibilities 
of both the Palestinian side and the Israeli side.
    It is going to be controversial. If people want to change 
and people want to comment on it, let them comment on it and 
start talking to one another. But above all, let them start 
taking action, both sides, beginning with ending violence and 
terror, to move down this road map to the creation of a 
Palestinian state. The President is committed to put the full 
weight of his office and all of us behind this. When that 
starts, I hope the Syrians will recognize that they have a role 
to play in all of this as we move toward a comprehensive 
solution that must include Syria and Lebanon.
    So I think these two changed elements fundamentally should 
reshape the manner in which Syria is examining its policies, 
and I hope that I have a full, candid, and open discussion with 
President Bashar Assad about this in the very near future.
    Senator Boxer. Thank you.
    Mr. Chairman, just--will you take another look at the Syria 
Accountability Act, please?
    Secretary Powell. Yes, ma'am.
    Senator Boxer. I think it will help you when you meet him.
    Secretary Powell. I will take a look.
    Senator Boxer. Tell him we have got it out here. Thanks.
    Secretary Powell. Yes, ma'am.
    [The following information was subsequently supplied:]

                                  U.S. Department of State,
                                      Washington, DC, May 30, 2003.

The Honorable Richard Lugar, Chairman,
Committee on Foreign Relations,
United States Senate.

    Dear Mr. Chairman:

    On April 29, during the Committee on Foreign Relations' hearing 
``An Enlarged NATO: Mending Fences and Moving Forward on Iraq,'' 
Senator Boxer requested that Secretary Powell consider the Syria 
Accountability Act.
    The United States is at a very challenging time in our bilateral 
relationship with Syria. We are in the process of intense dialogue with 
the Syrian regime on a host of issues of concern, including terrorism, 
connections to the regime of Saddam Hussein, its pursuit of WMD, and 
the Syrian military presence in Lebanon.
    As you are aware, the President asked Secretary Powell to visit 
Syria for candid discussions on the future of our relationship. We are 
prepared to brief the Committee on those conversations and offer an 
assessment of how U.S. policy goals can most effectively be pursued.
    In light of this current fluid environment, we ask that you not 
move forward on this bill at this time.
    The Office of Management and Budget advises that from the 
standpoint of the Administration's program there is no objection to the 
submission of this letter.
    I hope this information is useful to you. Please do not hesitate to 
call if we can be of further assistance.
            Sincerely,
                                             Paul V. Kelly,
                          Assistant Secretary, Legislative Affairs.

    The Chairman. Thank you very much, Senator Boxer.
    Senator Voinovich.
    Senator Voinovich. Thank you, Mr. Chairman.
    Mr. Secretary, I would like to congratulate you and your 
team on the outstanding job that you have done. I think you 
have got more on your plate than any Secretary of State at 
least in my memory and you are handling it all quite well.
    I am really pleased that you are taking your CEO 
responsibilities very seriously and moving in the personnel 
area, and technology, and I know you are working to secure the 
embassies. On another committee in which I am involved, 
Governmental Affairs, I am chairman of the Subcommittee on 
Oversight of Government Management and the Federal Work Force, 
and we are going to be marking up some bills one of these days 
for the Defense Department, for NASA, and some other 
legislation that gives departments flexibility. I know that you 
have a real problem of compression in the State Department, 
also with bonuses that accrue and cannot be taken because of 
unrealistic pay caps. I would really like your human resources 
people to look at that legislation, to come back with 
recommendations on perhaps how we can respond to some 
particular problems that you may be experiencing as Secretary 
of State.
    Secretary Powell. We would be delighted, Senator. Thank 
you.
    [The following information was subsequently supplied:]

                                  U.S. Department of State,
                                       Washington, DC, May 7, 2003.

The Honorable George V. Voinovich,
United States Senate

    Dear Senator Voinovich:

    This is in response to your request to the Secretary at the April 
29 SFRC hearing for recommendations concerning Congressional assistance 
for the Department as the Federal government considers civil service 
reforms.
    We would like to offer to brief your staff on human capital issues 
at the Department of State and our management agenda and offer some 
comments on the legislation currently pending before your committee.
    Doug Wertman of my staff will contact your office to arrange such a 
meeting at your convenience.
            Sincerely,
                                   Michael C. Polt,
                                Acting Assistant Secretary,
                                               Legislative Affairs.

    Senator Voinovich. The other thing that I would like to ask 
you about is this, when I was with you and the President at the 
Prague summit, there was a great deal of discussion about the 
ability of NATO to field forces quickly and effectively to do 
whatever the forces are needed to do around the world. We also 
know that the DCI has not worked and now we are talking about 
the Prague Capabilities Commitment, and we are talking about 
the NATO Response Force.
    The question I have is, are we really serious about this? 
Have we, for example, underscored to the other members of NATO 
that they are not stepping up to the plate and doing the job 
that they are supposed to be doing, reminding them that some of 
the ambassadors that are here from the aspirant countries are 
doing more in their defense budgets than members currently of 
NATO, that they have got to step up and do their job?
    Have we specifically identified what the NATO Response 
Force is going to look like and what individual 
responsibilities are going to be within that structure? Now, 
you are talking about going into Afghanistan and visualizing 
perhaps going into Iraq, but it seems to me that if you are 
going to do something like this you have got to really be 
specific about what it is that this rapid response unit is 
going to be and what people's responsibilities are going to be, 
and then monitor the performance of individuals that are 
involved to make sure they move forward.
    I would like to know just how formal this is--have we 
formalized this at all or is it just kind of, well, we are 
going to move into Afghanistan and whoever has got whatever it 
is, they will pitch in, and if we go into Iraq they will pitch 
in?
    Secretary Powell. With respect to your first question, 
there is no NATO meeting that I go to or that my colleague Don 
Rumsfeld goes to that we do not press on the need to increase 
the capabilities of individual countries, not just to go out 
and buy things, but to buy the right things. Lift, the ability 
to go out of area, is critical. And if you are going to go out 
of area and be far away from your home bases, then you have to 
have the logistics systems, the intelligence systems, and the 
communications systems that allow you to do that.
    Frankly, NATO has not, the individual countries of NATO, 
have not done a good enough job on this. They talk about it and 
we have plans and, as you noted, there are always new 
initiatives coming along, but the initiative we need more than 
any other initiative is the political will on the part of each 
and every one of these countries to go to their people and say 
there are still threats in this world, we are still part of a 
great alliance, and we have to pay, and we have to make sure 
that we have first class, world class forces if we are going to 
send them to Afghanistan or Iraq, a Bosnia or a Kosovo or a 
Macedonia or anywhere else.
    We continue to press at political levels, not just military 
levels, at political levels for Prime Ministers and Presidents 
to take this case to their people and to their Parliaments and 
legislatures. We are not having the kind of success we need. 
George Robertson, Lord Robertson, has been in the forefront of 
asking for these increased capabilities.
    With respect to the rapid response unit, it is still being 
created. I cannot answer your specific questions with respect 
to it, but I will certainly talk to my colleagues both in 
Brussels and in the Pentagon to see if we can give you a more 
fulsome answer for the record, sir.
    [The following information was subsequently supplied:]

                                  U.S. Department of State,
                                       Washington, DC, May 7, 2003.

The Honorable George V. Voinovich,
United States Senate

    Dear Senator Voinovich:

    The Secretary has asked that I follow up on his behalf with regard 
to what a NATO rapid response force will look like and how individual 
responsibilities will be delegated within that force, questions you 
raised in the Senate Foreign Relations Committee's April 29, 2003 
hearing on NATO Enlargement.
    The NATO Response Force (NRF) is still in its early stages of 
creation. General Jones, as Supreme Allied Commander Europe, has his 
staff working on the details of this force and a timeline to make it a 
reality. We expect those details to become clear within the next two 
months.
    Although specific composition is yet to be defined, Allies agree 
that the NRF will consist of air, ground and maritime forces at very 
high readiness and rapidly deployable for the full range of Alliance 
missions. While individual responsibilities have not been assigned, all 
Allies will be expected to make appropriate NRF contributions. These 
forces will be as multinational as possible without compromising 
military effectiveness. Initial operational capability is planned for 
October 2004, with final operating capability planned for October 2006.
    We hope this information is helpful to you. Please do not hesitate 
to contact us if you have further questions on this or any other 
matter.
            Sincerely,
                                   Michael C. Polt,
                                Acting Assistant Secretary,
                                               Legislative Affairs.

    Senator Voinovich. Thank you.
    One other thing, Mr. Chairman. I am very interested as a 
member of this committee in growing anti-Semitism and organized 
crime in the world. One of the things that I am very concerned 
about is that we are bringing some new nations into NATO and a 
couple of them specifically have had some problems with 
corruption and with organized crime. I would like to know, what 
are we doing as a country to respond to what I consider a very, 
very formidable organized crime effort in the old Balkans area 
and that region in terms of coordinating the EU, SECI, OSCE?
    It seems like the opposition is very well organized and we 
are still trying to get our act together.
    Secretary Powell. We of course speak about it rhetorically 
and let them know that admission to NATO brings with it 
responsibilities and we are expecting the rule of law, we are 
expecting transparency, and we are expecting you to root out 
corruption. Then with each nation, we dial in and speak 
specifically to them as to their particular needs.
    In the case of Bulgaria, when that was of interest we 
helped them to realize the need to establish an inter-agency 
anti-corruption commission, which they have just created, 
chaired by their Minister of Justice. The Bulgarian Parliament 
just passed new anti-corruption legislation, anti-bribery 
legislation, and asset forfeiture legislation to take assets 
away from criminals is pending now before the parliament.
    Romania is crafting bills that are aimed at reforming the 
judiciary, civil service, and political party financing 
activities. Creation of an anti-corruption prosecutor's office 
last fall I think will also help. The media is being turned on 
within these countries to this kind of corruption that is 
absolutely corrosive of the democracy that they are now trying 
to strengthen.
    So we are working hard with them. There were a number of 
other countries that I will not mention by name where we had 
specific problems with specific individuals and we made it 
clear to the leaders of those countries, both I did directly 
and members of my Department, that there was a limit as to what 
we could do with respect to cooperation either bilaterally or 
within NATO if these kinds of individuals were going to be 
around.
    Through constant pressure and not letting the pressure up, 
that problem was dealt with. So we will continue to make clear 
to these countries that obligation. The obligation that comes 
with membership in NATO is not just having troops that can go 
somewhere, but living up to the highest standards of the 
democratic values that hold this alliance together.
    Senator Voinovich. Thank you.
    [The preparded statement of Senator Voinovich follows:]

           Prepared Statement of Senator George V. Voinovich

    I would like to thank the chairman and the ranking member for 
convening this hearing today, and our distinguished witness, Secretary 
Powell, for taking the time to appear before the committee this 
morning. It is clear that there are many demands on your time, and your 
presence here today is greatly appreciated. I would also like to 
congratulate you on your efforts during the past several months. You 
are doing an outstanding job, particularly with so many irons in the 
fire.
    It is good to have the chance to talk with you again about 
enlargement of the NATO alliance. I was thrilled to be with the 
President and with you at the NATO Summit in Prague last November, and 
I will always be grateful for the opportunity to be in the room when 
Secretary General Lord Robertson announced the historic decision to 
invite seven countries Bulgaria, Estonia, Latvia, Lithuania, Romania, 
Slovakia and Slovenia--to join the alliance. I also appreciated the 
reception that you held for members of the congressional delegation to 
the summit.
    Much has taken place since we spoke in Prague last fall. We find 
ourselves discussing enlargement as we are at a crossroads in Iraq, 
with the military campaign to liberate the Iraqi people coming to a 
close and efforts to promote a democratic, peaceful and secure future 
for the country just beginning.
    Without a doubt, the support of the international community--
including our NATO allies--will be crucial as we move forward in Iraq. 
Many of our NATO allies, including the candidate countries, have 
already made significant contributions in our efforts to disarm Saddam 
Hussein and secure a better future for the people of Iraq. Their 
continued support is highly important as we look not just to win the 
war, but to win the peace in Iraq.
    The question of NATO enlargement has been considered in a changed 
world following the events of September 11, 2001. The alliance has been 
challenged to confront new threats, and to develop the capabilities 
necessary to meet them. As we come together to confront growing 
challenges to global peace and security, including terrorism and its 
dangerous link to the proliferation of weapons of mass destruction, I 
continue to believe that an enlarged NATO will enhance the security of 
United States, Europe and the world at large.
    While the candidate countries still have work to do on their 
Membership Action Plans (MAPs), they have already demonstrated their 
willingness and ability to contribute to efforts to combat threats to 
world peace. They have acted as de facto allies, and I am glad that the 
Senate is taking the necessary steps to move forward on the 
ratification process and make membership a reality for these new 
European democracies.
    Thank you, Mr. Secretary, for your testimony and time with us this 
morning.

    The Chairman. Thank you very much, Senator Voinovich.
    Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman. Again, I want to 
thank you personally for raising the issue with your colleagues 
on Scott Speicher. There is a team in there that is looking for 
him. The fact that he is on the priority list along with 
weapons of mass destruction to find is in no part a small 
measure due to you raising this issue, and I appreciate that.
    I just returned with a delegation led by the majority 
leader from the Far East, with the primary issue being North 
Korea. We leaned pretty hard on the Chinese leadership, 
suggesting that where they had in the past yanked the chain of 
North Korea by shutting off the fuel for 3 days that sent a 
fairly strong message. I was a little distressed to hear 
President Hu talk like that they were merely going to be 
conveners of the meetings.
    In that meeting and in subsequent meetings, then we bored 
in pretty hard on how it was clearly in China's interest that 
there be no nukes in North Korea as well as our interest. Since 
then, Secretary Kelly has been there and I would like to have 
you give this committee the benefit of your thought on the 
progress.
    Secretary Powell. Thank you, Senator. Let me thank you for 
making that trip and for your interventions with the Chinese 
leadership.
    The President has said from the very beginning--and by the 
beginning I mean last October when we confronted the North 
Koreans with our knowledge that they were trying also to 
develop nuclear weapons via enriched uranium technology in 
addition to the plutonium activity that had been taking place 
at Yongbyon and which we thought we had capped since the Agreed 
Framework of 1994.
    When confronted last October, they admitted it and the 
President made it clear that this was unacceptable, but that he 
believed a diplomatic solution could be found. He charged me 
and the members of my team to pursue a diplomatic solution. The 
President also made it clear that it had to be a solution that 
was of a multilateral nature. It had to involve the other 
countries of the region. It was not to be simply a U.S.-DPRK 
problem, that we would somehow cut a deal around the interests 
of our friends in the region.
    But beyond that, these weapons, if they existed, and if the 
North Koreans continued to pursue them, were a greater threat 
to their neighbors than even to the United States, so the 
neighbors had to be involved. We held to that position despite 
a great deal of pressure suggesting that, well, why don't you 
just make this problem go away by talking directly to the North 
Koreans.
    It took us a number of months, but we finally persuaded in 
straightforward discussions with our Chinese colleagues, 
finally persuaded the Chinese to play an active role, not just 
as conveners of a trilateral or multilateral meeting, but to be 
a full participant in that meeting. And they agreed and, 
frankly, they participated with considerable relish, and it is 
now with some pride that they talk about what happened last 
week.
    We would have liked to have seen it be a multilateral 
meeting with four and five members present, participants. South 
Korea and Japan we would have preferred to see in the room. 
That was more than the traffic could bear right now. But I can 
assure you, they were in the room in terms of their equities, 
in terms of their interests, and in terms of the 
representations that we made on their behalf by Assistant 
Secretary Kelly.
    The meeting I have characterized as useful and I think it 
was. The Chinese in that meeting reaffirmed their position, the 
position of their government, not only of the government that 
just left office but President Hu's government coming in, that 
the Korean Peninsula should be denuclearized. They made that 
clear at the meeting and made it clear to the North Koreans, 
and of course reinforced our position.
    The Chinese did something else. They also acknowledged the 
existence of a 1992 agreement between South Korea and North 
Korea where North Korea previously agreed and entered into this 
agreement with South Korea that there would be no nuclear 
weapons on the peninsula. So the Chinese participated fully and 
presented their case fully.
    The North Koreans said a number of things, always with the 
usual ambiguity around their statements. But they said they had 
reprocessed all of the rods at Yongbyon. We have no independent 
evidence to suggest that that is the case, but nevertheless 
that is what they said. We are not sure it is true, but that is 
what they said.
    They also indicated in an aside that they did have nuclear 
weapons and they said they told it to the United States 10 
years ago during the period when the Agreed Framework was being 
negotiated. We have checked with every single one of the 
negotiators on our side from that period and none of them say 
that the North Koreans actually told them that, although they 
came close. They certainly made some inferences that could have 
led somebody to believe that and they may have believed it 
themselves, but they never told us that.
    So we have always attributed to the North Koreans the 
possession of one or two nuclear weapons, our best intelligence 
estimate they might have or could have one or two nuclear 
weapons, but they have said that they had it.
    But then they went on to say: And there is a way to move 
on. So they gave us a proposal and that proposal would, if it 
were followed through, according to them, lead to the removal 
of the nuclear capability and maybe even deal with their 
missile capability. It is a proposal of a kind we have seen 
previously from them and it is something that of course I 
believe that, because our other friends are interested in, we 
will study. But it is a proposal that is not going to take us 
in the direction we need to go.
    But nevertheless we will study it. I think that is 
appropriate. We will not be intimidated by their claims and 
threats. As the President has said often and repeatedly, and 
there should be no question about it, we will not be 
blackmailed. We are going to work closely with our friends and 
allies. We are going to keep this multilateral. We are going to 
consult with our colleagues in the Security Council. The 
Security Council has a role to play in all of this and we will 
continue to hold North Korea, accountable for its behavior in a 
variety of areas. The President still believes, and I still 
believe, that a diplomatic solution is possible.
    So we had a useful meeting last week. What happens next 
remains to be seen. We will be consulting here within the 
administration and we will be consulting with our friends and 
colleagues. But the North Koreans have pretty much said they 
are doing these things and they have these things. What that 
does is makes it clear to everybody in the neighborhood, the 
South Koreans, the Chinese, the Japanese, the Russians, the 
Australians, let there be no doubt that the North Koreans have 
been doing what we said they were doing. Now they must be 
brought to understand that the presence of this kind of 
capability will buy them nothing of any use and only the total 
elimination, verifiable elimination, of this kind of 
capability, these sorts of programs, and other, more 
responsible behavior on their part will bring about a solution 
to this problem and will allow them to do something that they 
ought to be doing, and that is taking care of 24 million 
starving people who deserve better than what they are getting 
from this regime.
    So we are clearheaded and openminded about the way forward. 
The President has given us very strong and clear guidance. We 
keep all of our options available, but the President continues 
to believe a diplomatic solution is possible and something that 
has to be done on a multilateral basis. We are not the only 
ones with an equity.
    The Chairman. Thank you very much, Senator Nelson.
    Senator Coleman.
    Senator Coleman. Thank you, Mr. Chairman.
    Mr. Secretary, I want the join in the chorus of voices in 
applauding you and your team for the things that you have done 
in articulating the vision of the President and in securing the 
15 to 0 vote on 1441, for building a very broad international 
coalition, and for how we are handling the North Korean 
situation, understanding that we do not do it alone, that we 
bring others to the table. So I want to thank you for that.
    Second, I also want to state for the record, I strongly 
support the expansion of NATO and I want to thank my chairman 
for the speed in which he has pulled all this together. I noted 
you noted that in your comments.
    My question has to do, Mr. Secretary, with the issue of 
mending fences. I was a Republican mayor in a city in which 
there was not another elected Republican city official, so I 
understand about working with those who do not always agree 
with you and mending fences. But I do believe--and my concern 
is, I am a strong believer that future behavior is influenced 
by reaction to past behavior.
    The seven invitees strongly supported our efforts in Iraq. 
They took risks. They did it in spite of concern perhaps among 
the body politic. Tony Blair took great risks. So my concern is 
how do we deal with this issue of past behavior--I am going to 
be very blunt--with France and with Germany? There was a report 
and it was just one news report about whether France was 
consulting with Iraq. I am not going to ask you to comment on 
it, on a single news report.
    But I will ask you to address the broader question of 
consequences for behavior. I would note, perhaps reflecting 
what I thought was the concern of my distinguished colleague 
from Connecticut in terms of the operation of NATO, perhaps we 
do not do consensus any more, that we perhaps go by majority 
vote.
    But again, do you recognize or believe that in fact there 
should be consequences of behavior and that those who were not 
supportive should somehow--as we build this future 
relationship, that we somehow respond to that in an appropriate 
way?
    Secretary Powell. Yes, and it is not a matter of punishing 
anyone. It is not a word that I use. But I was asked last week 
in an interview situation, as a result of the difficulties we 
have had with France in particular, how do we go forward? I 
said, France has been a friend of the United States for 225 
years. We have gone through many things together as two nations 
that are friendly and are allies, and that is not going to go 
away. I do not think anybody should suggest that we forget what 
France did for us and what we have done for France over the 
years.
    But at the same time, their attitudes and some of the 
actions they took in the course of this debate, we were very 
much regretful of. Therefore, when the question was then put to 
me, well, should there be consequences of this, my answer was 
yes. So we will review all the things we do with France to see 
whether they are appropriate to the circumstances that have 
been modified slightly by this disagreement. We will do that.
    There is no secret about this. I have had very candid 
conversations with my French colleague. I speak to him now 
almost every day. I have spoken to him for the last 3 days, and 
I had a long meeting with the French Ambassador who was made 
reference to earlier, Ambassador Levitte, on Friday afternoon. 
Because we are friends, we can speak candidly.
    I also had to point out that the United States has been 
going about our review of what we should do rather quietly. It 
sometimes pops out in the paper. But on occasion France has 
made it quite clear to some of the nations that did support us, 
especially some of the aspirant or the candidate nations here, 
that they were going to pay a price for supporting us. They 
made it clear it might affect accession in the EU, and they 
were lectured rather severely for daring to support the United 
States.
    Well, those are consequences. So just do not point to the 
United States, that we should not review the bidding and we 
should not consider whether or not there are consequences to be 
paid for certain kinds of behavior when at the same time and 
almost in the same voice they are administering consequences to 
those nations that stood with us.
    Senator Coleman. And if I may, Mr. Chairman, Mr. Secretary, 
being the optimist I am and ending on the positive note----
    Secretary Powell. This is not personal. It is business.
    Senator Coleman. I would hope that for the aspirant 
nations, because they were so supportive, that we do raise our 
voice with those whom they seek to punish and that we do, when 
we bring them into NATO, that we reflect, the Senate reflects, 
our support for the things they have done.
    Secretary Powell. We have. We will not forget that they 
were small nations in the face of public opinion that would 
have suggested that they sort of duck or just say nothing, that 
stood up for us. They came forward and they said, we see the 
rightness of this cause and we align ourselves with the United 
States of America, and they received quite a few bricks thrown 
their way. The United States will not forget that they stood up 
with us at a time we needed people to stand up with us.
    Senator Coleman. Thank you, Mr. Chairman.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Coleman.
    We will continue questioning until noon with a 5-minute 
limit.
    Mr. Secretary, during previous debates on NATO, either for 
one reason or another, NATO itself or accession debates, two 
issues have arisen and they were addressed by some of the 
witnesses that we have had. The first is should consensus, 
which means unanimity, be the voting structure? The suggestion 
is made from time to time, and it has been alluded to today, 
that with more and more members perhaps a large majority would 
suffice, as opposed to all.
    Now, most of the witnesses have dismissed this idea for one 
reason or another, including an administration witness from our 
own administration, believing it is in our interest, the United 
States' interest, to retain the consensus situation. I raise 
this issue not preemptively, but in the event that there will 
be amendments when we have our floor debate. Such have occurred 
in the past.
    The second amendment that is sometimes suggested is, should 
there be some method of expelling members from NATO or for some 
departure procedure? Given the fact that this grows larger and 
larger, at some point in history there may be among NATO 
members one or more who reject altogether the freedom of 
speech, freedom of religion, the democratic ethic, human 
rights. There we are, left with such a member in our midst. 
What do we do about that?
    So the suggestion is there ought to be, while we are 
thinking about expansion, some way of curtailing and pruning 
the tree if necessary.
    Can you offer your suggestions before we launch into either 
markup tomorrow or the floor debate with regard to either of 
these two propositions?
    Secretary Powell. I think these are reasonable questions to 
ask at a time that we are seeing such a marked increase in the 
size of the alliance. But I think let us study these questions 
before offering legislative solutions of any kind. NATO is not 
a committee, it is not a council, it is not a group. It is an 
alliance, and when you call something an alliance I think that 
means that everybody has to be together for the alliance to 
take action.
    It has been a successful alliance for all these many years 
under the rule of consensus. Sometimes we run into problems, 
just as you do in the U.N. and elsewhere. For the most part we 
can find work-arounds, as we did with the Turkish issue earlier 
this year. But it seems to me we would probably lose more than 
we would gain if we tried to find some other way to do it 
besides consensus. Majority vote, what do the others do, just 
sit around and fume? I mean, it is not an alliance acting any 
more; it is part of an alliance acting.
    So I have a problem with that. But I believe it is worthy 
of study and analysis.
    With respect to bouncing somebody or expulsion, why should 
there not be membership standards that if you do not meet or if 
you somehow no longer comply with the original terms of your 
admission, you should not be rejected? But the Washington 
Treaty does not provide for that, nor do I know many 
international organizations that do provide for such rejection. 
There are some, but not that many.
    So this also is worthy of consideration, but right now I 
would argue against trying in any way to condition the 
accession to that kind of idea or that suggestion in any 
legislative manner.
    The Chairman. I picked up just one other item. Senator 
Boxer has mentioned correctly that she and others have offered 
legislation with regard to Syria in the past and that she might 
do so again at this point. You have taken that under 
advisement. Let me just say that in the event legislation is 
offered or even if it is not, your advice to this committee as 
to how best we ought to proceed diplomatically with Syria would 
be much appreciated.
    In other words, we do not want to have a debate in the 
committee or on the floor on Syria while you are in Syria or 
dealing very directly with a very serious problem. I ask you to 
be as forthcoming as possible on the issue.
    Secretary Powell. We are dealing with a very serious 
problem, but we are dealing with it in a changing environment, 
is the point I made to Senator Boxer. It would not be helpful 
for me right now to also have something that would be pending 
in the way of legislation. I hope that this is one that 
Congress will allow the diplomacy to remain in the hands of the 
President.
    The Chairman. Thank you.
    Senator Dodd.
    Senator Dodd. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, again. I do not want to dwell on 
the point you just discussed with the chairman, but I just 
express to you again my concern down the road. I do not suggest 
there is any simple solution to this, and clearly you make a 
very good point. This is an alliance, it is not a club as such. 
But once the enthusiasm--once you are in and given the 
difficulties of expelling someone that is in, and knowing we 
want this NATO, new NATO, to be a responsive organization that 
can move beyond the original geographical limitations and with 
the clear objective at its creation of dealing with the 
potential of the Soviet Union pouring through the Fulda Gap, as 
we heard over the years, clearly today we are going to be 
looking for NATO as I understand it to be performing missions 
that we cannot even begin to envision. But we know we are going 
to want to do it fairly quickly.
    Knowing down the road that you can have 29 nations that can 
have opinions--we have used consensus, but it has almost been a 
veto power among the 16. As I understand it, and you correct me 
if I am wrong, but almost any one country who has strong 
feelings against taking some action can pretty much stop the 
action from happening over the years. At least that is how I 
understood it.
    I am not sure that the Security Council idea is the right 
one, either, but I get nervous about us setting this up and 
doing it and not sort of addressing this issue in some way, or 
at least creating a framework for it to be addressed.
    Mr. Chairman, we might want to think about some language 
that will at least put on notice that we have got to look at 
this issue so that we will not be surprising new members later 
on, having brought them into the organization, that we may have 
some different means by which we allow NATO to respond as 
quickly as we would like them to to both military and political 
situations.
    I do not really--you have responded to this.
    Secretary Powell. The only point I would make, Senator 
Dodd, even an Iceland or Luxembourg could express an objection 
and we not achieve consensus. But the practice has tended not 
to be that way.
    Senator Dodd. I agree.
    Secretary Powell. You tend to find a way forward, and the 
usual voting style of NATO is, when there is an issue before 
the Council Lord Robertson sends it out to all of the member 
nations and says: Here is what we believe we ought to do and 
does anybody want to break consensus on this by Monday morning 
at noon? And so we all work all through the weekend to talk to 
those who might be thinking of breaking consensus and persuade 
them and convince them and cajole them and go through all the 
diplomatic dance steps necessary to get consensus.
    I have played ``The Perils of Pauline'' almost every other 
weekend since I got this job on some NATO proposal that we are 
worried about somebody breaking consensus. Sometimes consensus 
is broken and then we go through another week of debate. But 
usually we can achieve consensus and on those rare occasions 
where we cannot then we find other ways to deal with the 
problem, as we did with the Turkey situation. It went from NAC 
down to the DPC.
    Senator Dodd. Just jumping back if I can, and I wonder if 
you might comment a little further on the new Palestinian Prime 
Minister and the cabinet. Give us some sense of what your sense 
of optimism is about this new individual and the cabinet that 
is being formed around him, particularly in light of the issues 
of obviously these perpetuating attacks, terrorist 
organizations, and the like. Give us some sense of that if you 
could.
    Secretary Powell. In his speech last June 24, the President 
made it clear that he was committed to the creation of a 
Palestinian state in a relatively short period of time to live 
side by side with Israel, and he also said in order to achieve 
that vision we have to have transformed leadership. Chairman 
Arafat was not a partner for peace and he had missed his 
opportunities.
    And we waited until now. We watched this transformation 
start to take place. We watched the new Finance Minister put in 
place, who has brought a level of accountability and 
transparency to the Palestinian Authority that we have not seen 
before, Mr. Fayad. He has done a very good job, and we are 
working with him and the Israelis are allowing the revenues to 
flow back. That was a transformational activity.
    Then the Palestinians really came to the conclusion that 
they did need a Prime Minister, somebody who would have 
authority, not just a figurehead, but somebody with authority 
and influence and the respect of the Palestinian people and who 
could be seen as one of the leaders of the Palestinian people 
coming forward.
    They had to go through their process of, one, creating such 
a position, empowering it by the PLC, Palestinian Legislative 
Council, and sometimes directly fighting President Arafat in 
order to do it. They created the position. Then after more 
debating, Mr. Abu Mazen emerged as the gentleman destined for 
that position. There were fights, as you watched last week, 
between Mr. Abu Mazen and Mr. Arafat as to the nature of his 
Cabinet, and Mr. Abu Mazen prevailed and that Cabinet is now 
being presented to the PLC.
    So we have a man who has stepped forward to assume a 
position of leadership and he has fought for it, he has won. I 
hope he will be confirmed and I hope he will use that 
leadership. We made it absolutely clear that when the road map 
is released performance is what counts, not the particular 
language of a particular paragraph. It is performance.
    I hope that the new Prime Minister will speak out 
immediately and clearly about terrorism and about violence, and 
I think that, with Mohammed Dahlan as his new Minister of State 
Without Portfolio, but for security matters, he will act 
quickly and aggressively to work with Israeli authorities and 
bring the situation into control, to go after those individuals 
and organizations who have been conducting these kinds of 
terrorist attacks.
    If we see that kind of not only rhetorical action, and not 
just one speech, but a constant drum beat to the Palestinian 
people that it is time to move in another direction, if we see 
that coming from the new leadership, then I am quite confident 
that we might be on our way somewhere. I am also confident from 
my conversations with Prime Minister Sharon, with Foreign 
Minister Silvan Shalom, the new Israeli Foreign Minister, and 
other Israeli authorities that they are anxious to move 
forward. They are not in a situation that they like, with their 
economy in disarray, with the Palestinian economy destroyed, 
and with the Israeli Army deployed as it is trying to keep 
things under control.
    So both parties have every motivation and every incentive 
to move forward. The road map gives them a way to do that, but 
it is going to require acceptance of responsibility and 
performance of obligations on the part of both sides.
    Senator Dodd. Are you going to plan on making this part of 
your upcoming trip to Syria?
    Secretary Powell. I expect to be making several trips in 
the next few weeks.
    Senator Dodd. This will not be part of the one----
    Secretary Powell. Well, he has not been--it may be 
happening while I am sitting here, but I will certainly be 
looking for an opportunity to see him. I am not sure he is 
ready. He has some work to do and I do not want to burden him 
with a visit on day one.
    Senator Dodd. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Dodd.
    Senator Hagel.
    Senator Hagel. Thank you, Mr. Chairman.
    Mr. Secretary, this is a unique opportunity, maybe even 
historic, I believe, and we have talked about some of the 
dynamics of this this morning to strengthen our ties with our 
allies. We have talked about this morning including seven new 
members into NATO, expanding that base of this alliance. We 
have talked about NATO taking on a new role in Afghanistan in 
August, maybe being called upon to take on a role in Iraq, 
depending on how events develop.
    With that unique opportunity presenting itself to reconnect 
with our allies through the United Nations, certainly through 
NATO, I first want to recognize what you and the President are 
doing to not squander this time. You cannot force something 
that does not fit, but we should not squander this time that we 
have.
    With that, two questions. As you view NATO, as we have 
discussed the future of NATO this morning, you have just talked 
a bit about prospects for the road map, peace prospects for the 
Israelis and the Palestinians, any possibility down the road, 
once we get a peace agreement, NATO could be called in to help 
guarantee that peace?
    Second question: As we reestablish relationships and 
recertify and strengthen those ties with our allies, what is 
the current status of NATO and Russia?
    Secretary Powell. With respect to the first question, we 
are a long way away from considering what kind of monitoring 
mechanism might be appropriate if we see progress in the Middle 
East. I think in the first instance it would have to be the 
United States. I think that is the only thing that would be 
acceptable as we get started and try to buildup confidence.
    We have made that commitment to this process and it is a 
commitment we have made 2 years ago now. So we stand ready to 
do that. Whether it can be expanded into something more, it 
would be premature to suggest that at this point, Senator 
Hagel.
    With respect to NATO?
    Senator Hagel. And Russia.
    Secretary Powell. The NATO-Russia Council is performing 
work. I am very pleased that after the meetings of last year 
where it was formed we gave it some low-hanging fruit to go 
after just to get some experience and it did a pretty good job 
on some counterterrorism and other efforts. Now we are looking 
for some more substantial work to be done between NATO and 
Russia within the Council, working--I guess it will soon become 
27.
    Senator Hagel. Thank you.
    Mr. Chairman, thank you.
    The Chairman. Thank you.
    Senator Nelson.
    Senator Nelson. Following back up on North Korea, since it 
is clearly in our interest that we not let them become a 
nuclear peddler and a peddler of weapons systems, including 
missiles, what was the reasoning that we let that shipment of 
missiles go on to Yemen after we boarded the boat on the high 
seas?
    Secretary Powell. We detected the ship, we tracked it. We 
tried to learn more about its origin and its destination. Based 
on what we knew, we thought we better stop it and see really 
what was in it, not just what our intelligence said was in it, 
and make sure we knew where it was going. There was a concern 
that, wherever it was going, it might be a transshipment point 
for those missiles to then go on to Iraq or other places in the 
region.
    Working with our Spanish colleagues who were participating 
in the interdiction effort, the Spanish Navy stopped it, did a 
terrific job, boarded the ship, and after moving some cargo out 
of the way discovered the Scuds. So it is exactly what our 
intelligence system said it would be.
    But then in the process of looking into its destination, we 
found that it was destined for Yemen. We contacted the Yemeni 
President. As you know, we have a good relationship with Yemen. 
They have been cooperating with us on our counterterrorism 
efforts in the global war on terrorism. And the Yemeni 
Government had given us some earlier assurances that they were 
no longer procuring this kind of equipment and this was really 
grandfathered as the last shipment of a contract that they had 
entered into.
    Because there was nothing inherently illegal about what 
they were doing and it was a purchase which by international 
law was acceptable, and with the assurance of the Yemeni 
President that the missiles were not going anywhere but Yemen 
and we could check any time we wanted to, and also the 
assurance that his earlier commitment that no more such 
contracts were under way or would be placed in the future. It 
was on that basis and because of our friendship and 
relationship with Yemen that the judgment was made that it was 
in the best interest for those missiles to go forward.
    But we have demonstrated that we have a capacity to find 
such things and intercept them and make different judgments at 
different times depending on what is in the ship and where it 
is going.
    Senator Nelson. Would that have sent a signal to North 
Korea that they could proliferate?
    Secretary Powell. I do not think so because they are not 
getting any more sales in that place. But one of the things we 
have to do is, when we find situations such as this, we need to 
go to those who are buying and say: This really needs to stop. 
If you have self-defense needs that are legitimate, there are 
better places and better sources to deal with those needs than 
North Korea.
    North Korea is exporting not only missiles, but, as we saw 
in an Australian bust the other day, drugs. So this is a regime 
that thrives in criminality, and that also has to be part of 
our comprehensive approach to deal with the regime, going well 
beyond nuclear weapons and missiles, but their criminal 
activities, which we have to spend more time and energy dealing 
with.
    The Chairman. Thank you, Senator Nelson.
    We have a few moments before noon and so therefore, Senator 
Chafee, you will have the final question.
    Senator Chafee. Thank you very much, Mr. Chairman.
    I will just followup. I was on the trip with Senator Frist 
and Senator Nelson and without fail each of the Chinese 
ministers from President Hu on down lacked passion for the 
North Korean issue, but they got passionate about Taiwan 
getting into the WHO. It would seem to me if we need China to 
help us broker talks with North Korea we might want to reassess 
the swift passage of the resolution I think that is before the 
Senate on allowing Taiwan into the WHO. Without fail, every one 
of the ministers we met with was very passionate about that 
issue.
    But I do want to get back--I know there is a few minutes--
on the NATO enlargement. It seems to me as though there are 
members of the administration that espouse a stronger NATO at 
the expense of the U.N. I believe--correct me if I am wrong--it 
was only a year ago that in Reykjavik that NATO was endorsed to 
go out of area. So it seems to me that this ascension of NATO 
could come at the expense of the U.N. as an alliance or an 
organization that acts around the world.
    Obviously, NATO does not have the diversity of the United 
Nations. It is a European, Christian-based organization largely 
and the U.N. of course is very, very different. So could you 
comment on that? Are there members of the administration that 
are pushing for a stronger NATO at the expense of the United 
Nations?
    Secretary Powell. I think we are all pushing for a stronger 
NATO, but I do not think it necessarily competes with the 
United Nations or is at the expense of the United Nations. Of 
course, NATO has Turkey as a member, a very, very productive 
member of NATO over the years, a Muslim country, a Muslim 
democracy.
    So I do not see them as competing. We need both. We need 
both organizations. Very often, in trying to forge a consensus 
in NATO, you will find NATO members who are also U.N. members 
asking for U.N. approval of the action being taken. So I think 
they serve as complementary organizations.
    If I may end my answer with a reference to something that I 
think Senator Dodd said about kicking a member out. Sometimes 
when a member is not meeting the highest standards of the 
organization, the best place for the member to be is in the 
organization. I can think of a couple of situations over the 
past 50 years where we have governments representing nations 
inside NATO that certainly were not meeting our standards of 
representative government, and I think it was well in the 
interest of NATO and the transatlantic alliance to have that 
country and that government inside NATO, where it could be 
pressured, where it could be brought into consensus, where it 
could be tutored and cooperated with to eventually get back to 
the kind of government that we expected it to be when it became 
a member of the alliance in the first place.
    The Chairman. Thank you very much, Senator Chafee.
    The record will be kept open of this hearing until the end 
of the day.
    Senator Dodd.
    Senator Dodd. Mr. Chairman, just briefly again.
    I am sorry, Mr. Secretary, I do not have a copy of this 
myself. I am looking at this chart.
    Secretary Powell. Do you have a date on it?
    Senator Dodd. That is the September--April 11. I will get 
one for you.
    Mr. Chairman, I raise this not so much--I do not want the 
Secretary to comment. It is just troubling to me. There is a 
line here that I just draw your attention to if you get a copy: 
Deputy for Policy, I do not know who--Lawrence Di Rita and Ryan 
Henry are the two names. ``National governance, local 
governance'' directly back up through General Garner. We are 
talking about nation-building. I am just concerned, Mr. 
Chairman, about--the Secretary answered the question, so I am 
not asking him to respond to this. But this is troubling to me, 
that we sort of bypass all of this here directly through the 
Defense Department. I think the State Department ought to be 
playing at least, in the role of national governance-building 
or local governance-building--the fact that we are going to lay 
that on the Pentagon seems to me to be getting rather 
excessive.
    So I just raise this with you. I do not know much more 
about it. I do not even know who these individuals are. But I 
start seeing a line that bypasses everybody else and shoots 
up----
    Secretary Powell. All of that, this is not a current and 
accurate chart, and it will be even less accurate within the 
next few days.
    Senator Dodd. Thank you. That is the best news all day.
    The Chairman. The hearing is adjourned.
    [Whereupon, at 12:06 p.m., the committee adjourned, to 
reconvene subject to the call of the Chair.]
                              ----------                              


             Additional Statements Submitted for the Record


              Prepared Statement of Senator Jon S. Corzine

    Mr. Chairman, thank you for holding this important hearing on NATO 
enlargement. I thank the distinguished Secretary of State for appearing 
before this committee and sharing some of his views on this topic.
    Even as the U.S. addresses dangers in the Middle East, it is 
critical to consider the other serious threats to global security, 
including the awful possibility that foreign terrorist organizations 
will gain access to weapons of mass destruction. Iraq was not and is 
not the only country with access to weapons of mass destruction, and we 
should not feel completely secure until we are confident that those 
weapons will not fall into the hands of terrorists.
    I have no doubt that an enlarged NATO can be of tremendous 
assistance to combat that mutual threat. NATO is not a throwback to the 
cold war as some have charged, but a dynamic institution that needs to 
be enlisted in the global fight against terrorism. Recent events, 
particularly the approval of a rapid response force to combat 
terrorism, only act to confirm NATO's importance in that effort. Only a 
dynamic and adaptable force can have any hope of prevailing over a 
dynamic and adaptable enemy, and NATO is building such a force.
    Although recent events may have placed a strain on alliance 
relationships, the institution itself endures and will need to take on 
greater and greater responsibilities in countering a diffuse and 
virulent threat. And that includes ``out-of-area'' activities in 
Afghanistan and Iraq. With the global nature of the threat facing NATO 
countries, as the distinguished chairman of this committee explained at 
an earlier hearing, unless NATO operates ``out of area'' it could be 
``out-of-business.'' I think we can all be gratified by NATO's recent 
decision to operate ``out-of-area'' and take over responsibility for 
the International Security Assistance Force (ISAF) in Afghanistan. Now 
we must actively seek a role for the alliance in post-conflict Iraq. I 
understand that despite early opposition, France has committed to 
consider a role for NATO and I hope such a role can be arranged.
    As part of the effort to improve NATO's capacity to counter 
terrorism, I believe expanding NATO to include seven new countries 
makes a great deal of sense. These seven burgeoning democracies will 
present a united front in the fight against terrorism, will help share 
our burden, and will confer additional international legitimacy to our 
cause. It will improve intelligence cooperation and interdiction 
cooperation, two areas that have increased in importance tremendously 
in the past decade.
    It would be absolutely tragic if recent transatlantic tensions 
stymied efforts to improve and expand what has been a tremendously 
important and effective institution for more than five decades.

                                 ______
                                 

  Prepared Statement of American Hungarian Federation of Metropolitan 
             Washington, DC, Frank Koszorus, Jr., President

    Since the 1960s the American Hungarian Federation of Metropolitan 
Washington, D.C. (the ``Federation'') and its predecessor organization 
have monitored developments in Central Europe and United States policy 
toward that region. The Federation supports NATO's enlargement because 
it believes that (1) an enlarged NATO, consisting of stable and secure 
countries and as an organization of collective defense, is in the vital 
interest of the United States; and (2) since an indispensable component 
of security in Central and Eastern Europe is a commitment to democracy, 
including the respect for the rule of law and the rights of national 
and religious minorities, Romania and Slovakia should be encouraged to 
continue their reforms to promote that vital American interest.

          NATO'S ENLARGEMENT ADVANCES UNITED STATES INTERESTS

    During the Cold War, NATO successfully kept the peace in Europe by 
deterring outside aggression. The United States recognized that threats 
to European security represented threats to American security as well. 
That common purpose shared by Western democracies was the glue that 
ensured that NATO would not falter in its mission and prevail over the 
Warsaw Pact.
    At the end of the Cold War and as a result of the strong leadership 
exercised by the United States, the Alliance enlarged to take on 
Poland, Hungary and the Czech Republic. That enlargement not only 
served American moral objectives, it also advanced United States 
security interests in Europe. A security vacuum was filled as the three 
new NATO members were reintegrated with the West. They helped stabilize 
Europe by contributing to NATO's new mission of stopping ethnic 
cleansing in Kosovo and keeping the peace in the Balkans. All three 
also served as models for the other countries aspiring to be NATO 
members.
    While NATO invoked Article V in response to September 11 and sent 
AWACS to patrol American airspace, it must continue to transform and 
implement the Prague commitments to meet the new threats presented by 
terrorism. Despite the current rift in the wake of the war against 
Iraq, the United States must remain engaged in Europe and NATO to carry 
out the war against international terrorism. As Senator Biden noted on 
May 1, 2002 before this Committee, ``no one should doubt that NATO . . 
. remains essential to the security of the United States.'' At the same 
meeting, Senator Lugar stressed that ``the war on terrorism makes it 
all the more important to accelerate the task of consolidating 
democracy and security in Central and Eastern Europe.''
    The current round of enlargement will continue this process and 
further stabilize Europe from the Baltics to the Balkans and the center 
of the continent. In sum, a secure Europe and an enlarged NATO with 
members committed to Western values and prepared to assist in the war 
against global terrorism will advance American strategic concerns.

  THE INVITED COUNTRIES MUST CONTINUE TO IMPLEMENT REFORMS, INCLUDING 
   MINORITY RIGHTS, TO ENSURE SECURITY AND STABILITY IN CENTRAL AND 
                             EASTERN EUROPE

    Minority Rights. Long-term American interests in maintaining a 
strong and stable alliance capable of joining the war against 
terrorism, however, will be served only if the invited countries are 
required to push through much needed political reforms.
    In order to promote this fundamental American interest, NATO must 
ensure that the new members are committed to Western values by deeds, 
not just by verbal assurances. They must be prepared to contribute to 
the security of Europe. Security, however, is as much a function of the 
stability that is associated with democracy and minority rights as it 
is a function of military reforms and equipment in the context of 
multi-ethnic Central and Eastern Europe.
    This was recognized during the first round of NATO's enlargement. 
The March 26, 1997 RFE/RL report titled, ``Europe: U.S. Senator 
Outlines Criteria for NATO Expansion,'' reported that Senator Biden 
``said Senators will determine whether the prospective members maintain 
democratic institutions, respect civil and minority rights and keep 
their military forces under civilian control before they vote their 
consent.'' (Emphasis added.) In his article, ``Slovakia and NATO: The 
Madrid Summit and After,'' National Defense University Strategic Forum, 
April 1997, Jeffrey Simon wrote: ``In sum, the major stumbling block to 
Slovakia's candidacy to NATO arises from questions about the most 
fundamental criterion--the shared democratic values of respect for the 
rule of law and minority rights.'' (Emphasis added.)
    The Membership Action Plan (``MAP''), developed after the first 
round of enlargement, also embraces minority rights. As Robert A. 
Bradtke, Deputy Assistant Secretary for European and Eurasian Affairs 
testified before the House International Relations Committee on June 
19, 2002, ``[t]he success of the MAP is reflected in the real progress 
that all of the aspirants have made in addressing difficult and 
sensitive issues. . . . They are all working hard to consolidate 
democracy and the rule of law, to strengthen judicial systems . . . to 
improve the treatment of minorities
. . .'' (Emphasis added.)
    The question of minority rights and European stability is not an 
academic exercise. As the tragic events in the Balkans in the nineties 
demonstrated, a primary cause of tensions and violence in the region is 
discrimination against and intolerance toward national, ethnic and 
religious minorities by the majority. Moreover, a government that fails 
or refuses to respect minority rights can hardly be deemed genuinely 
democratic, even if it has come to power through the ballot.
    The genesis of today's inter-ethnic challenges in the middle of 
Europe can be traced back to the beginning of the last century. The 
Peacemakers following the First World War created a new European order 
by drastically redrawing the map of the continent, often ignoring the 
vaunted principle of self-determination in the process. When the dust 
settled after the peace conference, over 30 million people found 
themselves living as minorities in the new Europe. This system was 
perpetuated by Stalin and lasted until the end of the Cold War.
    Now with the end of the Cold War, the governments of the region 
should be held accountable to the international community, especially 
on questions of human and minority rights. Some minorities are still 
denied a host of rights and subjected to continuing discrimination, 
however. A persistent problem in many parts of Central and Eastern 
Europe is the mistreatment of the Roma and conspicuous anti-Semitism. 
As noted below, Romania and Slovakia have yet to fully respect the 
rights of their respective Hungarian minorities. Regardless of its 
target, discrimination is not only inconsistent with Western values, 
the rule of law and inter-ethnic harmony, it also undermines regional 
security.
    The prospect of NATO membership has motivated the invitees to 
address minority rights. Lithuania, a strong and deserving candidate 
for NATO membership, has gone far in respecting the rights of its 
Polish and Russian minorities and providing them schooling in their 
mother tongue. This process needs to continue if NATO is to be 
strengthened as it enlarges.
    Romania is strategically significant and has contributed military 
forces to NATO and coalition actions. Its democratic reforms, while 
undeniable, have been overstated. As Adam LeBor in his article, 
``Alliance bends its rules for strategic Romania,'' Times Online on 
November 20, 2002, noted, ``Romania will be invited to join Nato this 
week despite its endemic corruption, a systematic lack of government 
transparency and poor progress towards a Western-style civil society.'' 
The 2002 Country Reports on Human Rights released by the Department of 
State documents many of these problems as well.
    Romania must continue its reforms in the area of human rights to 
approach Western norms. More than a decade after the Revolution, 
Romania has yet to fulfill its promises to its more than 1.5 million 
strong ethnic Hungarians. While Bucharest lavishly funds the Orthodox 
Church engaged in a church building spree, it has returned less than 1% 
of the more than 2000 religious and communal properties illegally 
seized during the Communist era to Romania's Hungarian minority. 
Romania disregards the constitutional guarantee relating to the right 
to an education in the mother tongue. Romania has even failed to 
establish Hungarian language departments at the Babes/Bolyai 
University, much less restore the independent Hungarian state 
university in Cluj/Kolozsvar.
    Slovakia has progressed since the Meciar government. Nonetheless, 
the 2002 Country Reports notes that ``[e]thnic minorities . . . faced 
considerable societal discrimination.'' Id. at 1. Moreover, 
``[d]ecentralization to provide more autonomy to regions in education, 
land ownership, and restitution of confiscated property continued to be 
an issue for the large Hungarian minority.'' Id. at 12. In addition to 
the denial of adequate representation as a result of gerrymandered 
Meciar-era territorial units and curtailed opportunity to use their 
mother tongue, agricultural and religious communal properties have not 
been returned to Slovakia's ethnic Hungarians because of the 
discriminatory effect of the Benes Decrees.

                               CONCLUSION

    NATO must be enlarged to fulfill its mission and serve the security 
interests of the transatlantic community. At the same time, the United 
States and the alliance should take steps to promote continued progress 
by Romania and Slovakia in developing laws and practices toward their 
minorities that are compatible with Western values and NATO's security 
goals. The time is now for NATO to seize the moment and help countries 
with less than adequate records accelerate, consolidate and 
institutionalize enlightened minorities policies. The carrot of NATO 
membership has been a strong incentive for every serious invitee to 
undertake much needed reforms. The review and reform process should not 
stop with full NATO membership, however. The United States and NATO 
will have to continue to monitor the pace of progress and reform to 
ensure that the new members live up to their commitments and promote 
regional security by respecting the human rights of their national and 
religious minorities. As part of this process, Romania and Slovakia 
should be expected to expeditiously resolve the long-pending religious, 
educational and other Hungarian minority community property restitution 
matters.

                                 ______
                                 

                     American Jewish Committee,    
    Office of Government and International Affairs,
                                156 Fifteenth Street, N.W.,
                                        Washington DC, May 5, 2003.

    Dear Senator:

    As the Senate prepares to take up the Protocols to the North 
Atlantic Treaty of 1949 on the Accession of Bulgaria, Estonia, Latvia, 
Lithuania, Romania, Slovakia, and Slovenia, I want to be sure you are 
aware of the American Jewish Committee's strong support for this 
measure.
    AJC Executive Director David A. Harris testified before the Senate 
Foreign Relations Committee in support of the first round of NATO 
enlargement, in November 1997. Last summer, in advance of the November 
2002 Prague summit in which accession was approved for the seven 
additional Eastern and Central European states, Mr. Harris convened the 
ambassadors of those states at a Washington news conference to express 
AJC's support for that important step and for the follow-up 
ratification by our and other NATO member governments. He asserted:

          ``. . . We now have the remarkable opportunity--on our 
        watch--to extend the democratic zone of security, stability, 
        tranquility, and mutual assistance to embrace the seven 
        candidate countries. . . .''

          ``To act in Prague in November is to address the legitimate 
        security interests of the seven candidate countries, to expand 
        the borders of the transAtlantic community at peace, to extend 
        the reach of--and deepen the commitment to--democratic values 
        and respect for human rights, and to strengthen America's 
        global role, especially in the wake of September 11, as we face 
        such transnational threats as international terrorism.''

          ``History has given us a previously unimaginable chance. The 
        choice should be clear. The time to act is now. The beneficiary 
        will be the collective security of the democratic family of 
        nations. . . .''

    A copy of Mr. Harris's statement of last summer follows. On behalf 
of the more than 125,000 members and supporters of the American Jewish 
Committee, I urge the Senate's ratification of the second round of 
enlargement of the North Atlantic Alliance.
            Respectfully,
                               Jason F. Isaacson, Director.

 Statement of David A. Harris, Executive Director, the American Jewish 
          Committee, at the National Press Club, July 30, 2002

    Good morning, ladies and gentlemen. Thank you for joining us at 
this press briefing.
    I would like to extend a special welcome to the distinguished 
diplomats from Bulgaria, Estonia, Latvia, Lithuania, Romania, Slovakia, 
and Slovenia who have joined us here today, as well as to Bruce 
Jackson, the president of the U.S. Committee on NATO, and to my 
colleague Rabbi Andrew Baker, the director of International Jewish 
Affairs for the American Jewish Committee and a participant in the 
recent Riga Summit.
    On November 5, 1997, I had the privilege, on behalf of the American 
Jewish Committee, to testify before the Senate Foreign Relations 
Committee on the first round of NATO expansion, involving the Czech 
Republic, Hungary, and Poland. We were the first American Jewish 
organization to come out publicly in favor of NATO enlargement, a fact 
of which I am most proud.
    Moreover, I might add that, in the very same spirit and motivated 
by the same post-Cold War considerations, we were the first American 
Jewish organization to support the unification of Germany, to call for 
the recognition of the independence of Estonia, Latvia, and Lithuania, 
and to endorse the lifting of trade restrictions imposed by the 
Jackson-Vanik Amendment on Bulgaria and Romania.
    I would like to quote from our 1997 Senate testimony on NATO 
enlargement:

          We are convinced that opportunity is temporary, not 
        permanent. Either it is seized or it is lost. The opportunity 
        presented by an expanded NATO is one that should not, must not, 
        be lost. An expanded NATO means greater stability for Central 
        Europe, a region that was the cockpit for the two world wars 
        that brought such horror to the twentieth century.
          Retaining the North Atlantic alliance in its Cold War 
        configuration would have meant continuing an historic 
        injustice--the abandonment by the democratic West of the small 
        nations of Central Europe. Let me remind us all that it 
        happened in 1938 at Munich and 1945 at Yalta, and the West 
        watched from the sidelines as Soviet power squashed fledgling 
        and promising democratic movements in Hungary in 1956, 
        Czechoslovakia in 1968, and Poland in 1981.
          An expanded NATO not only strengthens democracy in those 
        nations embraced by the alliance at Madrid, but encourages the 
        other countries in the region to accelerate their own 
        democratic and economic reforms, as well as resolve long-
        simmering disputes. The 1994 Poland-Lithuania agreement on good 
        neighborly relations and military cooperation and the 1996 
        Hungary-Romania bilateral friendship treaty are just two 
        examples. Moreover, integration in the Western alliance offers 
        a real safeguard for the rights of Jews and other minority 
        communities, historically the target of national, religious, or 
        ethnic hatreds in too many places.
          It would be premature to become too specific today about the 
        scope of a second, or a third, tranche of NATO expansion, but 
        it is important to keep very much alive NATO's openness to 
        further waves of expansion. To do otherwise is to dash the 
        hopes of tens of millions of Europeans, from the Baltics to the 
        Balkans, that their future might include membership in NATO, 
        and to imply a recreation of European spheres of influence, a 
        profoundly destabilizing step that could have unintended, even 
        unforeseen, consequences.

    That was 1997. At the time, we heard a number of respected voices 
speak out in opposition to NATO expansion.
    George Kennan, the legendary architect of the U.S. postwar 
containment policy of the Soviet Union, said that expansion ``is the 
beginning of a new cold war,'' and added that such a step ``would make 
the Founding Fathers of this country turn over in their graves.''
    Tom Friedman, the admired New York Times columnist, criticized the 
proposed policy in a number of op-ed pieces, citing fear of the Russian 
reaction and worrying that enlargement would ``dilute [NATO's] power 
every bit as much as baseball expansion diluted Major League pitching 
and made every 90-pound weakling a home-run threat.''
    Other critics voiced concern that America could be dragged into a 
war not of our choosing because of Article 5, which commits all NATO 
countries to help defend any member that is attacked, or cited the 
prospect of stratospheric costs to help the three new member 
countries--the Czech Republic, Hungary, and Poland--modernize their 
forces and integrate militarily into the collective security pact.
    In point of fact, the critics were wrong.
    There has been no new cold war with Russia. To the contrary, we 
have witnessed a promising new chapter evolve in the relationship 
between NATO and Russia, and this development is to be heartily 
welcomed.
    NATO strength has not been diluted by the addition of its three 
newest members, but rather enhanced by the laudable efforts of the 
Czech Republic, Hungary, and Poland to contribute to the alliance by 
providing additional security for the collective defense of the member 
nations.
    Article 5 has indeed been invoked--in fact, for the first time 
since NATO's founding in 1949. The country that sought the decision was 
none other than the United States, and it happened exactly one day 
after this nation was attacked on September 11, 2001. In other words, 
America's ability to respond to the menace of international terrorism 
was actually helped, certainly not hindered, by an enlarged NATO.
    And those who floated estimates of tens, even hundreds, of billions 
of dollars in costs to the U.S. taxpayer for expansion were way off. 
Indeed, the U.S. taxpayer has barely felt the impact.
    In sum, the first round of NATO enlargement to the east has been a 
success. It is now time for a second round.
    The American Jewish Committee urges the 19 NATO member countries 
gathering in Prague on November 22 to seize the moment and extend 
formal invitations for full membership to Bulgaria, Estonia, Latvia, 
Lithuania, Romania, Slovakia, and Slovenia. Our position, needless to 
say, assumes that nothing will change between now and then in these 
countries' commitment to the core democratic values enshrined in NATO. 
We would also encourage NATO to make clear that, down the road and 
subject to performance, further enlargement is possible for other 
aspiring nations.
    As the American Jewish Committee noted in a statement just adopted 
by our leadership:

          Through continued adherence to the membership action plan for 
        new countries, these [seven] countries will demonstrate their 
        commitment to democracy and the rule of law, peaceful conflict 
        resolution, and the protection of human rights. Their accession 
        to NATO membership will serve the national security interest of 
        the United States. For these reasons, the American Jewish 
        Committee voices its support for the continued expansion of 
        NATO and the accession of these new member nations.
          The American Jewish Committee also calls on these countries 
        to redouble their efforts in the months ahead to complete the 
        still open process of restituting Jewish communal property and 
        preserving Holocaust memory and its integrity. [There remains 
        much work to be done in both respects, and any delay would only 
        complicate matters.]

    Ladies and gentlemen, this is potentially a moment of historical 
definition. We dare not let it pass.
    The twentieth century began with territorial conflicts throughout 
Europe, most notably in Central and Eastern Europe. They led directly 
to the First World War and planted the seeds for the Second World War 
as well. After the massive devastation wrought by these two wars, as 
well as numerous regional conflicts, the second half of the century was 
largely defined by the Cold War and the confrontation between NATO and 
the Warsaw Pact, followed by the devastating events in the Former 
Yugoslavia.
    In sum, it was a brutal, bloody century, but at the end of the day 
the ideologies of Fascism, Nazism, Communism, and ethnic cleansing were 
vanquished and democracy, open societies, and the rule of law 
prevailed.
    We now have the remarkable opportunity--on our watch--to extend the 
democratic zone of security, stability, tranquility, and mutual 
assistance to embrace the seven candidate countries.
    Of course, there will be significant transitional challenges in 
integrating the seven countries into the NATO framework. Given the 
scale of the project, how could it be otherwise? The fear-mongers, no 
doubt, will once again invoke the same issues as they did in 1997, but 
they will be as wrong today as they were then.
    To act in Prague in November is to address the legitimate security 
interests of the seven candidate countries, to expand the borders of 
the trans-Atlantic community at peace, to extend the reach of--and 
deepen the commitment to--democratic values and respect for human 
rights, and to strengthen America's global role, especially in the wake 
of September 11, as we face such transnational threats as international 
terrorism.
    History has given us a previously unimaginable chance. The choice 
should be clear. The time to act is now. The beneficiary will be the 
collective security of the democratic family of nations.
    On April 12, 1949, President Harry Truman sent the NATO Treaty to 
the United States Senate for approval. On that occasion, he said:

          This Treaty is an expression of the desire of the people of 
        the United States for peace and security, for the continuing 
        opportunity to live and work in freedom.
          Events of this century have taught us that we cannot achieve 
        peace independently. The world has grown too small, The oceans 
        to our east and west no longer protect us from the reach of 
        brutality and aggression.
          Together, our joint strength is of tremendous importance to 
        the future of free men in every part of the world.
          We must continue to work patiently and carefully, advancing 
        with practical, realistic steps in the light of circumstances 
        and events as they occur, building the structure of peace 
        soundly and solidly.

    The times may have changed rather dramatically since 1949, but, 
strikingly, the words of President Truman are as applicable in today's 
world as they were then and serve to underscore the case for NATO 
enlargement.
    We at the American Jewish Committee shall do our utmost, working 
with like-minded institutions, to ensure that the vision of an expanded 
NATO becomes a reality.

                                 ______
                                 

                 Hungarian Human Rights Foundation,
                                P.O. Box J, Gracie Station,
                                         New York, NY, May 6, 2003.

The Honorable Richard G. Lugar
Attention: Ken Myers, Legislative Assistant

    Dear Senator Lugar,

    When the Resolution of Ratification of NATO Enlargement comes to 
the Senate floor, we appeal to you to voice the expectation that:

  <bullet> Romania quickly restore 2,140 church and community 
        properties illegally confiscated under communism from the 1.5 
        million-strong ethnic Hungarian population; and that
  <bullet> Slovakia reverse the discriminatory, present-day legal 
        impact of the 1945 Benes Decrees which prevent the restitution 
        of properties confiscated from the 520,000 ethnic Hungarians of 
        that country.

    These, and other longstanding human rights deficiencies, should 
have been resolved during the 13 years since the downfall of communism. 
We urge you to call upon these countries to now comply with, and 
actually implement, the common values of democracy, rule of law and 
respect for human rights and minority rights shared by NATO members.
    As expressed by Congressman Tom Lantos of California, ``Only by the 
safeguarding of religious and minority rights and freedoms will the 
NATO zone of stability be extended to nations that share a demonstrated 
commitment to democracy and a true community of values.'' (See attached 
statement, October 7, 2002)
    Your 35,715 Hungarian-American constituents (2000 census) will be 
grateful for your statement, or any assistance you may provide in 
restoring the rights long-denied to Hungarian minority communities.
    For further details regarding these human rights issues, please 
feel free to contact us, or visit http://www.hhrf.org/natoexpansion. 
Thank you in advance for your concern and action.
            Very truly yours,
                                               Laszlo Hamos

     TRANSATLANTIC SECURITY AND NATO ENHANCEMENT RESOLUTION OF 2002
               HOUSE OF REPRESENTATIVES--OCTOBER 7, 2002

    Mr. Lantos. Mr. Speaker, I join my colleagues in urging adoption of 
House Resolution 468, which expresses the support of the House for the 
enlargement of NATO that is planned for the Prague Summit later this 
fall. Millions of Americans of Central and East European descent share 
that view, as they demonstrated since the NATO expansion of 1999, when 
Poland, Hungary and the Czech Republic were invited to become members 
of the North Atlantic Alliance. They--and most other Americans--
recognize that a vital U.S. foreign policy interest will be served by 
continuing to expand the zone of democracy and stability in Europe.
    I have been and remain a strong proponent of NATO enlargement to 
include those countries that have demonstrated their commitment to 
democratic reforms, including frill protection of minority rights of 
the diverse ethnic communities that live in these countries of Central 
and Eastern Europe.
    Mr. Speaker, I want to mention a particular interest and concern 
regarding minority rights of two large historic Hungarian communities--
the 1.5 million Hungarians in Romania and the 520,000 in Slovakia. The 
major unresolved issue affecting the minority communities of both 
countries is the continued postponement of the implementation of laws 
for restitution and/or compensation for communal property confiscated 
from Hungarian religious and educational institutions. Although both 
Romania and Slovakia have taken important steps to address this 
critical question of property restitution, progress has been both slow 
and disappointingly limited.
    Mr. Speaker, I urge both countries to pursue restitution more 
vigorously in the coming months, until fair and complete restitution is 
implemented according to the rule of law. Only by the safeguarding of 
religious and minority rights and freedoms will the NATO zone of 
stability be extended to nations that share a demonstrated commitment 
to democracy and a true community of values. I urge the governments of 
Romania and Slovakia to work to resolve these important issues, and I 
urge all of the countries who seek admission to the North Atlantic 
Alliance to remember that we in the United States consider treatment of 
ethnic minorities as an important measure of a democratic society.

                                 ______
                                 

                          Slovak League of America,
                                        205 Madison Street,
                                          Passaic, NJ, May 5, 2003.

To: The Honorable Richard G. Lugar
Chair, Senate Foreign Relations Committee

From: John J. Karch
Slovak League of America

    Dear Senator Lugar:
    Faxing you a five-page letter on behalf of the Slovak League of 
America regarding Slovakia's membership in NATO. We appreciate your 
outstanding leadership and support.
    Many thanks and very best wishes,
                                          John Karch, Ph,D.
                                                 Executive Director

                          Slovak League of America,
                                        205 Madison Street,
                                           Passaic. NJ, May 2, 2003

The Honorable Richard G. Lugar
Chair, Senate Foreign Relations Committee,
United States Senate,
Washington, DC.

    Dear Chairman Lugar:

    On behalf of the Slovak League of America (League) and the two 
million Americans of Slovak ancestry, many thanks for your leadership 
and positive comments leading to the Senate Foreign Relations 
Committee's 19-0 vote for NATO enlargement, your strong support for 
continuing Voice of America broadcasting to Central and Eastern Europe, 
as well as for the restoration of SEED funding. We are, of course, 
particularly gratified that the Republic of Slovakia is among the seven 
invitees and signers of the Protocols of Accession for membership in 
NATO.
    Now, with the upcoming deliberations in the Senate for ratification 
of the Protocols, we again request your strong support of Slovakia as a 
qualified, worthy candidate for NATO membership.
    The League, organized in 1907, is composed of the following major 
Slovak American organizations: The First Catholic Slovak Ladies 
Association, First Catholic Slovak Union of the U.S. and Canada, Slovak 
Catholic Sokol, National Slovak Society of the USA, Ladies Pennsylvania 
Slovak Catholic Union, Slovak Newspapermens Association of America, and 
the Slovak Garden, Inc. in Florida.
    The Slovak-American connection is historical. Living under 
oppressive conditions, some half-million Slovaks emigrated to the U.S. 
in the second half of the 19th century. The League fought for Slovak 
autonomy and later independence of Slovakia which culminated on January 
1, 1993. Slovak and American values were similar: Western orientation, 
independence, liberty, democracy, rule of law, family, morals. They are 
industrious, loyal, and dedicated to commitments.
    In the first NATO expansion into Central and Eastern Europe, 
Slovakia was one of the Visegrad Four cited in Senate Bills--with 
Poland, the Czech Republic, and Hungary but was subsequently excluded 
because of various domestic and foreign problems. However, following 
the 1998 Parliamentary elections, new government embarked on a 
determined course of needed reform, commitment, and political will to 
meet the criteria for NATO membership.
    The results of the September 2002 Parliamentary elections 
encouraged the new coalition government to continue the policies of 
military, political, economic, and social reform internally and meeting 
the requirements established by the Membership Action Plan (MAP). The 
results were gratifying to NATO members, including the United States, 
and at the Prague Summit Slovakia, along with six others, was invited 
to join NATO.
    Over recent years the Slovak government not only unveiled a 
comprehensive plan leading to NATO membership but was determined to 
pursue vigorously its implementation. Slovakia's prodigious efforts 
have not gone unnoticed. In Bratislava March 10, his third visit since 
November 2001, the Secretary General of NATO, Lord Robertson, said: ``I 
have witnessed firsthand the progress made in preparing for NATO 
membership.'' He cited the country's ``shared democratic values'' with 
NATO members and commended the ``hard work . . . to promote the goal of 
NATO membership,'' the ``hard work . . . to actually implement 
political, military and other reforms, and meeting NATO standards. . . 
. to create a Europe whole and free, democracy and common values.''

                               TESTIMONY

    In their testimony before the Foreign Relations Committee, U.S. 
officials and experts reflected a positive response about the invitees. 
On April 29, Secretary of State Colin Powell said: ``I strongly 
encourage the Senate to provide its advice and consent to the 
ratification of the Accession Protocols that will welcome into NATO 
seven new members.'' All seven, he reported, ``are already de facto 
Allies in the war on terror'' and support the U.S.. position on Iraq. 
Specifically, he cited Slovakia's strong anti-corruption legislation 
and NBC unit in Kuwait.
    On April 10, testifying before the Senate Armed Services Committee, 
Deputy Secretary of Defense Paul Wolfowitz also characterized the seven 
invitees as de facto allies. He visualized two imperatives for 
enlargement: moral and strategic, the moral to help the new 
democracies, and the latter a ``united Europe of common values will 
help avoid the major wars.'' He was followed by Vice Chairman of the 
Joint Chiefs of Staff General Peter Pace who said that ``each of these 
nations has demonstrated the ability to make a contribution to the 
Alliance. They have made a firm commitment to the basic principles and 
values set out in the North Atlantic Treaty. The accession . . . will 
enhance NATO's military effectiveness.'' Noting they exhibit ``member-
like'' behavior, General Pace said they ``demonstrate their readiness 
to accept the responsibility of membership,'' providing assistance. He 
cited Slovakia's engineering unit in Afghanistan and an NBC unit to 
support the war in Iraq.
    On April 8, Under Secretary of State Marc Grossman asked the 
Foreign Relations Committee ``to act swiftly and positively'' to the 
President's request on ratification of the Accession Protocols. He said 
``This enlargement will strengthen democracy and stability in Europe, 
revitalize NATO and benefit the United States.'' He elaborated on the 
progress of all seven and cited individual contributions on a chart, 
including Slovakia's deployment of an engineering unit to Kabul.
    Regarding Slovakia specifically, State Department's Robert Bradtke 
testified that Slovakia ``has demonstrated its readiness and commitment 
to supporting U.S. national security interests by contributing to the 
global war on terrorism, operations in the Balkans/Afghanistan, and in 
Iraq.'' The U.S. Ambassador to NATO, R. Nicholas Burns, Slovakia has 
been reducing its ``antiquated military machine'' with ``success,'' now 
is capable of ``making a significant contribution to Alliance defense'' 
and the country is also on a ``very positive political and economic 
trajectory.'' Defense Department's Ian Brzezinsk said ``Slovakia's 
current reforms are solid and follow the `Force 2010' Long Term Plan, 
which is the product of a comprehensive defense review created with 
U.S. assistance.''
    In commenting on, and recommending for accession all seven 
invitees, Bruce P. Jackson said ``Slovakia's democratic credentials 
are, in many ways, the most impressive of all the Vilnius states.'' He 
emphasized the ``sweeping reform'' of the Ministry of Defense and cited 
some of Slovakia's programs abroad. National Defense University's 
Jeffrey Simon said: ``Slovakia has made substantial progress'' and its 
government has ``fully supported the war on terrorism.'' He, too, 
supports the ratification of all seven, as did Dr. Ronald Asmus without 
commenting on them individually.

                        SLOVAKIA'S PREPAREDNESS

    Many references have been made about the qualifications of the 
invitees, including democracy, rule of law, free market economy, armed 
forces, human rights, values, reforms, progress, capabilities, and some 
concerns. The Slovak Republic is a Parliamentary Republic reflecting 
Western democratic principles. It has three branches. The Executive 
consists of the President, as Head of State, the Cabinet, headed by the 
Prime Minister and Ministers; the Legislative (National Council or 
Parliament), a unicameral body of 150 deputies; and the Judiciary with 
a Supreme Court and a Constitutional Court. Since 1999, the President 
is elected by direct vote for a five-year term. Slovakia has universal 
suffrage (from 18 years of age). The legislature is elected on the 
basis of proportional representation for four-year terms. The SR has a 
wide spectrum of political parties.
    The President is Commander-in-Chief of the Armed Forces and the 
Minister of Defense is a civilian. The Constitution guarantees 
fundamental human rights and freedoms that are familiar to us. In its 
just released annual report ``Freedom of the Press 2003'' on worldwide 
mass media, Freedom House classified Slovakia in the top--``FREE''--
category. Slovakia has very good relations with the U.S. and Western 
countries, as well as others. At the signing of the Protocols of 
Accession, March 26, Foreign Minister Eduard Kukan singled out three of 
Slovakia's neighbors--the Czech Republic, Hungary, and Poland--``who 
unselfishly have been sharing with us their lessons learned from the 
process of the adhesion to the Alliance.''
    The newly-elected government in 1998 inherited substantial fiscal 
and economic problems domestically, low international investment, and a 
foreign image not conducive to NATO membership. The Dzurinda-led 
coalition embarked on an ambitious program with impressive results. 
Today, Slovakia exhibits a free market economy while continuing 
vigorously with its reform program. Slovakia is a member of import 
organizations, including Organization for Economic Cooperation and 
Development (OECD), Central European Free Trade Agreement (CEFTA), 
World Bank, International Monetary Fund (IMF), and the European Bank 
for Reconstruction and Development.
    In its 2002 country brief, the World Bank reported that ``Slovak 
Republic's economic transformation over the last four years has 
positioned the country well for European Union (EU) accession. Indeed, 
Slovakia satisfied EU's stringent requirements, signed the Accession 
Treaty in April, and will hold a referendum May 16-17 on EU membership. 
Since polls indicate a highly favorable outcome, Slovakia will become a 
member in 2004. The country's GDP growth has been increasing, from 2.2 
percent in 2000 to probably over 4 percent in 2003, inflation continues 
decreasing, from 12 percent in 2000 to possibly the 4 percent range 
this year, and unemployment is dropping below 18 percent this year. 
Based on performance, prospects for the future appear promising 
domestically and increasingly attractive to international investors.

                        SLOVAKIA'S ARMED FORCES

    For years the Slovak public has judged its Army a most trusted 
institution. Slovakia's Armed Forces have performed magnificently in 
their missions abroad. To find a contrary view would be difficult. In 
their testimony, officials and experts have cited some, most recent, of 
their performance abroad. I add others.
    Slovakia was an early signatory to Partnership for Peace and a 
participant in its programs as well as with the Indiana National Guard. 
The Government had embarked on a revolutionary transformation of its 
Armed Forces, adopting a new strategy and an extensive reform program, 
as reflected in the Membership Action Plan (MAP) and its progress is 
ongoing. The two percent budgetary requirement for the Armed Forces is 
being reached, again reflecting Slovakia's determination to keep its 
commitments and guarantees. The objective is for the military to be 
fully interoperable with those of NATO members.
    One such commitment is to fulfill Slovakia's international 
treaties. Accordingly, Slovakia has participated, and continues to 
participate, in numerous international (NATO, UN, OSCE, EU, and 
Coalition) peacekeeping, peace support operations, and humanitarian 
missions. These are:

  <bullet> UN: Engineering Battalion in Bosnia-Herzegovina (1996-98)
  <bullet> UN: Observation Mission in Angola (1997-99)
  <bullet> NATO: Engineering unit for Peace Support in Albania (1999)
  <bullet> UN: Disengagement Observer Mission in Golan Heights (1998-  
        )
  <bullet> UN: Peacekeeping in Cyprus (2001-  )
  <bullet> UN: Military Field Hospital in East Timor (July 2001-6/03)
  <bullet> UN: Observation Mission in Lebanon and Syria (1998-  )
  <bullet> UN: Observation Mission in Sierra Leone (1999-  )
  <bullet> UN: Humanitarian Operations in Iraq (2000-03)
  <bullet> NATO: Peace Support Operations in Bosnia-Herzegovina (1998-  
        )
  <bullet> Also, AF deployed 2-helicopter unit (2002-  )
  <bullet> NATO: Stabilization in Kosovo, SR Mechanized Company, part 
        of a Czech-Slovak Bn, of multinational Brigade under UK Command 
        (2002-  )
  <bullet> EU: Monitoring Mission on former Yugoslav territory (2000-  
        )
  <bullet> OSCE: Observation Mission in Republic of Georgia (1999-  )
  <bullet> OSCE: Observation Mission in Moldova (1998-  )
  <bullet> FIGHT AGAINST TERRORISM: Engineering unit for Operation 
        Enduring Freedom, Afghanistan (September 2002-  )

    Mr. Chairman, we, of the Slovak League of America, have been aware 
of the criteria for NATO membership, and have observed developments in 
Central and Eastern Europe generally, and in Slovakia intensely. As 
loyal American citizens, we believe Slovakia has made impressive 
strides in ten years of independence, that it meets NATO requirements 
superbly, and that it is in the vital national interest of the Senate 
to ratify the Accession Protocol with Slovakia. We appeal to you, Mr. 
Chairman, to again apply your commendable leadership qualities in the 
Senate's discussion of its advice and consent.
            Sincerely,
                                             John J. Karch,
                                                Executive Director.

                              ----------                              


            Responses to Additional Questions for the Record


 Responses of Hon. Colin L. Powell, Secretary of State, to Additional 
   Questions for the Record Submitted by Senator Joseph R. Biden, Jr.

    Question 1a. Have your counterparts in Europe, Japan and elsewhere 
told you that UN endorsement for the post-conflict phase would improve 
chances for gaining contributions of troops and money? Do our key 
allies believe that the UN should play an important role in managing 
Iraq's political transition?

    Answer. A number of our Allies and others in the international 
community had expressed a preference for UN Security Council support of 
their participation in post-conflict Iraq. In addition to responding to 
UN humanitarian appeals, a number of countries sought to contribute to 
Iraq's economic reconstruction and recovery in cooperation with the 
Coalition. Some states also expressed interest in the possibility of 
providing security forces either individually or through a regional 
framework such as NATO.
    UN Security Council Resolution 1483 facilitates the participation 
of our Coalition partners and others in the international community in 
reconstruction and stabilization efforts. The resolution notes that 
states that are not ``occupying powers'' may work under the Authority 
and welcomes their willingness to contribute personnel, equipment and 
other resources. The first Operative Paragraph of the resolution 
includes an explicit appeal by the Security Council to member states 
and concerned organizations to help the people of Iraq reform their 
institutions and rebuild, and to ``contribute to conditions of 
stability and security in Iraq.'' The resolution also calls upon states 
to help meet humanitarian needs and provide resources for 
reconstruction and rehabilitation of Iraq's economic infrastructure, 
thereby opening the door for a broad range of assistance. Member States 
and regional organizations, such as NATO, are further called upon to 
contribute to the overall implementation of the resolution.
    UN Security Council Resolution 1483 fulfills the President and 
Prime Minister Blair's promise made at Hillsborough of a vital UN role 
in all aspects of Iraq's reconstruction, including the political 
process. Other Allies and Council members also believed the UN should 
play an important part in the political transition. Specifically, the 
resolution mandates the Secretary General's Special Representative to 
work intensively with the Coalition Provisional Authority and the 
people of Iraq to advance efforts to restore and establish national and 
local institutions for representative governance, including 
facilitation of a process leading to an internationally recognized, 
representative government of Iraq. In adopting SCR 1483 by a vote of 
14-0, Council members expressed broad satisfaction with the UN role 
outlined in the resolution and the fact that the UN Special 
Representative would be closely involved in the political process. The 
resolution allows the Coalition Provisional Authority and the UN 
Special Representative the needed flexibility to assist the Iraqi 
people in determining their own political future. We look forward to 
working with the Secretary-General's newly appointed Special 
Representative Sergio De Mello, who brings a great deal of experience 
to this position.

    Question 1b. Are our allies comfortable making their contributions 
through the Office of Reconstruction and Humanitarian Assistance, which 
is in the Defense Department chain of command?

    Answer. There are a number of different methods for our 
international partners to support Iraqi efforts to rebuild their 
country. Currently, there are coalition officials working directly with 
the Office of Reconstruction and Humanitarian Assistance (ORHA) on the 
ground in Iraq. Of the approximately 1,000 personnel working in ORHA, 
40 percent are from our coalition partners. In many cases these 
officials are coordinating bilateral assistance for the people of Iraq.
    Other donors have chosen to provide assistance through UN agencies, 
including in response to the UN Humanitarian Flash Appeal, other 
international organizations and NGOs. The Coalition, through ORHA and 
the USAID/State DART teams on the ground, are working to ensure that 
this assistance is effectively provided and is coordinated with other 
donor efforts and those efforts of the Iraqis in various sectors.
    As specified in UN Security Council Resolution 1483, the UN Special 
Representative will work closely with the Coalition Authority to ensure 
that humanitarian and reconstruction assistance coming through UN 
channels and NGOs is coordinated and supports overall efforts to 
improve the quality of life for Iraqi citizens.

    Question 1c. What is the Administration doing to bring other 
countries into the Iraq reconstruction effort? What success are you 
having? What additional support could you gain with a UN Security 
Council resolution?

    Answer. We have been engaged in a long-running effort to develop 
international support for our efforts to disarm Iraq and assist the 
Iraqi people in establishing the foundations of a prosperous, 
democratic nation. Our efforts to engage other countries on post-
conflict support began before Operation Iraqi Freedom as part of our 
coalition building exercises. Numerous countries have already committed 
either in-kind or cash contributions to the post-conflict effort, and 
others indicated that they would be able to do so following the 
adoption of a UN Security Council on post-conflict resolution. UNSCR 
1483 facilitates and encourages the participation of the international 
community in the reconstruction of Iraq. We expect that there will be a 
donors pledging conference later this year attended by a broad 
representation of countries and international organizations to 
contribute to the effort.

    Question 1d. Where do we stand on the issue of recruiting 
international police forces to help improve the law and order situation 
in Iraq? How many forces have been pledged and by whom? When will they 
arrive? Who will undertake that mission in the interim?

    Answer. We continue to seek assistance from the international 
community for contributions to assist in post-conflict Iraq. As has 
been reported in the press, there have been conferences in London and 
Warsaw to firm up troop contributions to stability operations. We are 
confident that approximately 16 countries will be contributing troops. 
In addition, there are approximately another 16 countries with which we 
(along with the UK and Poland) have been in discussions; we are 
confident that a number of these countries will also contribute troops.
    However, we are not planning to deploy an international civilian 
police force in Iraq, but instead are standing up an Iraqi national 
civilian police force within existing structures. While CENTCOM still 
has primary responsibility for stabilization and security, over half of 
the pre-war Baghdad police force has reported to work and is conducting 
joint patrols with U.S. military forces. The objective is to transfer 
civilian police functions from military forces to Iraqi civilian police 
as quickly as they are able to assume the responsibilities.
    To help us determine what will be needed to fully reconstitute 
Iraq's criminal justice system, a Department of Justice-led 
international team is on the ground to conduct an initial assessment of 
the sector needs throughout Iraq. We expect the initial assessment will 
be completed in early June.
    Following the assessment, DynCorp International, under contract to 
the State Department's Bureau of International Narcotics and Law 
Enforcement (INL), will provide up to 1,000 civilian advisors to help 
the government of Iraq organize effective civilian law enforcement, 
judicial, and correctional agencies.
    We are also approaching selected other governments to request 
assistance and contributions. Britain, Canada and Denmark have 
contributed senior police and judicial experts as members of the DOJ-
led assessment team that will determine the type and extent of 
assistance needed. We are also discussing offers from other countries 
for criminal justice expertise and equipment, and will coordinate all 
offers of assistance to avoid confusion and duplication of efforts.

    Question 1e. Have you had any success in recruiting other nations 
to share in the burden of serving as the senior advisors in the various 
Iraqi ministries?

    Answer. Yes, there are a number of international staff 
participating on the ground in Iraq, including a senior Italian 
official serving as the senior advisor in the Ministry of Culture and 
an Australian expert serving as one of the two senior advisors to the 
Agriculture Ministry. In addition, UK Major General Tim Cross serves as 
one of the three Deputy Directors and Danish Ambassador Ole Olson 
serves as Regional Coordinator for the Southern Region.

    Question 1f. Given the particular sensitivity of oil, would you be 
open to recruiting someone from a friendly oil-producing country 
instead of having direct American control of the oil sector?

    Answer. We recognize the political sensitivity of Iraqi oil and 
have appointed an Iraqi oil official, Thamir Ghadhban, to serve as the 
interim head of the oil management team. As such, Mr. Ghadhban will 
make the day-to-day management decisions in the oil sector, including 
sales, marketing and production decisions. We have also established an 
advisory board, headed by an experienced international oil executive, 
Phillip Carroll, to provide advice to Mr. Ghadhban and his staff. The 
advisory board will include Iraqi and non-Iraqi oil experts.

    Question 2a. Do you think the United States should choose the 
members of the Interim Authority or otherwise indicate our preferences, 
or should we remain neutral in the process?

    Answer. The United States, acting with our coalition partners, will 
engage in a broad range of consultations with all sectors of Iraqi 
society as part of the process to establish an interim authority in 
Iraq. Given the lack of democratic institutions in the country after 
decades of Ba'athist rule, it will be very important that the coalition 
ensure that the interim authority represents the full diversity of 
Iraq's population, including women and religious and ethnic minorities.

    Question 2b. Will insiders or exiles form the majority on the 
interim authority?

    Answer. The Coalition Provisional Authority, working with the UN 
Special Representative, will help the Iraqi people form an Iraqi 
interim administration (IIA) to serve as a transitional administration 
until an internationally recognized, representative government is 
established by the people of Iraq. Both Iraqis recently liberated from 
Saddam's rule and those Iraqis who have been living abroad, often in 
democratic societies, will have important roles to play in the IIA.

    Question 2c. What are the critical ingredients of a successful 
political transition?

    Answer. The Coalition is working to create the conditions for the 
people of Iraq to form an Iraqi interim administration (IIA). We are 
also working with Iraqis to ensure the effective administration of 
justice, the formation of an independent judiciary, and to help to 
establish the rule of law. We are also looking at steps to promote 
transparency and anti-corruption, and establishing an appropriate 
mechanism--probably a constituent assembly--to draft a new 
constitution.
    We have facilitated elections in several areas at the local 
government level to speed the delivery of basic services and begin the 
process of establishing representative government. Other local, 
regional and, ultimately, national elections must follow. We are 
engaged in efforts to support civic education, promote independent and 
professional media, and establish civil society institutions as key 
elements of a successful political transition.
    We are supporting Iraqi efforts to develop a new system that will 
be built around personal freedom and of law, a system that will provide 
increased economic opportunities for Iraqis and support the country's 
political transformation.
    The Special Representative of the UN Secretary General, Sergio de 
Mello, can and should play a vital role in the political and economic 
transformation of Iraq.
    We recognize the need to provide the IIA, the Coalition Provisional 
Authority, and the UN Special Representative the flexibility needed to 
assist the Iraqi people in determining their own political future. Just 
as non-Iraqis cannot impose a government on Iraq, we cannot impose a 
particular process in what is a dynamic situation. In these 
circumstances, an attempt to produce a firm ``blueprint'' for the 
formation of Iraqi political institutions would be doomed to failure.

    Question 2d. What will be the State Department's role in guiding 
Iraq's political transition? Will State play a subordinate role to the 
Defense Department?

    Answer. The President has appointed Ambassador L. Paul Bremer as 
Presidential Envoy to Iraq and, as Administrator of the Coalition 
Provisional Authority (CPA), Ambassador Bremer has the overall 
responsibility for overseeing Iraq's political and economic 
transformation. At the President's direction, Ambassador Bremer reports 
directly to Secretary of Defense Rumsfeld.
    There are a number of USG agencies, including the State Department, 
currently in Iraq supporting Ambassador Bremer as part of the CPA.

                FRAMEWORK CONVENTION ON TOBACCO CONTROL

    Question 3. Regarding the WHO Framework Convention on Tobacco 
Control, why has the United States decided to re-open the negotiation 
of an issue that has already been decided by prior negotiations? Is it 
your opinion that re-opening the negotiations on the FCTC does not 
imperil international support for and eventual enactment of the Treaty? 
If the U.S. position is again defeated, will the United States continue 
to insist on opening the treaty or will the U.S. permit the treaty to 
go forward, which appears to be the desire of the vast majority of the 
WHO member nations?

    Answer. As of April 29, the U.S. was engaged in discussion with 
countries to determine the level of interest in adoption of the treaty 
with a limited amendment removing the article prohibiting reservations.
    The U.S. endeavored over the past three years to negotiate a treaty 
that would help the world advance toward the level of tobacco control 
we have achieved in this country. At the same time, we tried to ensure 
that the Framework Convention would be a treaty that the United States 
would be able to sign and likely ratify.
    The Administration will carefully review the treaty language before 
making a final decision on signing.


</pre></body></html>
